No.

In the Supreme Court of the United States
XAVIER BECERRA, SECRETARY
OF HEALTH AND HUMAN SERVICES, PETITIONER
v.
EMPIRE HEALTH FOUNDATION,
FOR VALLEY HOSPITAL MEDICAL CENTER
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
BRIAN M. BOYNTON
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
JONATHAN C. BOND
Assistant to the Solicitor
General
MARK B. STERN
STEPHANIE R. MARCUS
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

The Medicare statute provides that a hospital that
serves a “significantly disproportionate number of lowincome patients” may receive an additional payment for
treating Medicare patients, known as the disproportionateshare-hospital adjustment. 42 U.S.C. 1395ww(d)(5)(F)(i)(I)
and (ii). The statute directs the Secretary of Health and
Human Services to calculate a hospital’s disproportionateshare-hospital adjustment (if any) using a formula that
is based principally on the sum of two separate proxy
measures of the proportion of low-income patients the
hospital serves. The first proxy measure, known as
the Medicare fraction, is the percentage of all patient
days of individuals who were “entitled to benefits under [Medicare] part A” and who were also entitled to
supplemental-security-income benefits.
42 U.S.C.
1395ww(d)(5)(f )(vi)(I). The second proxy measure,
known as the Medicaid fraction, is the percentage of
all of a hospital’s patient days that are attributable to
individuals who were eligible for Medicaid coverage
but who were not entitled to Medicare Part A benefits. 42 U.S.C. 1395ww(d)(5)(f )(vi)(II). The question
presented is as follows:
Whether the Secretary has permissibly included in a
hospital’s Medicare fraction all of the hospital’s patient
days of individuals who satisfy the requirements to be entitled to Medicare Part A benefits, regardless of whether
Medicare paid the hospital for those particular days.

(I)

RELATED PROCEEDINGS

United States District Court (E.D. Wash.):
Empire Health Found., for Valley Hosp. Med. Ctr.
v. Price, No. 16-cv-209 (Aug. 13, 2018)
United States Court of Appeals (9th Cir.):
Empire Health Found., for Valley Hosp. Med. Ctr.
v. Azar, Nos. 18-35845 and 18-35872 (May 5, 2020)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory and regulatory provisions involved ........................... 2
Statement:
A. Legal background ..................................................... 2
B. The present controversy ........................................ 11
Reasons for granting the petition ............................................. 15
I. The decision below is incorrect .................................... 18
A. The Secretary properly interpreted the
Medicare fraction to include all individuals
who meet the requirements to be entitled to
Medicare Part A benefits ...........................................19
B. The court of appeals erred in concluding, based
on its own precedent, that the statute
unambiguously forecloses the Secretary’s
interpretation ..............................................................27
II. The decision below creates a direct and
acknowledged conflict with two circuits ...................... 30
Conclusion ................................................................................... 33
Appendix A — Court of appeals opinion (May 5, 2020) ........ 1a
Appendix B — District court order (Aug. 13, 2018) ............ 23a
Appendix C — Provider Reimbursement Review Board
decision (Apr. 8, 2016) ............................... 76a
Appendix D — Court of appeals order denying
rehearing (Oct. 20, 2020)........................... 84a
Appendix E — Statutory and regulatory provisions .......... 86a
TABLE OF AUTHORITIES

Cases:
Bowen v. Galbreath, 485 U.S. 74 (1988) ................................ 5
Cabell Huntington Hosp., Inc. v. Shalala,
101 F.3d 984 (4th Cir. 1996) ........................................... 8, 30
(III)

IV
Cases—Continued:

Page

Catholic Health Initiatives Iowa Corp. v. Sebelius,
718 F.3d 914 (D.C. Cir. 2013) .................................... passim
Chevron U.S.A. Inc. v. Natural Res. Def. Council,
467 U.S. 837 (1984).............................................................. 14
Deaconess Health Servs. Corp. v. Shalala,
83 F.3d 1041 (8th Cir. 1996) ................................................. 8
Edgewater Med. Ctr. v. Blue Cross & Blue Shield
Ass’n, HCFA Adm’r Dec. (PRRB Dec. Nos. 2000-D44
& 2000-D45), 2000 WL 1146601 (June 19, 2000) ............... 3, 8
Entergy Corp. v. Riverkeeper, Inc.,
556 U.S. 208 (2009)........................................................ 27, 30
Good Samaritan Hosp. v. Shalala,
508 U.S. 402 (1993) ............................................................ 3
Hall v. Sebelius, 667 F.3d 1293 (D.C. Cir. 2012),
cert. denied, 568 U.S. 1085 (2013) ..................................... 21
Jewish Hosp., Inc. v. Secretary of HHS,
19 F.3d 270 (6th Cir. 1994) ................................. 9, 26, 29, 31
Legacy Emanuel Hosp. & Health Ctr. v. Shalala,
97 F.3d 1261 (9th Cir. 1996) ...................................... passim
Maine Med. Ctr. v. Burwell,
841 F.3d 10 (1st Cir. 2016) ............................................... 2, 3
Metropolitan Hosp. v. United States Dep’t of Health
& Human Servs., 712 F.3d 248
(6th Cir. 2013) ...................................................3, 4, 15, 29, 31
Monmouth Med. Ctr. v. Thompson,
257 F.3d 807 (D.C. Cir. 2001) ............................................... 8
Northeast Hosp. Corp. v. Sebelius,
657 F.3d 1 (D.C. Cir. 2011)................................... 3, 4, 29, 30
Obduskey v. McCarthy & Holthus LLP,
139 S. Ct. 1029 (2019) ......................................................... 26
Sebelius v. Auburn Reg’l Med. Ctr.,
568 U.S. 145 (2013)..................................................... passim

V
Statutes and regulations:

Page

Administrative Procedure Act, 5 U.S.C. 551 et seq.,
701 et seq. ......................................................................... 12
Social Security Act, 42 U.S.C. 301 et seq.:
Tit. II, 42 U.S.C. 401 et seq.:
42 U.S.C. 402 .............................................................. 21
42 U.S.C. 426 ........................................................ 21, 23
42 U.S.C. 426(a) .........................................passim, 86a
42 U.S.C. 426(b) .........................................passim, 87a
42 U.S.C. 426(c)(1) ............................................. 21, 89a
Tit. XVI, 42 U.S.C. 1381 et seq. ........................................ 5
Tit. XVIII, 42 U.S.C. 1395 et seq. .................................... 2
42 U.S.C. 1395b-2(a)(2) ............................................. 24
Pt. A ................................................................... passim
42 U.S.C. 1395c et seq. ........................................... 2
42 U.S.C. 1395d(a)................................................ 25
42 U.S.C. 1395d(b) ............................................... 10
Pt. B ............................................................................ 24
42 U.S.C. 1395l(a)(8)(B)(i) ................................... 23
42 U.S.C. 1395l(t)(1)(B)(ii) .................................. 23
42 U.S.C. 1395o(1) ................................................ 24
Pt. C ............................................................................ 24
42 U.S.C. 1395w-21(a)(3) ..................................... 24
Pt. D ............................................................................ 24
42 U.S.C. 1395w-101(a)(3)(A) .............................. 24
Pt. E:
42 U.S.C. 1395x(a) ................................................ 10
42 U.S.C. 1395y(b)(2) ........................................... 24
42 U.S.C. 1395oo(f )(1) .................................... 12, 32
42 U.S.C. 1395ww(d)(1)-(4) ................................... 3
42 U.S.C. 1395ww(d)(5)(F) ................ 3, 16, 19, 90a

VI
Statutes and regulations—Continued:

Page

42 U.S.C. 1395ww(d)(5)(F)(i)-(v) .................. 4, 90a
42 U.S.C. 1395ww(d)(5)(F)(v) ....................... 4, 93a
42 U.S.C. 1395ww(d)(5)(F)(vi) .............. 4, 5, 8, 94a
42 U.S.C. 1395ww(d)(5)(F)(vi)(I) ........passim, 94a
42 U.S.C. 1395ww(d)(5)(F)(vi)(II) .....passim, 94a
42 U.S.C. 1395ww(d)(5)(F)(vii)-(xiv) ............ 4, 95a
42 U.S.C. 1395ww(r)(1) ........................................ 19
Tit. XIX, 42 U.S.C. 1396 et seq. ........................................ 6
42 C.F.R.:
Section 400.202 .............................................. 7, 16, 22, 99a
Section 409.3 (2003) ........................................................... 7
Section 409.61(a)(1) ............................................... 10, 100a
Section 409.61(a)(2) ............................................... 10, 100a
Section 412.106(b)(2) (2003).............................................. 7
Section 412.106(b)(2)(i) (2003) .......................................... 9
Section 412.106(b)(2)(i) ........................................... 9, 102a
Section 412.106(b)(2)(iii) ......................................... 9, 103a
Miscellaneous:
CMS, HHS, CMS Rulings: No. CMS-1498-R
(Apr. 28, 2010), https://go.usa.gov/xsnnz .............. 11, 22, 25
48 Fed. Reg. 12,526 (Mar. 25, 1983) ................................. 7, 22
51 Fed. Reg. 31,454 (Sept. 3, 1986) ........................................ 8
69 Fed. Reg. 48,916 (Aug. 11, 2004) ............................ passim
75 Fed. Reg. 50,042 (Aug. 16, 2010) ..................................... 22
H.R. Conf. Rep. No. 453, 99th Cong., 1st Sess. (1985) ...... 26
H.R. Rep. No. 241, 99th Cong., 1st Sess. Pt. 1 (1985) .......... 4
Health Care Fin. Admin., Department of Health &
Human Servs., HFCA Rulings: No. 97-2
(Feb. 27, 1997), https://go.usa.gov/xsn8W .......................... 9

In the Supreme Court of the United States
No.
XAVIER BECERRA, SECRETARY
1
OF HEALTH AND HUMAN SERVICES, PETITIONER
v.
EMPIRE HEALTH FOUNDATION,
FOR VALLEY HOSPITAL MEDICAL CENTER
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the Secretary of Health and Human Services, respectfully petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra,
1a-23a) is reported at 958 F.3d 873. The order of the
district court (App., infra, 23a-75a) is reported at
334 F. Supp. 3d 1134. The decision of the Provider Reimbursement Review Board (App., infra, 76a-83a) is unreported.

Secretary Becerra is automatically substituted as a party for his
predecessor in office pursuant to Rule 35.3 of the Rules of this Court.
1

(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
May 5, 2020. A petition for rehearing was denied on October 20, 2020 (App., infra, 84a-85a). On March 19, 2020,
the Court extended the time within which to file any petition for a writ of certiorari due on or after that date to 150
days from the date of the lower-court judgment, order
denying discretionary review, or order denying a timely
petition for rehearing. The effect of that order was to extend the deadline for filing a petition for a writ of certiorari in this case to March 19, 2021. The jurisdiction of this
Court is invoked under 28 U.S.C. 1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED

Pertinent statutory and regulatory provisions are reproduced in the appendix to this petition. App., infra, 86a-105a.
STATEMENT
A. Legal Background

1. The Medicare program, established in 1965 by Title
XVIII of the Social Security Act (Medicare Act), 42 U.S.C.
1395 et seq., provides health-insurance coverage to individuals who are at least 65 years old and are entitled to
monthly Social Security benefits, and to disabled individuals who meet certain requirements. 42 U.S.C. 426(a) and
(b). Such individuals are automatically “entitled to * * *
benefits” under Medicare Part A, ibid., which authorizes
payments to providers for certain hospital and related
services that they furnish to Medicare beneficiaries, see
42 U.S.C. 1395c et seq. The Centers for Medicare & Medicaid Services (CMS) within the Department of Health
and Human Services (HHS) administers the Medicare
program on behalf of the Secretary. See Maine Med. Ctr.
v. Burwell, 841 F.3d 10, 13-14 (1st Cir. 2016).

3
Prior to 1983, “the federal government reimbursed
hospitals for the ‘reasonable cost’ of treating Medicare patients.” Maine Med. Ctr., 841 F.3d at 14. In 1983, Congress replaced that reasonable-cost approach with “a prospective payment system through which hospitals are reimbursed predetermined amounts for certain services.”
Ibid. Under that prospective payment system, the government pays “a hospital a fixed dollar amount for each
Medicare patient it discharges on the basis of the patient’s
diagnosis, regardless of the actual cost of the treatment
provided.” Metropolitan Hosp. v. United States Dep’t of
Health & Human Servs., 712 F.3d 248, 250 (6th Cir. 2013)
(citing Good Samaritan Hosp. v. Shalala, 508 U.S. 402,
406 n.3 (1993)); see 42 U.S.C. 1395ww(d)(1)-(4). Those
fixed per-patient amounts are subject, however, to certain
“adjustments” that Congress prescribed “based on various hospital-specific factors.” Northeast Hosp. Corp. v.
Sebelius, 657 F.3d 1, 3 (D.C. Cir. 2011); see Edgewater
Med. Ctr. v. Blue Cross & Blue Shield Ass’n, HCFA
Adm’r Dec. (PRRB Dec. Nos. 2000-D44 & 2000-D45),
2000 WL 1146601, at *2-*3 (June 19, 2000).
At issue here is one such adjustment that increases
Medicare payments to “hospitals that serve a disproportionate share of low-income patients,” Sebelius v.
Auburn Reg’l Med. Ctr., 568 U.S. 145, 150 (2013), known
as the “disproportionate share hospital” (or colloquially
“DSH”) adjustment, App., infra, 3a; see 42 U.S.C.
1395ww(d)(5)(F). Congress recognized that “low-income
patients are often in poorer health, and therefore costlier
for hospitals to treat.” Catholic Health Initiatives Iowa
Corp. v. Sebelius, 718 F.3d 914, 916 (D.C. Cir. 2013).
And “because hospitals with an unusually high percentage of low-income patients generally have higher per-

4
patient costs,” Congress determined that “such hospitals * * * should receive higher reimbursement rates.”
Auburn Reg’l Med. Ctr., 568 U.S. at 150.
Congress initially directed the Secretary to develop
adjustments to account for those higher costs. But in
1985, after those efforts had not come to fruition, Congress “established its own measure for assessing whether
a hospital ‘serves a significantly disproportionate number
of low income patients.’ ” Metropolitan Hosp., 712 F.3d at
250 (quoting 42 U.S.C. 1395ww(d)(5)(F)(v)). The centerpiece of the measure that Congress enacted is the
“disproportionate patient percentage,” 42 U.S.C.
1395ww(d)(5)(F)(v) and (vi), which is a “ ‘proxy measure’
for the number of low-income patients a hospital serves.”
Northeast Hosp. Corp., 657 F.3d at 3 (quoting H.R. Rep.
No. 241, 99th Cong., 1st Sess. Pt. 1, at 17 (1985)). That
percentage is used to determine whether a hospital will
receive any disproportionate-share-hospital adjustment
and, if so, to calculate the amount of that upward adjustment. See 42 U.S.C. 1395ww(d)(5)(F)(i)-(v), (vii)-(xiv);
Metropolitan Hosp., 712 F.3d at 250-251. In general, a
“higher [disproportionate-patient percentage] means
greater reimbursements” for a hospital, reflecting that
“the hospital is serving more low-income patients.”
Catholic Health Initiatives, 718 F.3d at 916.
The disproportionate-patient percentage “is not the
actual percentage of low-income patients served”; it is
instead merely “an indirect, proxy measure for low income.” Catholic Health Initiatives, 718 F.3d at 916. The
disproportionate-patient percentage “is statutorily defined as the sum of two fractions, often called the ‘Medicare fraction’ and the ‘Medicaid fraction,’ ” which “represent two distinct and separate measures of low income”
that are focused on two different populations: low-income

5
patients who are insured by Medicare Part A, and lowincome patients who are not insured by Medicare Part A,
respectively. Ibid; see 42 U.S.C. 1395ww(d)(5)(F)(vi).
The first component of the disproportionate-patient
percentage—the Medicare fraction, also “commonly
called the SSI fraction,” Auburn Reg’l Med. Ctr.,
568 U.S. at 150—focuses on low-income patients treated
by a hospital in a reporting period who were Medicare
beneficiaries, i.e., who “were entitled to benefits under
[Medicare] part A.” 42 U.S.C. 1395ww(d)(5)(F)(vi)(I). It
uses a patient’s entitlement to supplemental-securityincome (SSI) benefits under Title XVI of the Social Security Act, 42 U.S.C. 1381 et seq.—which provides financial assistance to certain “financially needy individuals,”
Bowen v. Galbreath, 485 U.S. 74, 75 (1988)—to identify
patients in that pool who also have low incomes. Specifically, the Medicare fraction is defined as a
fraction (expressed as a percentage), the numerator
of which is the number of such hospital’s patient days
for such period which were made up of patients who
(for such days) were entitled to benefits under part
A of this subchapter [i.e., Medicare Part A] and were
entitled to supplementary security income benefits
(excluding any State supplementation) under [Title
XVI], and the denominator of which is the number of
such hospital’s patient days for such fiscal year
which were made up of patients who (for such days)
were entitled to benefits under [Medicare] part A.
42 U.S.C. 1395ww(d)(5)(F)(vi)(I). The Medicare fraction
thus “effectively asks, out of all patient days from Medicare beneficiaries, what percentage of those days came
from Medicare beneficiaries who also” were entitled to
SSI benefits. Catholic Health Initiatives, 718 F.3d at
917; see Auburn Reg’l Med. Ctr., 568 U.S. at 150.

6
The second component of the disproportionate-patient
percentage—the Medicaid fraction—focuses on lowincome patients a hospital treated who were not Medicare
beneficiaries, i.e., “who were not entitled to benefits under
[Medicare] part A.” 42 U.S.C. 1395ww(d)(5)(F)(vi)(I).
The Medicaid fraction uses a patient’s eligibility for medical assistance under the Medicaid program, 42 U.S.C.
1396 et seq., rather than entitlement to SSI benefits, to
estimate the low-income non-Medicare patients a hospital serves relative to its total patient population. Specifically, the Medicaid fraction is defined as a
fraction (expressed as a percentage), the numerator
of which is the number of the hospital’s patient days
for such period which consist of patients who (for
such days) were eligible for medical assistance under
a State plan approved under [Title XIX], but who
were not entitled to benefits under part A of this subchapter [i.e., Medicare Part A], and the denominator
of which is the total number of the hospital’s patient
days for such period.
42 U.S.C. 1395ww(d)(5)(F)(vi)(II). The Medicaid fraction thus calculates, as a percentage of a hospital’s total
patient days in a reporting period, how many days were
attributable to patients who were not entitled to Medicare benefits but who were eligible for Medicaid benefits.
See Catholic Health Initiatives, 718 F.3d at 917.
The Medicare and Medicaid fractions thus provide
separate but complementary proxies for the percentage
of low-income patients a hospital serves, each focused
on a different subset of its patient pool: Medicare Part
A patients, and all other patients, respectively. “[W]hen
summed together,” those two measures “provide a
proxy for the [hospital’s] total low-income patient percentage.” Catholic Health Initiatives, 718 F.3d at 916.

7
2. This case concerns the calculation of the Medicare
fraction, and in particular the meaning of the phrase “entitled to benefits under [Medicare] part A” in the Medicare fraction’s numerator and denominator. 42 U.S.C.
1395ww(d)(5)(F)(vi)(I). The central dispute is whether
that phrase encompasses individuals who satisfied the
statutory criteria to be “entitled” to Medicare Part A
benefits, 42 U.S.C. 426(a) and (b), at the time they received services from a hospital, but for which services
Medicare ultimately did not (and was not required to)
pay the hospital. In the 2004 notice-and-comment regulation at issue in this case, the Secretary determined that
such individuals are to be counted in the Medicare fraction. See 69 Fed. Reg. 48,916, 49,098-49,099, 49,246 (Aug.
11, 2004).
a. The Secretary has long interpreted the term “entitled” in the Medicare context to refer to an individual’s
status as a Medicare beneficiary, i.e., that the individual
satisfies the statutory requirements for entitlement to
benefits under the program. For example, a regulation
first promulgated in 1983, and still in force today, provides that, “[a]s used in connection with the Medicare
program, unless the context indicates otherwise,” the
term “[e]ntitled means that an individual meets all the
requirements for Medicare benefits.” 48 Fed. Reg.
12,526, 12,535 (Mar. 25, 1983) (42 C.F.R. 400.202).
Prior to 2004, however, when HHS calculated a hospital’s disproportionate-share-hospital adjustment, it nevertheless included in the Medicare fraction only “covered”
Medicare patient days, 42 C.F.R. 412.106(b)(2) (2003)—i.e.,
days for which payment from the Medicare program was
available to the hospital, cf. 42 C.F.R. 409.3 (2003) (providing that the term “[c]overed” in regulations addressing
inpatient hospital services “refers to services for which

8
the law and the regulations authorize Medicare payment”). HHS had interpreted the parenthetical phrase
“(for such days)”—which appears in both the Medicare
fraction (referring to “patients who ( for such days)
were entitled to benefits under [Medicare] part A”) and
the Medicaid fraction (referring to “patients who ( for
such days) were eligible for [Medicaid]”), 42 U.S.C.
1395ww(d)(5)(F)(vi) (emphases added)—as directing it
to focus on patient days for which a hospital was actually paid by Medicare or Medicaid, respectively. See
51 Fed. Reg. 31,454, 31,460 (Sept. 3, 1986) (discussing
Medicaid fraction); id. at 31,460-31,461 (discussing
Medicare fraction). 2
b. HHS subsequently revisited that approach following a series of judicial decisions rejecting its interpretation of the “(for such days)” qualifier in the context of the Medicaid fraction. See Monmouth Med.
Ctr. v. Thompson, 257 F.3d 807, 810 (D.C. Cir. 2001)
(citation omitted). By 1997, four courts of appeals had
rejected HHS’s position that only patient days actually
paid by the Medicaid program should be counted in the
numerator of the Medicaid fraction. See ibid. (citing
Cabell Huntington Hosp., Inc. v. Shalala, 101 F.3d 984
(4th Cir. 1996); Legacy Emanuel Hosp. & Health Ctr.
v. Shalala, 97 F.3d 1261 (9th Cir. 1996); Deaconess
HHS has also excluded from the Medicaid fraction’s numerator
all patient days of Medicare Part A beneficiaries, regardless of
whether Medicare had paid the hospital for those days. See Edgewater Med. Ctr., 2000 WL 1146601, at *4-*5; see Catholic Health
Initiatives, 718 F.3d at 918, 921. In the definition of the Medicaid
fraction’s numerator in subclause (II), unlike in the definition of the
Medicare fraction in subclause (I), the phrase “(for such days)” does
not modify the phrase “entitled to benefits under [Medicare] part A”;
it modifies only the phrase “eligible for medical assistance under
[Medicaid].” 42 U.S.C. 1395ww(d)(5)(F)(vi)(II).
2

9
Health Servs. Corp. v. Shalala, 83 F.3d 1041 (8th Cir.
1996) (per curiam); and Jewish Hosp., Inc. v. Secretary
of HHS, 19 F.3d 270 (6th Cir. 1994)). In 1997, CMS’s
predecessor issued a ruling that acquiesced nationwide
in those courts’ interpretation and “established a new
interpretation” of the Medicaid fraction, under which
“Medicaid eligible days would be counted ‘whether or
not the hospital received payment for those inpatient
hospital services.’ ” Ibid. (quoting Health Care Fin.
Admin., HHS, HFCA Rulings: No. 97-2 (Feb. 27, 1997),
https://go.usa.gov/xsn8W) (emphasis added).
In 2004, following notice and comment, the Secretary
promulgated the regulation at issue here, which carried
over that same approach to the Medicare fraction. See
69 Fed. Reg. at 49,098-49,099. The 2004 regulation implemented that interpretation by replacing the direction
to “[d]etermine[ ] the number of covered patient days” of
Medicare Part A beneficiaries in the prior regulation
with a direction to “[d]etermine[ ] the number of patient
days” of such patients simpliciter. Id. at 49,246 (emphasis added) (amending 42 C.F.R. 412.106(b)(2)(i) (2003));
see App., infra, 77a. As a result, under the 2004 regulation, all patient days of Medicare Part A beneficiaries are
included in the Medicare fraction, regardless of whether
Medicare paid for those particular days. All patient days
attributable to Medicare Part A beneficiaries are counted
in the Medicare fraction’s denominator, and all patient
days of such individuals who were entitled to SSI benefits
are counted in the Medicare fraction’s numerator. See
App., infra, 77a; 42 C.F.R. 412.106(b)(2)(i) and (iii). 3
The 2004 rule also continued to exclude all patient days of Medicare Part A beneficiaries from the numerator of the Medicaid fraction, regardless of whether those days were paid for by Medicare.
See 69 Fed. Reg. at 49,098-49,099; see also p. 8 n.2, supra.
3

10
In adopting the 2004 regulation, the Secretary specifically addressed its application to patients who were
Medicare Part A beneficiaries at the time they were
treated at a hospital, but who had exhausted their Medicare Part A coverage for hospital inpatient days for the
relevant benefit period—such that the Medicare program was not required to pay the hospital for those particular days. 69 Fed. Reg. at 49,098-49,099. In general,
Medicare Part A will pay only for a limited number of
successive hospital inpatient days (typically 90) in a single “spell of illness.” 42 U.S.C. 1395d(b); see 42 U.S.C.
1395x(a) (“spell of illness” ends after a patient is discharged and has 60 consecutive days without inpatient
care); 42 C.F.R. 409.61(a)(1). With certain exceptions,
if a patient’s stay exceeds that limit, his or her Medicare
coverage of hospital inpatient days for that period is
“exhausted,” and Medicare does not pay for the days in
excess of the limit. App., infra, 7a n.8; see 42 C.F.R.
409.61(a)(1) and (2).
The Secretary determined that patient days attributable to an individual who satisfied the requirements to be entitled to Medicare Part A benefits at the
time she received care should be counted in the Medicare fraction even if the individual had exhausted her
Part A inpatient coverage. See 69 Fed. Reg. at
49,098-49,099. The Secretary observed that a Medicare
Part A beneficiary who exhausts her covered inpatient
days for a benefit period does not thereby lose her entitlement to Medicare Part A benefits altogether. See id.
at 49,098. To the contrary, the Secretary noted that
Medicare “beneficiaries who have exhausted their Medicare Part A inpatient coverage may still be entitled to
other Part A benefits.” Ibid. For example, although a

11
beneficiary’s entitlement to inpatient care may be exhausted, “other items and services * * * still might be
covered under Part A,” such as “certain physician services and skilled nursing services.” CMS, HHS, CMS
Rulings: No. CMS-1498-R, at 10 (Apr. 28, 2010) (Ruling No. CMS-1498-R), https://go.usa.gov/xsnnz. The
Secretary accordingly endorsed a commenter’s observations “that a patient who exhausts coverage for inpatient hospital services still remains entitled to other
Medicare Part A benefits,” and that it is “difficult to
reconcile” that fact with an interpretation of the statute
that deems Medicare beneficiaries who have exhausted
inpatient days to be “not entitled to Medicare Part A
benefits” at all. 69 Fed. Reg. at 49,098. The Secretary
recognized that including Medicare beneficiaries’ patient days in the Medicare fraction rather than in the
Medicaid fraction could increase some hospitals’ payments while decreasing those of others, depending on
the makeup of their patient populations. See ibid.
B. The Present Controversy

1. Valley Hospital Medical Center operated a shortterm acute-care hospital that participated as a provider
in the Medicare program. Compl. ¶ 5. Respondent acquired Valley Hospital’s right to payment from the
Medicare program for (as relevant here) fiscal year
2008. App., infra, 10a.
“Dissatisfied with its total reimbursement amount”
for 2008 as determined by the Medicare contractor that
calculated Valley Hospital’s payment, respondent appealed to the Provider Reimbursement Review Board
within HHS. App., infra, 10a-11a. Respondent contended (as relevant) that the 2004 regulation’s treatment of patient days of Medicare beneficiaries for days

12
which were not covered was inconsistent with the Medicare Act’s text. Id. at 77a-78a. Respondent requested,
and the Board granted, expedited judicial review under
42 U.S.C. 1395oo(f )(1), which allows a provider to seek
review of a Medicare contractor’s action directly in district court over matters the Board determines it lacks
authority to resolve. App., infra, 11a n.13; see id. at 83a.
2. Respondent commenced this action in the district
court challenging the 2004 rule as substantively and procedurally invalid. App., infra, 25a. Respondent contended that “the Secretary’s interpretation of the phrase
‘entitled to benefits under [Medicare Part A]’ ” in Section
1395ww(d)(5)(F)(vi)(I) conflicts with the statutory language and Ninth Circuit precedent. Ibid. (citation omitted; brackets in original). Respondent additionally contended that the Secretary had failed to comply with
notice-and-comment procedures prescribed in the Administrative Procedure Act, 5 U.S.C. 551 et seq., 701 et seq., in
promulgating the final rule. App., infra, 51a.
The district court granted partial summary judgment to respondent. App., infra, 23a-75a. The court
rejected respondent’s substantive challenge to the relevant portion of the 2004 rule. Id. at 31a-51a. It found
the Secretary’s interpretation of “entitled to benefits
under [Medicare] part A” in the Medicare fraction—as
encompassing all individuals who have met the statutory requirements for entitlement to Medicare, regardless of whether Medicare made any payment—to be a
permissible interpretation of ambiguous statutory language. Id. at 39a-51a. The court concluded, however,
that the rule was procedurally invalid because it was
“not a logical outgrowth” of the agency’s notice of proposed rulemaking. Id. at 70a; see id. at 51a-72a. The

13
court enjoined HHS from applying the challenged portion of the 2004 rule to respondent and directed the
agency to recalculate respondent’s disproportionateshare-hospital adjustment for fiscal year 2008 in accordance with the court’s order. Id. at 74a-75a.
3. The court of appeals affirmed, but on different
grounds. App., infra, 1a-22a.
The court of appeals first determined that the final
rule was a logical outgrowth of the agency’s proposed
rule and that the district court thus erred in vacating
the rule on procedural grounds. App., infra, 12a-16a.
The court of appeals further concluded, however,
that the 2004 regulation is “substantively invalid.”
App., infra, 21a. The court reasoned that the regulation’s interpretation was foreclosed by the Ninth Circuit’s prior decision in Legacy Emanuel, supra, which
addressed the Medicaid fraction. App., infra, 18a-21a.
In Legacy Emanuel, the Ninth Circuit had rejected
HHS’s previous approach of excluding from the Medicaid fraction’s numerator those patient days of an individual who satisfied the criteria for Medicaid eligibility
under the relevant State’s Medicaid plan but for which
the Medicaid program did not ultimately pay—including
because the individual had exhausted the number of
days of inpatient care the State’s Medicaid plan would
cover. 97 F.3d at 1263-1266; see id. at 1265 (concluding
that “the Medicaid proxy includes all patient days for
which a person was eligible for Medicaid benefits,
whether or not Medicaid actually paid for those days of
service”). In reaching that conclusion—which HHS
subsequently embraced in the context of the Medicaid
fraction, and which it extended to the Medicare fraction
in the 2004 rule, pp. 8-11, supra—the court in Legacy
Emanuel relied in part on “Congress’s use of the word

14
‘eligible’ rather than ‘entitled’ ” when referring to Medicaid. 97 F.3d at 1265. The court “presum[ed]” that
Congress, in using both the terms “ ‘eligible’ ” when referring to Medicaid and “ ‘entitled’ ” when referring to
Medicare, “intended [them] to have different meanings.” Ibid. (citation omitted). It interpreted “entitled”
to “ ‘mean[ ] that one possesses the right or title to [a]
benefit’ ” for the particular service, and it construed “eligible” to be “broader” and not to be limited to “only
those days actually paid for by Medicaid.” Id. at
1264-1265 (citation omitted).
In the decision below, the court of appeals held that
its decision in Legacy Emanuel had resolved the meaning of “entitled” when referring to Medicare at “step
one” of the inquiry under Chevron U.S.A. Inc. v. Natural
Resources Defense Council, 467 U.S. 837 (1984), and
therefore had left no room for further or contrary interpretation by the agency. App., infra, 18a. The decision
below interpreted Legacy Emanuel as having definitively “interpreted the word ‘entitled’ to mean that a patient has an ‘absolute right . . . to payment’ ” under the
relevant federal program, not that the “patient simply
meets the [program’s] statutory criteria.” Ibid. (citation
omitted). The court noted Legacy Emanuel’s observation that, “ ‘if Congress had wanted to limit the Medicaid
proxy to days for which Medicaid actually paid, Congress
could have used “entitled” or expressly specified that it
was to include only those days actually paid for by Medicaid.’ ” Ibid. (quoting Legacy Emanuel, 97 F.3d at 1265).
The court thus viewed its decision in Legacy Emanuel as
foreclosing the 2004 regulation’s interpretation of the
Medicare fraction as “embracing even those patient days
for which Medicare coverage is exhausted (i.e., for which
there is no absolute right to payment).” Ibid.

15
The court of appeals acknowledged that its decision
invalidating the 2004 regulation’s interpretation of the
Medicare fraction conflicts with decisions of the D.C.
and Sixth Circuits that have upheld the agency’s interpretation as a reasonable reading of the statutory language. App., infra, 19a-21a (citing Catholic Health Initiatives, 718 F.3d at 920, and Metropolitan Hosp.,
712 F.3d at 270). The court declined to follow those decisions, stating that neither of those courts had been
confronted with “binding circuit precedent holding that
the statutory language was unambiguous.” Id. at 19a;
see id. at 19a-21a.
The court of appeals accordingly “affirm[ed], on different grounds, the district court’s order * * * vacating the
[2004] Rule.” App., infra, 22a (capitalization and emphasis omitted). The court stated that it was “reinstat[ing]
the prior version of 42 C.F.R. § 412.106(b)(2)(i), which embraced only ‘covered’ patient days” in calculating the
Medicare fraction. Ibid.
4. The court of appeals denied the government’s petition for rehearing en banc. App., infra, 84a-85a.
REASONS FOR GRANTING THE PETITION

In the decision below, the Ninth Circuit erroneously
held invalid the Secretary’s longstanding interpretation,
codified in a notice-and-comment regulation in force since
2004, of a provision of the Medicare Act that governs payments to Medicare-participating hospitals nationwide.
That conclusion rests on a misreading of the statutory text
and context. And as the court recognized, its ruling directly conflicts with decisions of two other courts of appeals that have upheld the Secretary’s interpretation.
This Court’s review is warranted to resolve that conflict
and to correct the court of appeals’ error.

16
Recognizing that “hospitals with an unusually high
percentage of low-income patients generally have
higher per-patient costs,” Congress determined that
“such hospitals * * * should receive higher reimbursement rates,” and it prescribed in the statute a formula
for determining whether a hospital is entitled to such an
increase in payment and, if so, how much. Sebelius v.
Auburn Reg’l Med. Ctr., 568 U.S. 145, 150 (2013); see
42 U.S.C. 1395ww(d)(5)(F). The central components of
that formula are two proxy measures Congress established to reflect a hospital’s proportion of low-income
Medicare and non-Medicare patients, respectively. In
the first of those proxies—the Medicare fraction—
Congress directed the Secretary to include patient days
attributable to “patients who (for such days) were
entitled to benefits under [Medicare] part A.” 42 U.S.C.
1395ww(d)(5)(F)(vi)(I) (emphasis added). The Secretary has properly included in that calculation patient
days of all individuals who satisfy the basic statutory
requirements for entitlement to Medicare Part A benefits, without regard to whether Medicare ultimately
paid the hospital for those particular patient days.
That interpretation embodied in the Secretary’s 2004
regulation represents the best reading of the statutory
text, context, structure, and purpose. At a minimum, it
embodies a reasonable construction that warrants judicial
respect. The Medicare Act and the Secretary’s regulations make clear that an individual is “entitled” to Medicare Part A benefits so long as he or she satisfies certain
applicable requirements. 42 U.S.C. 426(a) and (b); see
42 C.F.R. 400.202. Other provisions of the statute confirm, as HHS has long recognized, that a Medicare beneficiary’s “entitlement[ ]” to Part A benefits does not depend on whether he or she has exhausted the maximum

17
allotment of one particular benefit (hospital inpatient
days) for a specific benefit period. The Secretary’s interpretation also accords with the statutory structure, history, and purpose, which reflect Congress’s deliberate design of the proportions of low-income patients in the Medicare and non-Medicare populations a hospital serves.
The court of appeals based its contrary conclusion
solely on its own precedent addressing a distinct issue:
its prior decision in Legacy Emanuel Hosp. & Health
Ctr. v. Shalala, 97 F.3d 1261 (9th Cir. 1996), holding that
the number of patient days of individuals “eligible for
[Medicaid] benefits” in the Medicaid fraction, 42 U.S.C.
1395ww(d)(5)(F)(vi)(II), is not limited to patient days for
which the Medicaid program actually paid. Relying on a
distinction Legacy Emanuel had mistakenly drawn between being “eligible” for benefits—rather than “entitled” to benefits—the court below, again mistakenly,
believed itself bound to construe the Medicare fraction
to operate in a fundamentally different manner than
the Medicaid fraction. That conclusion lacks any sound
basis in the text or purpose of the statute and overlooks that Congress’s linguistic choices are fully explained by the distinct usage of the terms “eligible”
and “entitled” in the Medicaid and Medicare programs.
The court of appeals’ erroneous decision warrants
this Court’s review. As the court of appeals acknowledged, the decision below creates a direct conflict, now
entrenched by its denial of rehearing en banc, with decisions of the D.C. and Sixth Circuits. Both of those courts
have expressly upheld the Secretary’s interpretation as
reflecting at least a permissible construction of the statute. And because the Ninth Circuit concluded that the
statutory text unambiguously precludes that interpreta-

18
tion, the agency cannot resolve the conflict through further rulemaking to reconfirm the Secretary’s construction.
If allowed to stand, the decision below thus will require
the agency either to abandon altogether its longstanding
interpretation of the Medicare Act that two circuits have
upheld, or to interpret the same statutory provision governing a complex nationwide benefits program differently
in different circuits. The latter, patchwork approach is especially fraught because any provider that would receive
a larger payment under HHS’s approach—including
those in the Ninth Circuit—may seek review in the D.C.
Circuit, which has upheld the agency’s position. The petition for a writ of certiorari should be granted.
I. THE DECISION BELOW IS INCORRECT

The Medicare Act directs HHS to include in calculating
a hospital’s Medicare fraction the patient days of individuals “who (for such days) were entitled to benefits under
[Medicare] part A.” 42 U.S.C. 1395ww(d)(5)(F)(vi)(I). The
Secretary properly determined to include all patient days
of individuals who satisfy the statutory criteria to be “entitled” to Medicare Part A benefits, 42 U.S.C. 426(a) and
(b), regardless of whether the Medicare program ultimately pays the hospital for those days.
The court of appeals erred in reading in an unstated
limitation requiring the agency to exclude patient days
of a Medicare Part A beneficiary for which Medicare did
not pay, including because the beneficiary exhausted his
inpatient benefits for that particular benefit period. At
a minimum, the court erred in failing to recognize that
the Secretary’s interpretation reflects a reasonable construction of the statute’s text and context that is accordingly entitled to judicial respect.

19
A. The Secretary Properly Interpreted The Medicare Fraction
To Include All Individuals Who Meet The Requirements
To Be Entitled To Medicare Part A Benefits

1. Cognizant that “hospitals that serve a disproportionate share of low-income patients * * * generally
have higher per-patient costs,” Congress directed in the
Medicare Act that “such hospitals * * * should receive
higher reimbursement rates.” Auburn Reg’l Med. Ctr.,
568 U.S. at 149. Congress prescribed a formula for
identifying such a “disproportionate share hospital” and
for determining its additional payment. 42 U.S.C.
1395ww(r)(1); see 42 U.S.C. 1395ww(d)(5)(F).
At the heart of the statutory formula are two separate
but related proxy measures of a hospital’s low-income
patients that are added together. The first proxy, the
Medicare (or SSI) fraction, addresses patients treated
by the hospital who were Medicare beneficiaries—i.e.,
who were “entitled to benefits under [Medicare] part A.”
42 U.S.C. 1395ww(d)(5)(F)(vi)(I). The Medicare fraction
uses a patient’s entitlement to SSI benefits to gauge his
or her low-income status, by asking what percentage of
all of a hospital’s patient days attributable to Medicarebeneficiary patients was for treatment of such patients
who also were entitled to SSI benefits. Ibid.
The second proxy, the Medicaid fraction, estimates
the hospital’s proportion of low-income patients who
were not Medicare beneficiaries—i.e., who were not
“entitled to benefits under [Medicare] part A.”
42 U.S.C. 1395ww(d)(5)(F)(vi)(II). As a stand-in for
low-income status, the Medicaid fraction uses a patient’s eligibility for medical assistance under Medicaid,
instead of entitlement to SSI benefits. The Medicaid
fraction thus determines what percentage of all of a hospital’s patient days was attributable to patients who

20
“were eligible for medical assistance under a State
[Medicaid] plan, * * * but who were not entitled to benefits under [Medicare] part A.” Ibid.; see Catholic
Health Initiatives Iowa Corp. v. Sebelius, 718 F.3d 914,
917 (D.C. Cir. 2013).
Individually, each proxy offers only a partial picture,
providing separate estimates of two different, complementary subsets of a hospital’s population of low-income
patients: low-income patients who were entitled to Medicare, and low-income patients who were not. But the
statute directs that those two separate proxies be
“summed together,” providing one aggregate “proxy for
the [hospital’s] total low-income patient percentage.”
Catholic Health Initiatives, 718 F.3d at 916.
2. The central question in this case concerns the
meaning of the phrase “entitled to benefits under [Medicare] part A” in the Medicare fraction. 42 U.S.C.
1395ww(d)(5)(F)(vi)(I). The precise question is whether
an individual’s patient days should be excluded in counting the total patient days that a hospital provided to patients “entitled to benefits under [Medicaid] part A,” ibid.,
if the Medicare program did not pay the hospital for those
particular days—for example, because the patient had exhausted the allotted number of days of inpatient treatment for that particular benefit period. The Secretary
properly answered that question in the negative.
a. The Secretary’s longstanding interpretation, codified in the 2004 regulation at issue here, is that the
phrase “entitled to benefits under [Medicare] part A” in
the Medicare fraction, 42 U.S.C. 1395ww(d)(5)(F)(vi)(I),
means what it says: a person is entitled to Part A benefits if he or she meets the requirements that Congress

21
has established in the statute for a person to be “entitled” to participate in the Part A program. 69 Fed. Reg.
at 49,098-49,099.
Section 426, captioned “[e]ntitlement to hospital insurance benefits,” provides that certain categories of individuals who satisfy certain specified criteria are “entitled to
hospital insurance benefits under part A of subchapter
XVIII,” i.e., Medicare Part A. 42 U.S.C. 426(a) and (b) (emphasis omitted). For example, “[e]very individual who
* * * has attained age 65” and who is “entitled” to traditional Social Security benefits under 42 U.S.C. 402 is automatically “entitled” to Medicare Part A benefits. 42 U.S.C.
426(a); see Hall v. Sebelius, 667 F.3d 1293, 1295 (D.C. Cir.
2012) (“Since Congress created Medicare in 1965, entitlement to Social Security benefits has led automatically to
entitlement to Medicare Part A benefits for those who are
65 or older.”), cert. denied, 568 U.S. 1085 (2013). Similarly,
“[e]very individual” under age 65 who has been entitled for
24 months (and remains entitled) to certain federal disability benefits is entitled to Medicare Part A benefits as well.
42 U.S.C. 426(b). Although “entitlement” to Part A benefits “consist[s] of ” a right to have payment made for Part
A services, that right is “subject to the limitations” set forth
in Part A, 42 U.S.C. 426(c)(1), and accordingly the statute
does not make the individual’s basic “entitlement” under
Medicare Part A contingent on whether the Medicare program pays for a particular hospital stay or specific days.
For decades, the Secretary has interpreted “entitled”
in the context of Medicare benefits in that manner. In a
regulation promulgated in 1983 and still in force, HHS
defined the term “[e]ntitled,” when “used in connection
with the Medicare program,” to “mean[ ] that an individual meets all the requirements for Medicare benefits”—
referring to the individual’s insured status as a Medicare

22
beneficiary. 48 Fed. Reg. at 12,535 (42 C.F.R. 400.202).
Given that settled, straightforward meaning of “entitled”
in the context of Medicare benefits, the Secretary
properly determined in the 2004 regulation that “entitled
to benefits under [Medicare] part A” in the Medicare
fraction, 42 U.S.C. 1395ww(d)(5)(F)(vi)(I), refers to patients who satisfied the statutory criteria for “entitle[ment]” to Part A benefits at the time of treatment,
42 U.S.C. 426(a) and (b). 69 Fed. Reg. at 49,099.
The Secretary specifically considered, but rejected,
reading into the Medicare fraction an additional, unstated limitation that would have excluded those patient
days attributable to patients “entitled to benefits under
[Medicare] part A” for which Medicare did not ultimately pay because the beneficiary had exhausted her
allocated inpatient days for the benefit period. See
69 Fed. Reg. at 49,099. The 2004 regulation stated that
HHS was “adopting a policy to include the days associated with” patients entitled to Medicare “in the Medicare fraction, whether or not the beneficiary has exhausted Medicare Part A hospital coverage.” Ibid.
Thus, the Secretary explained, “[i]f the patient is entitled to Medicare Part A and SSI, the patient days will
be included in both the numerator and denominator of
the Medicare fraction,” whether or not the Medicare
program ultimately paid for those patient days. Ibid.
That approach, which the agency has repeatedly reaffirmed since, accords with the statutory language.
See, e.g., 75 Fed. Reg. 50,042, 50,280-50,281 (Aug. 16,
2010); Ruling No. CMS-1498-R, at 10. Nothing in the
text of the statutory provision prescribing who is “entitled” to Part A benefits, 42 U.S.C. 426(a) and (b), ties a
beneficiary’s basic entitlement under the Medicare Part

23
A program to the program’s payment for particular services. Nor does it deem a Medicare beneficiary disentitled to Part A benefits generally merely because the
beneficiary has exhausted the full allotment of one specific type of service (hospital inpatient days) in a particular benefit period. Ibid. Section 426 classifies a set of
individuals who meet specified requirements as automatically “entitled to [Part A] benefits.” Ibid. The Secretary appropriately interpreted the corresponding text of
the Medicare fraction to carry the same meaning.
b. The statutory context reinforces the Secretary’s
determination in the 2004 rule that a Medicare Part A
beneficiary remains entitled to Part A benefits, including for purposes of the Medicare fraction, regardless of
whether that beneficiary has exhausted his or her hospital inpatient days for the particular benefit period.
Various provisions of the Medicare statute specifically
contemplate that a person may be entitled to Medicare
Part A benefits even though his or her Part A benefits for
a particular service have been exhausted. For example,
in 1997, Congress specified that covered outpatient services include certain hospital inpatient services that are
furnished to an individual who “(I) is entitled to benefits
under part A but has exhausted benefits for inpatient hospital services during a spell of illness, or (II) is not so entitled.” 42 U.S.C. 1395l(t)(1)(B)(ii) (emphases added).
Similarly, in prescribing the amount that Medicare will
pay for outpatient physical-therapy services, Congress
specified that the amount prescribed applies to an outpatient or to a hospital inpatient “who is entitled to benefits
under part A but has exhausted benefits for inpatient hospital services during a spell of illness or is not so entitled
to benefits under part A.” 42 U.S.C. 1395l(a)(8)(B)(i) (emphases added). By making clear that entitlement to and

24
exhaustion of benefits can coexist, and by distinguishing
between beneficiaries who are entitled to but have exhausted Part A benefits from those not entitled to Part A
benefits at all, those provisions make clear that exhaustion
of some or all types of Part A benefits does not nullify a
beneficiary’s basic entitlement under Part A.
By the same token, a view that equated a beneficiary’s
entitlement to Medicare Part A benefits with payment by
Medicare for particular hospital inpatient days would produce incongruous results under other statutory provisions
that Congress is unlikely to have intended. For example,
an individual’s ability to enroll in Medicare Part B (which
covers outpatient and other services not covered by Part
A), Medicare Part C (which provides for coverage through
privately administered Medicare Advantage plans), and
Medicare Part D (which provides prescription-drug
benefits) is generally predicated upon the individual’s
being “entitled to” Part A benefits. 42 U.S.C. 1395o(1),
1395w-21(a)(3), 1395w-101(a)(3)(A). Nothing in the statute
suggests that Congress intended an individual’s eligibility
to enroll in Parts B, C, or D to depend on whether Medicare
paid for particular past inpatient days under Part A or on
whether the individual has exhausted particular Part A
benefits. Similarly, another provision requires HHS to notify “individuals entitled to benefits under part A” of their
benefit information, including information about the
“limitations on payment * * * that are imposed under
[Medicare Part A].” 42 U.S.C. 1395b-2(a)(2). No sound
basis exists to suppose that Congress designed that statutory obligation to provide such notices to all Medicare beneficiaries to phase in and out merely because a beneficiary
either exhausts Part A benefits or obtains other healthcare coverage that becomes the primary payer for services
Part A also covers, see 42 U.S.C. 1395y(b)(2).

25
Moreover, describing a Medicare Part A beneficiary
who has completely exhausted one particular type of Part
A benefit in a benefit period as no longer entitled to Medicare Part A benefits would disregard important attributes of entitlement under Part A. As the Secretary explained in the 2004 rule, “beneficiaries who have exhausted their Medicare Part A inpatient coverage may
still be entitled to other Part A benefits.” 69 Fed. Reg. at
49,098. In addition to hospital inpatient care, Part A also
provides, “for example, certain physician services and
skilled nursing services.” Ruling No. CMS-1498-R, at 10;
see 42 U.S.C. 1395d(a). A Part A beneficiary whose inpatient “hospital benefits have been exhausted * * * still
might be covered” for such “other items and services.”
Ruling No. CMS-1498-R, at 10. As a comment endorsed
by the Secretary in adopting the 2004 rule observed, it is
“difficult to reconcile” deeming individuals who have exhausted inpatient coverage to be “not entitled to Medicare
Part A benefits” with the fact that “they can receive other
covered Part A services.” 69 Fed. Reg. at 49,098. Even as
to inpatient care, a patient who exhausts the allotted inpatient days in one benefit period will receive a new allotment
of days in future periods. See Ruling No. CMS-1498-R, at
10 (such a patient “would even qualify for an additional 90
days of Part A hospital benefits if at least 60 days elapsed
between the individual’s first and second hospital stay”).
c. Finally, the structure, history, and purpose of the
disproportionate-share-hospital adjustment itself support
the Secretary’s interpretation. The two-part proxy measure Congress established as an estimate of a hospital’s
proportion of low-income patients considers two separate
patient populations: low-income patients who are Medicare beneficiaries, and those who are not. Congress
adopted distinct approaches for addressing those two

26
groups. It directed HHS to evaluate a hospital’s Medicare
beneficiaries by calculating the percentage of all such
patients who were entitled to SSI benefits. 42 U.S.C.
1395ww(d)(5)(F)(vi)(I). In contrast, Congress directed
HHS to assess non-Medicare patients using a different
gauge of low-income status—i.e., eligibility for medical
assistance under a State Medicaid plan—and in comparison to the hospital’s entire patient pool. 42 U.S.C.
1395ww(d)(5)(F)(vi)(II). That hybrid approach to approximating low-income patients was no accident; it was
adopted following a compromise in Congress between
competing House and Senate proposals that combined aspects of both. See H.R. Conf. Rep. No. 453, 99th Cong.,
1st Sess. 459-461 (1985); see also Jewish Hosp., Inc. v.
Secretary of HHS, 19 F.3d 270, 280-283 (6th Cir. 1994)
(Batchelder, J., dissenting); cf. Obduskey v. McCarthy &
Holthus LLP, 139 S. Ct. 1029, 1038 (2019) (giving effect to
statutory language that “ha[d] all the earmarks of a compromise” between competing proposals in Congress).
The bifurcated framework that separately estimates
Medicare and non-Medicare patients with low incomes fits
well with HHS’s interpretation of “entitled to benefits under [Medicare] part A,” 42 U.S.C. 1395ww(d)(5)(F)(vi)(I),
as marking a boundary between two categories of individuals whose status as a Medicare beneficiary vel non is
mostly static during a given computation period. That
status is binary and fairly easy to determine; once each
patient’s status is ascertained, the separate calculations
Congress called for can proceed straightforwardly. Congress might have perceived potential differences between
Medicare and non-Medicare patients’ typical costs, which
might warrant approximating the percentages of lowincome patients in each group separately.

27
That divided framework crafted by Congress, which
applies different metrics to estimating different subsets of a hospital’s low-income patient pool, would be
an unusual choice had Congress intended each unit of
treatment—each patient day—to be classified individually and incorporated into one fraction or the other
based on whether it was paid for by Medicare. And it is
unclear why Congress, in creating a mechanism to adjust hospitals’ Medicare payments to account for the
generally higher cost of treating low-income patients,
see Auburn Reg’l Med. Ctr., 568 U.S. at 150, would view
patient days of Medicare beneficiaries for which the
Medicare program did not happen to pay as shedding
less or different light on a hospital’s relative costs of
care than those for which the program did pay.
* * * * *
For all of those reasons, the Secretary’s interpretation of the Medicare fraction 2004 regulation embodies
the best construction of the statutory text in light of its
context, structure, history, and purpose. At a minimum,
it represents a reasonable reading that the court of appeals was obligated to uphold. See Entergy Corp. v.
Riverkeeper, Inc., 556 U.S. 208, 218 & n.4 (2009).
B. The Court Of Appeals Erred In Concluding, Based On
Its Own Precedent, That The Statute Unambiguously
Forecloses The Secretary’s Interpretation

The Ninth Circuit rejected the Secretary’s reasonable interpretation of the Medicare fraction for a single
reason: in the court’s view, that interpretation was
barred by the court’s own decision addressing a different question a quarter century ago in Legacy Emanuel,
supra. App., infra, 16a-21a. That is incorrect.

28
1. The court of appeals in Legacy Emanuel rejected
an interpretation of the Medicaid fraction, 42 U.S.C.
1395ww(d)(5)(F)(vi)(II), previously espoused by HHS,
as counting in its numerator only patient days “for
which Medicaid actually paid.” 97 F.3d at 1265. The
court disagreed with HHS’s contention that “the parenthetical ‘(for such days)’ ”—in the phrase “patients who
(for such days) were eligible for medical assistance under a State [Medicaid] plan”—“limit[ed] the Medicaid
proxy to patient days paid for by Medicaid, even though
the patient met the status requirements for Medicaid
eligibility during his full stay.” Id. at 1266 (citation
omitted). The court held instead that HHS must include
patient days of (non-Medicare) individuals who were
“eligible for Medicaid benefits, whether or not Medicaid
actually paid for those days of service.” Id. at 1265.
The court of appeals’ holding in Legacy Emanuel did
not encompass the proper calculation of the Medicare
fraction—which was not at issue in the case, and which
the parties did not dispute. 97 F.3d at 1265. And the
bottom-line result the Legacy Emanuel court reached
—that a patient’s status under the pertinent federal
program is the statutory touchstone, rather than whether
that program ultimately paid for particular services—is
the same basic position the Secretary has since adopted
and extended here to the Medicare fraction.
2. In the decision below, the Ninth Circuit concluded
that a portion of the Legacy Emanuel panel’s reasoning
nevertheless controlled the outcome of this case and
categorically precluded the Secretary’s interpretation
of the Medicare fraction. App., infra, 18a-19a. The
court in Legacy Emanuel had underscored Congress’s
use of different terms in the Medicare and Medicaid
fraction—“entitled” to benefits under Medicare Part A

29
in the former, versus “eligible” for medical assistance
under Medicaid in the latter—from which the court inferred that Congress meant the two provisions to be interpreted differently. 97 F.3d at 1265. The court construed “entitlement” narrowly to “mean[ ] ‘the absolute
right to . . . payment’ ” for particular services, while
construing “ ‘eligible’ ” to have a “broader” scope. Ibid.
(quoting Jewish Hosp., 19 F.3d at 275). In this case, the
Ninth Circuit deemed that passage of the Legacy
Emanuel opinion as having definitively determined the
“clear” meaning of the word “ ‘entitled’ ” in this context.
App., infra, 18a. Because the court viewed its prior decision as having identified the “unambiguous” meaning
of that statutory term, it found “ ‘no room for agency
discretion’ ” and “no need to proceed” further. Id. at 17a
(citation omitted). That analysis was erroneous.
It is debatable at best whether the panel below was
bound by the Ninth Circuit’s earlier discussion of “ ‘entitled’ ” in the Medicare fraction in Legacy Emanuel,
where neither the term nor even that provision was “directly at issue.” Northeast Hosp. Corp. v. Sebelius,
657 F.3d 1, 13 n.7 (D.C. Cir. 2011) (declining to follow
Legacy Emanuel because that portion of its discussion
was “dicta”); see Gov’t C.A. Resp. & Reply Br. 27-28;
see also Metropolitan Hosp. v. United States Dep’t of
Health & Human Servs., 712 F.3d 248, 257-258 (6th Cir.
2013) (declining to follow parallel discussion in prior
Sixth Circuit decision as dictum for the same reasons).
In any event, that question is academic because the
Ninth Circuit’s previous conclusion undoubtedly does
not constrain this Court, which should reject that conclusion because it is incorrect.
To be sure, this Court “ha[s] recognized, as a general
rule, that Congress’ use of ‘certain language in one part

30
of the statute and different language in another’ can indicate that ‘different meanings were intended.’ ” Auburn Reg’l Med. Ctr., 568 U.S. at 156 (citation omitted).
“But th[at] interpretive guide * * * is ‘no more than a
rule of thumb’ that can tip the scales” in close cases.
Ibid. (brackets and citation omitted). And in this particular context, that interpretive guide “has little
weight” because it merely reflects Congress’s usage of
different terminology in the Medicare and Medicaid
contexts. Northeast Hosp. Corp., 657 F.3d at 12. “ ‘Congress has, throughout the various Medicare and Medicaid statutory provisions, consistently used the words
“eligible” to refer to potential Medicaid beneficiaries
and “entitled” to refer to potential Medicare beneficiaries.’ ” Ibid. (quoting Cabell Huntington Hosp., Inc. v.
Shalala, 101 F.3d 984, 992 (4th Cir. 1996) (Luttig, J.,
dissenting)). “To the extent Congress was merely borrowing these terms from elsewhere in the statute, it
would be a mistake to read too much into the difference
in nomenclature.” Id. at 13.
At a minimum, Congress’s selection of different adjectives does not amount to an unambiguous pronouncement by which it “has directly spoken to [the] issue”
whether the Medicare fraction includes patient days of
Medicare beneficiaries who have exhausted their inpatient days for a benefit period. Entergy, 556 U.S. at
218 n.4. Absent any such pellucid prescription from
Congress, the agency’s reasonable interpretation of the
statute should control. See ibid.
II. THE DECISION BELOW CREATES A DIRECT AND
ACKNOWLEDGED CONFLICT WITH TWO CIRCUITS

A. The decision below warrants review because, as
the court of appeals recognized, its ruling directly conflicts with decisions of the D.C. and Sixth Circuits—each

31
of which has upheld the Secretary’s interpretation of the
statute codified in the 2004 regulation. See App., infra,
19a-21a (discussing Catholic Health Initiatives, supra,
and Metropolitan Hosp., supra).
In Catholic Health Initiatives, the D.C. Circuit confronted the same statutory question presented here:
whether “an individual is ‘entitled to benefits’ under Medicare” for purposes of calculating the disproportionatepatient percentage so long as “he meets the basic statutory criteria.” 718 F.3d at 919. The court sustained
the Secretary’s position that such an individual is entitled to benefits and that an individual who “has exhausted” Medicare Part A benefits should not be excluded as being “no longer entitled to Medicare benefits.” Id. at 920. Writing for the panel, Judge Silberman
explained that, although “not quite inevitable,” the
agency’s “interpretation is the better one,” and at least
“permissible.” Ibid.
The Sixth Circuit reached the same conclusion in Metropolitan Hospital. 712 F.3d at 255-269. Like the Ninth
Circuit in Legacy Emanuel, the Sixth Circuit had previously rejected the Secretary’s prior interpretation of the
Medicaid fraction (as encompassing only patient days actually paid by Medicaid) in Jewish Hospital, 19 F.3d at
274-276, on which Legacy Emanuel had relied, 97 F.3d
at 1265. But unlike the Ninth Circuit here, the Sixth Circuit recognized that neither its holding nor its reasoning
regarding the Medicaid fraction in that earlier decision
dictated the answer to the question presented here. See
Metropolitan Hosp., 712 F.3d at 257-261. The Sixth Circuit in Metropolitan Hospital ultimately sustained the
Secretary’s interpretation in the 2004 regulation as a permissible construction of the statute. See id. at 261-269.

32
The court of appeals in this case acknowledged the conflict between its conclusion and those of the D.C. and Sixth
Circuits in Catholic Health Initiatives and Metropolitan
Hospital, respectively. App., infra, 19a-21a. The court
stated that neither of those decisions had “dealt with binding circuit precedent holding that the statutory language
was unambiguous.” Id. at 19a. In fact, however, the Sixth
Circuit in Metropolitan Hospital had confronted substantially the same scenario as the Ninth Circuit here, in light
of its earlier decision in Jewish Hospital. In any event,
the controlling interpretation of the Medicare fraction today in the Sixth and Ninth Circuits differs.
B. The conflict created by the decision below, and cemented by the court of appeals’ denial of rehearing en
banc, is highly problematic in the context of a massive federal program that operates in cooperation with front-line
providers, as well as administrative contractors that adjudicate on CMS’s behalf payment disputes that arise
throughout the Nation. If allowed to stand, the decision
below presents the agency overseeing a federal benefits
program of great size and complexity with the stark
choice between abandoning what it has long understood
to be the better interpretation of Congress’s directions, on
the one hand, and accepting a balkanized approach to
Medicare payment rules, on the other.
The inter-circuit divergence presents especially acute
practical difficulties because it places both HHS and its
contractors that apply the payment standards to providers
in an untenable position. Any provider, including those in
the Ninth Circuit, may seek judicial review not only within
the circuit in which it is located, but also in the District Court
for the District of Columbia, see 42 U.S.C. 1395oo(f )(1),
where the decision in Catholic Health Initiatives sustaining the Secretary’s interpretation is controlling. Although

33
some providers (like respondent) may prefer the Ninth
Circuit’s approach because it results in greater payments
to those providers based on the makeup of their patient
populations, other providers whose patient pools differ
may receive greater payments under the Secretary’s approach. See 69 Fed. Reg. at 49,098. The path forward for
HHS with respect to providers located in the Ninth Circuit
is, at the risk of understatement, unclear. If such providers
can select whichever forum for judicial review will maximize
the provider’s payment amount, HHS and its contractors
would face the challenging prospect of having their payment determinations challenged on an ongoing basis regardless of which approach to the Medicare fraction HHS
applies. This Court’s review is warranted to restore certainty and clarity on this important and recurring question.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
BRIAN M. BOYNTON
Acting Assistant Attorney
General
EDWIN S. KNEEDLER
Deputy Solicitor General
JONATHAN C. BOND
Assistant to the Solicitor
General
MARK B. STERN
STEPHANIE R. MARCUS
Attorneys

MARCH 2021

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Nos. 18-35845 and 18-35872
D.C. No. 2:16-cv-00209-RMP
EMPIRE HEALTH FOUNDATION, FOR VALLEY
HOSPITAL MEDICAL CENTER,
PLAINTIFF-APPELLEE/CROSS-APPELLANT
v.
ALEX M. AZAR II, SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
DEFENDANT-APPELLANT/CROSS-APPELLEE
Argued and Submitted: Feb. 6, 2020
Seattle, Washington
Filed: May 5, 2020
Appeal from the United States District Court
for the Eastern District of Washington
Rosanna Malouf Peterseon, District Judge, Presiding
OPINION

Before:
MILAN D. SMITH, JR. and N. RANDY
SMITH, Circuit Judges, and JOHN R. TUNHEIM, * District Judge.

The Honorable John R. Tunheim, United States Chief District
Judge for the District of Minnesota, sitting by designation.
*

(1a)

2a
M. SMITH, Circuit Judge:
This appeal, made pursuant to the Medicare Act’s expedited judicial review provision, 42 U.S.C. § 1395oo(f )(1),
requires us to determine whether a rule promulgated by
the Secretary of the Department of Health and Human
Services (HHS) (the 2005 Rule 1 ) is procedurally and
substantively valid pursuant to the Administrative Procedure Act (APA), 5 U.S.C. § 551 et seq. 2 The 2005 Rule
removed the word “covered” from 42 C.F.R.
§ 412.106(b)(2)(i), effectively amending HHS’s interpretation of “entitled to [Medicare]” in 42 U.S.C.
§ 1395ww(d)(5)(F )(vi), a subsection of the Medicare Act,
42 U.S.C. § 1395 et seq. 3 At stake is HHS’s annual cal-

At issue in this case is one portion of a final rule that amended a
wide range of Medicare regulations. 69 Fed. Reg. 48916, 49098-99
(Aug. 11, 2004). For the purposes of this opinion, “2005 Rule” refers only to the portion of the final rule, discussed in greater detail
below, which removed the word “covered” from 42 C.F.R.
§ 412.106(b)(2)(i).
2
The Medicare Act’s expedited judicial review provision incorporates the judicial review provisions of the APA. See 42 U.S.C.
§ 1395oo(f ); see also Los Angeles Haven Hospice, Inc. v. Sebelius,
638 F.3d 644, 652 (9th Cir. 2011) (“In a civil action under
§ 1395oo(f )(1), the validity of the fiscal intermediary’s action is subject to judicial review using the familiar standards of the Administrative Procedure Act (‘APA’)—i.e., whether the action was ‘arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.’ ” (citing 5 U.S.C. § 706(2)(A))).
3
42 U.S.C. § 1395ww(d)(5)(F )(vi) refers to “benefits under part A”
instead of “Medicare,” “supplementary social security income benefits (excluding any State supplementation) under subchapter XVI of
this chapter,” instead of “SSI benefits,” and “medical assistance un1

3a
culation of the disproportionate share hospital adjustment (DSH Adjustment), which increases a hospital’s annual Medicare inpatient services reimbursement based
on the approximate number of low-income patients the
hospital serves. See Catholic Health Initiatives Iowa
Corp. v. Sebelius, 718 F.3d 914, 916 (D.C. Cir. 2013).
Plaintiff Empire Health Foundation (Empire) challenged the 2005 Rule as part of its appeal of HHS’s calculation of its 2008 reimbursement. The district court
granted partial summary judgment for Empire, ruling
that, while the 2005 Rule was substantively valid, it should
be vacated because the rulemaking process leading to
its adoption failed to meet the APA’s procedural requirements.
We affirm the district court’s summary judgment in
favor of Empire, and its order vacating the 2005 Rule,
but on different grounds. See McSherry v. City of Long
Beach, 584 F.3d 1129, 1135 (9th Cir. 2009) (“We may affirm on the basis of any ground supported by the record.”). We hold that the 2005 Rule’s rulemaking process, while not perfect, satisfied the APA’s notice-andcomment requirements. However, we also hold that
the 2005 Rule is substantively invalid, and must be vacated, because it directly conflicts with our interpretation of 42 U.S.C. § 1395ww(d)(5)(F )(vi) in Legacy Emanuel Hospital and Health Center v. Shalala, 97 F.3d
1261, 1265-66 (9th Cir. 1996). Because Legacy Emanuel interpreted the meaning of “entitled to [Medicare]”
in 42 U.S.C. § 1395ww(d)(5)(F )(vi) to be unambiguous,
der a State plan approved under subchapter XIX,” instead of “Medicaid.” Herein, when quoting the statute, we use “[Medicare],” “[SSI
benefits],” and “[Medicaid]” for simplicity.

4a
the 2005 Rule’s conflicting construction cannot stand.
See Nat’l Cable & Telecomms. Ass’n v. Brand X Internet
Servs. (Brand X), 545 U.S. 967, 982-83 (2005).
FACTUAL AND PROCEDURAL BACKGROUND
I.

Relevant Statutory and Regulatory Background

As part of the Medicare program, a hospital that
“serves a significantly disproportionate number of lowincome patients,” 42 U.S.C. § 1395ww(d)(5)(F )(i)(I), receives a DSH Adjustment, which approximately reimburses it for higher costs associated with providing that
service, Catholic Health, 718 F.3d at 916. HHS administers DSH Adjustments through the Centers for Medicare and Medicaid Services (CMS). 4
Qualification for the DSH Adjustment and the amount
of any DSH Adjustment are determined by a hospital’s
“disproportionate patient percentage” (DPP). 42 U.S.C.
§ 1395ww(d)(5)(F )(v). The DPP is calculated by adding the two fractions set forth in § 1395ww(d)(5)(F )(vi), 5
For simplicity, we include CMS in our references to “HHS”
herein.
5
In pertinent part, 42 U.S.C. § 1395ww(d)(5)(F )(vi) provides:
4

(vi) In this subparagraph, the term “disproportionate patient percentage” means, with respect to a cost reporting
period of a hospital, the sum of—
(I) the fraction (expressed as a percentage), the numerator of which is the number of such hospital’s patient days
for such period which were made up of patients who (for
such days) were entitled to benefits under part A of this
subchapter and were entitled to supplementary security
income benefits (excluding any State supplementation)
under subchapter XVI of this chapter, and the denominator of which is the number of such hospital’s patient days

5a
commonly referred to as the “Medicare fraction” and
the “Medicaid fraction.” See, e.g., Catholic Health, 718
F.3d at 916. The two fractions are intended to capture
a hospital’s number of patient days attributable two different groups of low-income patients. Id. at 916-17.
SSI entitlement is used as the low-income proxy for the
Medicare population, and Medicaid eligibility is used as
the low-income proxy for the non-Medicare population.
Id.; Legacy Emanuel, 97 F.3d at 1265-66.
The following chart illustrates the two fractions:
Medicare fraction

Medicaid fraction

Numerator

Patient days for patients entitled to
Medicare and entitled to SSI Benefits

Patient days for
patients eligible
for Medicaid but
not entitled to
Medicare

Denominator

Patient days for pa- Total number of
tients entitled to patient days
Medicare

for such fiscal year which were made up of patients who
(for such days) were entitled to benefits under part A of
this subchapter, and
(II) the fraction (expressed as a percentage), the numerator of which is the number of the hospital’s patient days
for such period which consist of patients who (for such
days) were eligible for medical assistance under a State
plan approved under subchapter XIX, but who were not
entitled to benefits under part A of this subchapter, and
the denominator of which is the total number of the hospital’s patient days for such period.

6a
See Catholic Health, 718 F.3d at 917 (providing the
chart as a visual representation of the two fractions).
Empire’s challenge concerns the 2005 Rule’s interpretation of the statutory phrase “entitled to [Medicare]” in its implementing regulation, 42 C.F.R.
§ 412.106(b)(2)(i), 6 and that interpretation’s effect on the
treatment of “dual eligible exhausted coverage patient
days.” 7 These are patient days attributable to patients

6
In pertinent part, 42 C.F.R. § 412.106(b), as amended by the 2005
Rule, provides:

(b) Determination of a hospital’s disproportionate patient
percentage—
(1) General rule. A hospital’s disproportionate patient percentage is determined by adding the results of
two computations and expressing that sum as a percentage.
(2) First computation:
Federal fiscal year.
For
each month of the Federal fiscal year in which the hospital’s cost reporting period begins, CMS—
(i) Determines the number of patient days that—
(A) Are associated with discharges occurring
during each month; and
(B) Are furnished to patients who during that
month were entitled to both Medicare Part A
(including Medicare Advantage (Part C)) and
SSI, excluding those patients who received only
State supplementation;. . . .
7
As part of its argument that the 2005 Rule’s rulemaking process
failed to meet the APA’s procedural requirements, Empire’s briefing alludes to the impact of the 2005 Rule on “Medicare Secondary
Payer” days, which are patient days for which Medicare is not the
primary payer pursuant to 42 U.S.C. § 1395y(b)(2)(A). Empire of-

7a
eligible for both Medicare and Medicaid and whose hospital stays have exceeded the 90-day limit applicable to
Medicare coverage (after which Medicare ceases to
cover the patient’s inpatient hospital services costs). 8
42 U.S.C. § 1395d; 42 C.F.R. § 409.61(a)(1).
Pursuant to the version of 42 C.F.R. § 412.106(b)(2)(i)
in place before the 2005 Rule was promulgated, HHS included only “covered” patient days in the Medicare fraction when calculating a hospital’s DSH Adjustment. 42
C.F.R. § 412.106(b)(2)(i) (2003); 69 Fed. Reg. at 49098.
This had the effect of excluding dual eligible exhausted
coverage patient days from the numerator and denominator of the Medicare fraction. Meanwhile, HHS also
excluded dual eligible exhausted coverage patient days
from the Medicaid fraction. Edgewater Med. Ctr. v.
Blue Cross & Blue Shield Ass’n, HCFA Adm’r Dec.,
2000 WL 1146601, at *4-5 (June 19, 2000). 9 Because
HHS did not include dual eligible exhausted coverage
patient days in either the Medicare fraction or the Medicaid fraction before the 2005 Rule, HHS did not count
fered little explanation as to what the 2005 Rule’s impact on Medicare Secondary Payer days was, and did not refer to Medicare Secondary Payer days in its reply brief. Because Empire insufficiently
explained this argument in its briefing, we rule that it was waived.
See Ghahremani v. Gonzales, 498 F.3d 993, 997-98 (9th Cir. 2007);
Acosta-Huerta v. Estelle, 7 F.3d 139, 144 (9th Cir. 1992). In any
case, it is immaterial to our holding today, which invalidates the 2005
Rule on substantive grounds.
8
Medicare will pay for a limited number of days for each hospitalization. If a patient’s stay exceeds that number, coverage is exhausted, and Medicare will not pay for the additional days. 42 U.S.C.
§ 1395d.
9
The Health Care Financing Administration is the predecessor of
CMS. See Catholic Health, 718 F.3d at 918 n.2.

8a
those days at all for the purpose of calculating a given
hospital’s DSH Adjustment. See Catholic Health, 718
F.3d at 921, 921 n.5.
In contrast, in the 2005 Rule, HHS removed the word
“covered” from 42 C.F.R. § 412.106(b)(2)(i). As a result, HHS now includes dual eligible exhausted coverage
patient days in the numerator and denominator of the
Medicare fraction when calculating a given hospital’s
DSH Adjustment. 10
A.

The 2005 Rule’s Rulemaking Process

To arrive at the interpretation reflected in the 2005
Rule, HHS took a circuitous route. Initially, HHS proposed in 2003 to include dual eligible exhausted coverage patient days in the Medicaid fraction commencing
with Fiscal Year (FY) 2004 (the 2003 Notice). 68 Fed.
Reg. 27154, 27207-208 (May 19, 2003). In the 2003 Notice, HHS misstated its then-applicable rule with respect to dual eligible exhausted coverage patient days,
asserting that HHS counted them in the Medicare fraction. Several comments responding to the 2003 Notice
noted the misstatement and pointed out that the thenapplicable regulation did not include dual eligible exhausted coverage patient days in the Medicare fraction.
In its FY 2004 final rule, HHS deferred deciding whether to promulgate the proposed change, noting that it was
Empire contends that the 2005 Rule “serves to systematically
reduce payments hospitals receive for treating” low-income patients.
Empire’s Brief at 5. The record, however, is unclear as to whether
the 2005 Rule’s interpretation has increased or decreased hospital
reimbursements in general. It appears that its effect on hospitals
is highly fact-specific, depending on a given hospital’s patient demographics. See 69 Fed. Reg. at 49098-99.
10

9a
still reviewing comments on dual eligible exhausted coverage patient days and would respond in a different document. 68 Fed. Reg. 45346, 45421 (Aug. 1, 2003).
In 2004, as part of its rulemaking proposal for the
2005 Rule, the agency explained that it would make sure
to address any comments received in response to the
2003 Notice. 69 Fed. Reg. 28196, 28286 (May 18, 2004).
The new comment period ran until July 12, 2004. Days
before the comment period for the 2005 Rule closed,
HHS posted a webpage acknowledging the 2003 Notice’s misstatement of the then-applicable rule. 11 HHS
stated that “[o]ur policy has been that only covered patient days are included in the Medicare fraction.” A
few commenters acknowledged HHS’s correction. Without acknowledging HHS’s initial mistake, however, many
other commenters voiced support for the erroneously
stated status quo.
In the August 11, 2004 Federal Register entry describing the final version of the 2005 Rule, HHS noted
that:
We received numerous comments that commenters
were disturbed and confused by our recent Web site
posting regarding our policy on dual-eligible patient
days. The commenters believe that this posting was
a modification or change in our current policy to include patient days of dual-eligible Medicare beneficiaries whose Medicare Part A coverage has expired
in the Medicaid fraction of the DSH calculation. In
We note that there appears to be some dispute in the record over
whether the webpage was published three or five days before the
close of the comment period. For the purposes of our analysis, this
difference of two days is immaterial.
11

10a
addition, the commenters believed that the information in this notice appeared with no formal notification by CMS and without the opportunity for providers to comment.
69 Fed. Reg. at 49098. In response, HHS explained
that the webpage posting “was not a change in our current policy,” but a “correction of an inadvertent misstatement” made in the 2003 Notice. Id.
The 2005 Rule included dual eligible exhausted coverage patient days in the Medicare fraction. 69 Fed.
Reg. at 49098-99. In effect, the new rule enacted what
HHS had mistakenly stated was the status quo in the
2003 Notice. Pursuant to the 2005 Rule, HHS now
counts dual eligible exhausted coverage patient days as
Medicare days even if Medicare did not pay for them.
69 Fed. Reg. at 49099 (“[W]e are adopting a policy to
include the days associated with dual-eligible beneficiaries in the Medicare fraction, whether or not the beneficiary has exhausted Medicare Part A hospital coverage.” (emphasis added)).
II. The Proceedings in this Case

Empire acquired the outstanding Medicare reimbursement owed to Valley Hospital Medical Center for
periods prior to October 1, 2008, including the 2008 fiscal
year at issue here. 12 Dissatisfied with its total reimbursement amount for FY 2008, Empire timely appealed

Due to HHS’s delay in amending the language of its regulations
after the promulgation of the 2005 Rule, FY 2008 was the first year
in which the 2005 Rule was implemented, removing the word “covered” from 42 C.F.R. § 412.106(b)(2)(i). See Allina Health Services
v. Sebelius, 746 F.3d 1102, 1106 n.3 (D.C. Cir. 2014); 72 Fed. Reg.
12

11a
HHS’s calculation of Empire’s FY 2008 reimbursement
and requested a hearing before the Provider Reimbursement Review Board (PRRB). The PRRB granted Empire’s request for expedited judicial review pursuant to 42 U.S.C. § 1395oo(f )(1), allowing Empire to
challenge the 2005 Rule in the district court. 13 Empire
timely filed this action in the district court, challenging
the 2005 Rule’s interpretation of “entitled to [Medicare]” as both procedurally and substantively invalid
pursuant to the APA. 14
The parties cross-moved for summary judgment.
The district court granted Empire’s summary judgment
motion in part, denied HHS’s summary judgment motion, and vacated the 2005 Rule, ruling that the 2005
Rule’s rulemaking process violated the APA because
HHS did not give more time for comment after correcting its misstatement in the 2003 Notice. However, the
district court sided with HHS on the substantive propriety of HHS’s interpretation of “entitled.” First, it held
that our ruling in Legacy Emanuel, 97 F.3d at 1265, did
not foreclose HHS’s interpretation of the statute pursuant to Brand X. It next held at Chevron step one, see
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837, 842 (1984), that Congress’s intent was unclear
47130, 47384 (Aug. 22, 2007) (describing “technical correction” implementing changes to 42 C.F.R. § 412.106(b)(2)(i)).
13
Expedited judicial review is triggered when the PRRB, on its
own or at the request of a provider, determines it does not have the
authority to resolve a provider’s challenge. 42 U.S.C. § 1395oo(f )(1).
14
Empire also argued that, if HHS’s 2005 Rule were upheld, HHS
should broaden its interpretation of “entitled to [SSI benefits]” in
the Medicare fraction to include patient days that reflect SSI eligibility, not just payment. Because we vacate the 2005 Rule, we do
not address this argument.

12a
from the plain language and statutory purpose of 42
U.S.C. § 1395ww(d)(5)(F )(vi). Finally, it held at Chevron step two, see 467 U.S. at 843, that HHS’s interpretation of the statute was a permissible construction of
the statute. Empire and HHS each timely appealed.
JURISDICTION AND STANDARD OF REVIEW

The district court had jurisdiction over this appeal
pursuant to 42 U.S.C. § 1395oo(f )(1), the Medicare Act’s
expedited judicial review provision, and 28 U.S.C.
§ 1331, as a dispute arising under federal law. We have
jurisdiction over these cross-appeals pursuant to 28
U.S.C. § 1291. We review de novo a district court’s decision on cross motions for summary judgment. Guatay Christian Fellowship v. County of San Diego, 670
F.3d 957, 970 (9th Cir. 2011).
ANALYSIS
I.

The Procedural Validity of the 2005 Rule

Empire asserts that the 2005 Rule violated the APA’s
procedural requirements because HHS did not provide
the public with an additional comment period after admitting that it misrepresented the status quo in the 2003
Notice. We disagree.
The APA requires an agency to comply with noticeand-comment procedures when the agency amends its
regulations. 5 U.S.C. § 553. 15 The agency must pub-

The Medicare Act has its own notice-and-comment procedure.
42 U.S.C. § 1395hh(b). Because of the similarity of the two procedures, we will use the more robust APA caselaw in order to analyze
this claim of procedural error. See Monmouth Med. Center v.
15

13a
lish a notice of proposed rulemaking, which shall include, in relevant part, “either the terms or substance of
the proposed rule or a description of the subjects and
issues involved.” Id. § 553(b)(3). After notice, interested parties must have the opportunity to comment on
the proposal, “participat[ing] in the rule making through
submission of written data, views, or arguments.” Id.
§ 553(c).
We will set aside an agency action that we find to be
“without observance of procedure required by law.” 5
U.S.C. § 706(2)(D). We have also concluded that “[a]
decision made without adequate notice and comment is
arbitrary or an abuse of discretion.” Nat. Res. Def.
Council v. EPA (NRDC II), 279 F.3d 1180, 1186 (9th Cir.
2002) (citing 5 U.S.C. § 706(2)(A)). Pursuant to the
APA, whether notice is adequate is “whether interested
parties reasonably could have anticipated the final rulemaking” from the proposed rule. Id. at 1187 (quoting
Nat. Res. Def. Council v. EPA (NRDC I), 863 F.2d 1420,
1429 (9th Cir. 1988)). The key inquiry is whether the
changes in the final rule are a “logical outgrowth of the
notice and comments received.” Rybachek v. United
States EPA, 904 F.2d 1276, 1288 (9th Cir. 1990). The
Medicare statute echoes this standard, providing that if
a final regulation “is not a logical outgrowth of a previously published notice of proposed rulemaking,” the final regulation “shall be treated as a proposed regulation” requiring further public comment. 42 U.S.C.
§ 1395hh(a)(4).

Thompson, 257 F.3d 807, 814 (D.C. Cir. 2001). Moreover, the parties briefed this issue pursuant to the APA. See also Stringfellow
Mem. Hosp. v. Azar, 317 F. Supp. 3d 168, 184 n.6 (D.D.C. 2018).

14a
Other considerations to determine the adequacy of
notice include “whether a new round of notice and comment would provide the first opportunity for interested
parties to offer comments that could persuade the
agency to modify its rule,” NRDC II, 279 F.3d at 1186
(quoting Am. Water Works Ass’n v. EPA, 40 F.3d 1266,
1274 (D.C. Cir. 1994), and whether “the notice ‘fairly apprise[s] interested persons of the subjects and issues before the [a]gency,’ ” Louis v. U.S. Dep’t of Labor, 419
F.3d 970, 975 (9th Cir. 2005) (quoting NRDC II, 279 F.2d
at 1186.
Here, HHS undoubtedly misstated the then-applicable
rule in the 2003 Notice. Nevertheless, the 2003 Notice
did describe the content of the 2005 Rule, even if it incorrectly characterized it as the then-applicable rule.
68 Fed. Reg. 27154, 27207. HHS corrected its misstatement of the then-applicable rule before the end of
the second comment period. Moreover, many sophisticated commenters, including several large hospital associations, supported placing dual eligible exhausted
coverage patient days in the Medicare fraction, as the
2005 Rule finally did. The rulemaking process was certainly not perfect, and some commenters expressed confusion with HHS’s correction notice. 69 Fed. Reg. 48916,
49098. However, the 2005 Rule was a logical outgrowth
of the proposed rule change, and HHS’s 2003 Notice
provided adequate notice to commenters of what the
agency was considering. As another district court observed in upholding the 2005 Rule’s notice-and-comment
process: “Numerous commenters during both the initial and the second comment periods wrote in support of
the misstated status quo—that is, the policy that was ultimately adopted—to ‘urge that CMS not change the

15a
rules for counting dual-eligible days.’ ”
317 F. Supp. 3d at 187 (quoting record).

Stringfellow,

We conclude that the procedural error alleged by
Empire here is similar to the one the Supreme Court
addressed in Long Island Care at Home, Ltd. v. Coke,
551 U.S. 158, 174-75 (2007). There, the Court rejected
a procedural challenge to a final rule that was the opposite of what was contained in a rulemaking proposal.
Id. The final rule exempted certain domestic workers
from the Fair Labor Standards Act (FLSA), when the
proposal had contemplated including them within the
FLSA’s ambit. Id. Nevertheless, the court held that
the final rule was “reasonably foreseeable” and the proposal had provided fair notice to commenters. Id. at
175. The Court observed that commenters could reasonably foresee that “after . . . consideration [of the
proposal] the Department might choose to adopt the
proposal or to withdraw it.” Id. Commenters on the
2005 Rule were similarly apprised of a binary choice—
under the new rule, dual eligible exhausted coverage patient days would be included in either the Medicare or
the Medicaid fraction. In the end, they were included
in the Medicare fraction.
Allina Health Services v. Sebelius, 746 F.3d 1102
(D.C. Cir. 2014), on which Empire relies, is inapposite.
Allina involved a challenge to a different portion of the
final rule that also contained the 2005 Rule. Id. at
1106-07. In the applicable notice of proposed rulemaking, the agency proposed to “clarify” an existing practice
and stated that it did not expect the clarification to have
a major financial impact. Id. at 1106. But the final
rule in Allina was an entirely new policy with enormous
financial consequences. Id. at 1107. The D.C. Circuit

16a
held that the rule was not a “logical outgrowth” of its
proposal, because it could not have been anticipated by
the parties based on the purported clarification described in the notice of proposed rulemaking. Id. at
1108-09 (asking whether “even a good lawyer” could
“anticipate . . . such a volte-face with enormous financial implications would follow [HHS’s] proposed
rule.”); see also Stringfellow, 317 F. Supp. 3d at 188-89
(distinguishing Allina while upholding the 2005 Rule’s
notice-and-comment procedure). Here, however, the
2005 Rule was a “logical outgrowth” of the 2003 Notice
because, as we have explained, the parties could anticipate that HHS intended to change the way it treated
dual eligible exhausted coverage patient days in the
DSH Adjustment. The rulemaking procedure at issue
here did not involve the unexpected “volte-face” that the
D.C. Circuit confronted in Allina. 746 F.3d at 1109.
Because we conclude that the 2005 Rule was a logical
outgrowth of the notice and the comments received, we
reverse the district court’s contrary conclusion. Nevertheless, we ultimately affirm the district court’s summary judgment in favor of Empire and order vacating
the 2005 Rule, because we hold that the 2005 Rule is substantively invalid.
II. The Substantive Validity of the 2005 Rule

Having determined that the 2005 Rule met the APA’s
procedural requirements, we next consider its substantive validity pursuant to the APA. Empire argues that
our decision in Legacy Emanuel forecloses HHS’s interpretation of “entitled to [Medicare]” in the 2005 Rule.
HHS, citing Sixth and D.C. Circuit decisions, maintains
that we are not bound by Legacy Emanuel’s analysis of

17a
“entitled to,” because there, according to HHS’s argument, we decided only the meaning of the phrase “eligible for medical assistance under . . . [Medicaid].”
According to HHS, our analysis of the phrase “entitled
to [Medicare]” is nothing more than “non-binding dicta.”
Government’s Reply Brief at 28. We agree with Empire that Legacy Emanuel is directly at odds with the
2005 Rule, and thus conclude that the rule is substantively invalid.
In a substantive APA challenge to a notice-andcomment rule, we apply the Chevron two-step framework. See United States v. Mead Corp., 533 U.S. 218,
230-31 (2001). At Chevron step one, we ask whether
Congress “has directly spoken to the precise question at
issue” in the statutory text. Chevron, 467 U.S. at 842.
We employ “traditional tools of statutory construction”
to determine whether “Congress had an intention on the
precise question at issue[.]” Id. at 843 n.9. If the
statute is silent or ambiguous, however, we proceed to
Chevron step two and ask “whether the agency’s answer
is based on a permissible construction of the statute.”
Id. at 843.
Judicial precedent affects how we apply the Chevron
framework. “[A] judicial precedent holding that the
statute unambiguously forecloses the agency’s interpretation, and therefore contains no gap for the agency to
fill, displaces a conflicting agency construction.” Brand
X, 545 U.S. at 982-83. This occurs “if the prior court
decision holds that its construction follows from the unambiguous terms of the statute and thus leaves no room
for agency discretion.” Id. at 982. In other words, if
the prior court decision was decided at Chevron step
one, there is no need to proceed to Chevron step two.

18a
Our ruling in Legacy Emanuel was clearly a Chevron
step one decision. 97 F.3d at 1265 (“We believe the language of the Medicare reimbursement provision is
clear[.]”). In Legacy Emanuel, we considered the
meaning of the words “entitled” and “eligible” in tandem. We interpreted the word “entitled” to mean that
a patient has an “absolute right . . . to payment.”
Id. In contrast, we interpreted the word “eligible” to
mean that a patient simply meets the Medicaid statutory
criteria: “if Congress had wanted to limit the Medicaid
proxy to days for which Medicaid actually paid, Congress could have used ‘entitled’ or expressly specified
that it was to include only those days actually paid for
by Medicaid.” Id. We held that Congress used a
“broader word” than entitled in the Medicaid fraction to
fulfill its intent of compensating hospitals for treating
low-income patients. Id. And we noted that the use
of “entitled” in the Medicare fraction did not frustrate
that purpose, because the low-income proxy in the Medicare fraction is ultimately determined by entitlement to
SSI, not Medicare. Id. at 1265-66. The 2005 Rule’s
interpretation of “entitled,” in contrast, resembles our
understanding of the term “eligible” in Legacy Emanuel
by embracing even those patient days for which Medicare coverage is exhausted (i.e., for which there is no absolute right to payment). 69 Fed. Reg. at 49099.
Thus, the 2005 Rule mistakenly treats as ambiguous
statutory language that we deemed clear, and rewrites
that language in contravention of our interpretation.
Rejecting Empire’s challenge to the 2005 Rule’s substantive validity, the district court determined that Legacy Emanuel does not control the meaning of the statutory text at issue here and thus proceeded to Chevron

19a
step two. HHS adopts that position here and argues
that that Legacy Emanuel did not actually decide the
meaning of the term “entitled” in the Medicare fraction.
We reject this reading of Legacy Emanuel. Legacy
Emanuel’s analysis of “eligible for [Medicaid]” is inextricable from its analysis of “entitled to [Medicare].”
Consequently, we are bound by Legacy Emanuel’s interpretation of “entitled to [Medicare]” unless and until
change comes from our court sitting en banc or the Supreme Court. Miller v. Gammie, 335 F.3d 889, 899 (9th
Cir. 2003) (en banc). Pursuant to Brand X, Legacy
Emanuel’s unambiguous interpretation of “entitled to
[Medicare]” in 42 U.S.C. § 1395ww(d)(5)(F )(vi) requires
us to invalidate the 2005 Rule, which adopts a conflicting
interpretation of the statute.
We recognize, as HHS argues on appeal, that the
Sixth and D.C. Circuits have affirmed the 2005 Rule’s
interpretation of the phrase “entitled to [Medicare]” in
42 U.S.C. § 1395ww(d)(5)(F )(vi) at Chevron step two.
See Catholic Health, 718 F.3d at 920 (affirming 2005
Rule at Chevron step two); Metro. Hosp. v. HHS, 712
F.3d 248, 270 (6th Cir. 2013) (same). Those decisions,
however, do not control our analysis here because neither court dealt with binding circuit precedent holding
that the statutory language was unambiguous, as Legacy Emanuel did.
For example, in Catholic Health, the D.C. Circuit relied on circuit precedent determining that the statutory
language in question was ambiguous. 718 F.3d at 920
(citing Northeast Hosp. v. Sebelius, 657 F.3d 1, at 13

20a
(D.C. Cir. 2011).16 So Brand X could not have warranted a different result in Catholic Health.
The Sixth Circuit’s binding precedent construing 42
U.S.C. § 1395ww(d)(5)(F )(vi) also did not trigger Brand
X’s “stare decisis effect to a prior judicial construction”
of a statute. Metro. Hosp., 712 F.3d at 256. In Metropolitan Hospital, the Sixth Circuit held that its precedent construing “eligible for [Medicaid]” in the Medicaid fraction, Jewish Hospital, Inc. v. Secretary of
Health & Human Services, 19 F.3d 270 (6th Cir. 1994),
did not foreclose the 2005 Rule’s interpretation of “entitled to [Medicare]” in the Medicare fraction. 712 F.3d
at 257-58. The Sixth Circuit held that Brand X did not
apply because Jewish Hospital was not decided at Chevron step one. Metro. Hosp., 712 F.3d at 256. Nevertheless, the court also noted that, even if Jewish Hospital were decided at Chevron step one, the decision did
not precisely decide the statutory meaning of “entitled
to [Medicare],” and its discussion of that statutory
phrase was secondary to other arguments supporting its
holding. Id. at 256-57 (describing Jewish Hospital’s
contrast of “entitled” and “eligible” as a “‘back-up’ analysis”).
HHS argues that the Sixth Circuit’s reading of Jewish Hospital, as set forth in Metropolitan Hospital,
should somehow control our analysis here because we
cited Jewish Hospital as part of our statutory interpretation in Legacy Emanuel. But Legacy Emanuel’s
We note that then-Judge Kavanaugh’s concurring opinion in
Northeast Hospital agreed with the interpretation of “entitled to
[Medicare]” we announced in Legacy Emanuel. Northeast Hosp.
Corp. v. Sebelius, 657 F.3d 1, 20 (D.C. Cir. 2011).
16

21a
holding, construing the unambiguous language of 42
U.S.C. § 1395ww(d)(5)(F )(vi), is fundamentally different
than Jewish Hospital’s, which held that the statute was
ambiguous and deferred to the agency’s permissible interpretation. Moreover, Jewish Hospital’s analysis of
“entitled to [Medicare]” is comparatively shorter than
our analysis in Legacy Emanuel and was just one of several analyses informing court’s decision interpreting
“eligible for [Medicaid].” Compare Jewish Hospital,
19 F.3d at 274-76 with Legacy Emanuel, 97 F.3d at
1265-66. Even the Sixth Circuit recognized that our interpretation of “entitled to [Medicare]” in Legacy
Emanuel played a central role in our analysis. Metro.
Hosp., 712 F.3d at 259 (noting that Legacy Emanuel
“bas[ed] its conclusion” on the distinction between “eligible to [Medicaid]” and “entitled to [Medicare]”). Because we have already construed the unambiguous
meaning of “entitled to [Medicare]” in 42 U.S.C.
§ 1395ww(d)(5)(F )(vi), we hold that the 2005 Rule’s contrary interpretation of that phrase is substantively invalid pursuant to the APA. Thus, we affirm, on different
grounds, the district court’s summary judgment in favor
of Empire.
III. Vacatur of 2005 Rule

Having affirmed, on different grounds, the district
court’s summary judgment in favor of Empire, we also
affirm its order vacating the 2005 Rule. See Nat. Res.
Def. Council v. EPA (NRDC III), 526 F.3d 591, 608 (9th
Cir. 2008) (vacating rule held to be unlawful under Chevron analysis). We have observed that “when a reviewing court determines that agency regulations are unlawful, the ordinary result is that the rules are vacated—
not that their application to the individual petitioners is

22a
proscribed.” Univ. of Cal. v. U.S. Dep’t Homeland
Sec., 908 F.3d 476, 511 (9th Cir. 2018) (quoting Nat’l
Mining Ass’n v. U.S. Army Corps. of Eng’rs, 145 F.3d
1399, 1409 (D.C. Cir. 1998)). Accordingly, we reinstate
the prior version of 42 C.F.R. § 412.106(b)(2)(i), which
embraced only “covered” patient days, see Paulsen v.
Daniels, 413 F.3d 999, 1008 (9th Cir. 2005) (“The effect
of invalidating an agency rule is to reinstate the rule
previously in force.”).
CONCLUSION

While HHS’s notice-and-comment procedure for the
2005 Rule was not without flaws, it met the APA’s requirements. However, the 2005 Rule violated the unambiguous text of 42 U.S.C. § 1395ww(d)(5)(F )(vi) and
our court’s ruling in Legacy Emanuel by removing the
word “covered” from 42 C.F.R. § 412.106(b)(2)(i). As a
result, we AFFIRM, on different grounds, the district
court’s order granting partial summary judgment for
Empire and vacating the 2005 Rule. We REMAND to
the district court with instructions to further remand to
the PRRB to decide the remaining issue in this case.17
AFFIRMED AND REMANDED.

Both parties agreed to, and the district court ordered, a remand
to the PRRB to decide whether, in light of Allina, 746 F.3d at 1102,
Medicare Part C days should have been included in the Medicare
fraction for the Empire’s 2008 DSH calculation.
17

23a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

No. 2:16-CV-209-RMP
EMPIRE HEALTH FOUNDATION, FOR VALLEY
HOSPITAL MEDICAL CENTER, PLAINTIFF
v.
THOMAS E. PRICE, M.D., SECRETARY OF THE UNITED
STATES DEPARTMENT OF HEALTH AND HUMAN
SERVICES, DEFENDANT
[Filed:

Aug. 13, 2018]

ORDER GRANTING IN PART AND DENYING IN
PART PLAINTIFF’S MOTION FOR SUMMARY
JUDGMENT, AND DENYING DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT

Plaintiff Empire Health Foundation (“Empire”), for
Valley Hospital Medical Center (the “Hospital”), brings
this action against the Secretary of the United States
Department of Health and Human Services (the “Secretary”). Before the Court is Empire’s Motion for Summary Judgment, ECF No. 34, and the Secretary’s
Cross-Motion for Summary Judgment, ECF No. 46.
Theresa Sherman and Daniel Hettich appeared on behalf of Empire. James Bickford appeared on behalf of
the Secretary. Having considered the parties’ filings

24a
and oral argument, the remaining record, and the relevant law, the Court is fully informed.
This case concerns the validity of the Secretary’s
2005 Final Rule promulgation with regard to the Secretary’s interpretation of the phrase “entitled to benefits
under [Medicare Part A]” in 42 U.S.C. § 1395ww. Both
parties have moved for summary judgment. For the reasons set forth below, Empire’s motion is granted in part
and denied in part, and the Secretary’s motion is denied.
PROCEDURAL HISTORY

Effective October 1, 2004, the Secretary’s 2005 Final
Rule relating to Medicare Part A hospital coverage
amended 42 C.F.R. § 412.106(b)(2) to reflect the Secretary’s newly adopted policy regarding the assessment of
Medicare Part A patient-days. ECF No. 11-2. The
actual language of the 2004 amendment, which removed
the word “covered” from 42 C.F.R. § 412.106(b)(2), appeared for the first time in the 2008 publication of the
regulation. Id. Pursuant to the Medicare disproportionate share hospital (“DSH”) reimbursement process,
Wisconsin Physicians Services, the fiscal intermediary
that was auditing the Hospital’s cost reporting, applied
the amended policy from the 2005 Final Rule to the Hospital’s cost reporting period for the 2008 fiscal year.
ECF No. 34 at 14. The Hospital timely filed an appeal
with the Provider Reimbursement Review Board
(“Board”). Id.
After filing its appeal, the Hospital sought expedited
judicial review pursuant to 42 U.S.C. § 1395oo(f )(1),
which states that providers “shall also have the right to
obtain judicial review of any action of the fiscal interme-

25a
diary which involves a question of law or regulations relevant to the matters in controversy whenever the Board
determines . . . that it is without authority to decide
the question.” See ECF No. 11-1. Finding that it was
without authority to decide the legal issue in this case,
the Board granted the Hospital’s request for expedited
judicial review regarding whether the regulation, 42
C.F.R. § 412.106(b)(2), is valid. ECF No. 11-2.
Empire, on behalf of the Hospital, filed the complaint
in this matter alleging that the 2005 Final Rule amending 42 C.F.R. § 412.106(b)(2) is substantively and procedurally invalid and that the agency should be enjoined
from applying the 2005 Final Rule against the Hospital.
See ECF No. 1. Empire moves for summary judgment, challenging the Secretary’s interpretation of the
phrase “entitled to benefits under [Medicare Part A]” as
inconsistent with the plain language of the statute, inconsistent with circuit precedent, and arbitrary and capricious. ECF No. 34 at 20-30. Empire also challenges the adequacy of the notice that the Secretary provided prior to the promulgation of the 2005 Final Rule.
Id. at 17-20. Alternatively, if the Court agrees with the
Secretary regarding the treatment of unpaid Medicare
Part A days, Empire asks that the Court direct the Secretary “to include unpaid [supplemental security income
(‘SSI’)] eligible patient days in the numerator of the
[Medicare fraction] utilizing SSI payment status codes
that reflect the individuals’ eligibility for SSI—even if
the individuals did not receive SSI payments,” as a matter of consistency. Id. at 23.
Empire also challenges the validity of the inclusion of
Part C coverage days in the Hospital’s 2008 fiscal year
DSH calculation. Id. at 11. In a 2014 case, the D.C.

26a
Circuit Court of Appeals vacated the Medicare Part C
regulatory revision on procedural grounds. See Allina
Health Servs. v. Sebelius, 746 F.3d 1102, 1109 (D.C. Cir.
2014). Accordingly, both Empire and the Secretary
have agreed that this Court should remand the Part C
issue back to the Board.
The Secretary also moves for summary judgment, arguing that the Court should find the Secretary’s 2005
Final Rule substantively and procedurally valid.
JURISDICTION

This case comes to the Court from the Provider Reimbursement Review Board, which hears appeals concerning DSH reimbursement payments to hospitals and
other Medicare providers. The Board concluded that
this case “involves a question of law or regulations” that
it “is without authority to decide.” See ECF No. 11-2
(citing 42 C.F.R. § 405.1842(f )(1), (g)(2)). Pursuant to
42 U.S.C. § 1395oo(f )(1), the Board granted expedited
judicial review of the legal questions raised by the Hospital in its appeal, now being prosecuted by Empire.
The Board found that it “lacks the authority to decide
whether regulation, 42 C.F.R. § 412.106(b)(2) is valid.”
ECF No. 11-2.
The Secretary disputes the Court’s jurisdiction to
hear Empire’s challenge to the Secretary’s assessment
of SSI-entitlement. ECF No. 46 at 32. As the Court
makes clear below, it finds that the Secretary’s assessment of SSI-entitlement in the Medicare fraction of the
disproportionate patient percentage provision is outside
the scope of the Board’s grant of expedited judicial review in this matter. See infra Part III. However, the
Court has subject matter jurisdiction over the other

27a
questions of law presented in this matter pursuant to the
Board’s grant of expedited judicial review under 42
U.S.C. § 1395oo(f )(1), and pursuant to 28 U.S.C. § 1331,
as a civil action arising under the laws of the United
States, because Empire challenges the interpretation
of a provision in the Medicare Act, 42 U.S.C.
§ 1395ww(d)(5)(F ). See ECF No. 1.
LEGAL STANDARD FOR SUMMARY JUDGMENT

When parties file cross-motions for summary judgment, the Court considers each motion on its own merits.
See Fair Housing Council of Riverside County, Inc. v.
Riverside Two, 249 F.3d 1132, 1136 (9th Cir. 2001). A
court may grant summary judgment where “there is no
genuine dispute as to any material fact” of a party’s
prima facie case, and the moving party is entitled to
judgment as a matter of law. Celotex Corp. v. Catrett,
477 U.S. 317, 322-33 (1986); see also Fed. R. Civ. P. 56(c).
Because Empire’s claims arise under the Administrative
Procedure Act (“APA”), 5 U.S.C. §§ 701-706, resolution
of its claims “does not require fact finding on behalf of
[the] court.” Nw. Motorcycle Ass’n v. USDA, 18 F.3d
1468, 1471-72 (9th Cir. 1994).
Here, there are no disputed facts, and the Court’s
grant of jurisdiction is limited to the legal question of
the validity of 42 C.F.R. § 412.106(b)(2).
STATUTORY AND REGULATORY FRAMEWORK

Under Part A of the Medicare Act, the Medicare program reimburses providers for inpatient services based
on the Prospective Payment System (“PPS”), which derives reimbursements from standardized reimbursable
expenditure rates that are subject to adjustments based
on certain hospital-specific factors.
See 42 U.S.C.

28a
§§ 1395c to 1395i-5, 1395ww(d). The Hospital’s challenge concerns the DSH adjustment, created to “compensate hospitals for the additional expense per patient
associated with serving high numbers of low-income patients.” Phoenix Mem. Hosp. v. Sebelius, 622 F.3d 1219,
1221 (9th Cir. 2010). As alleged in the complaint, the
Hospital provided short-term acute care to patients insured under the federal health insurance program Medicare in the 2008 fiscal year. ECF No. 1 at 3.
Whether a hospital receives a DSH adjustment, and
the amount of the adjustment received, is determined by
a calculation of the hospital’s disproportionate patient
percentage (“DPP”). 42 U.S.C. § 1395ww(d)(5)(F )(v),
(vii). The DPP is the sum of two fractions, commonly
referred to as the Medicare fraction and Medicaid fraction. The relevant statutory language for determining
the DPP is as follows:
In this subparagraph, the term “disproportionate patient percentage” means, with respect to a cost
reporting period of a hospital, the sum of—
(vi)

(I) the fraction (expressed as a percentage), the

numerator of which is the number of such hospital’s patient days for such period which were made
up of patients who (for such days) were entitled to
benefits under part A of this subchapter and were
entitled to supplementary security income benefits (excluding any State supplementation) under
subchapter XVI of this chapter, and the denominator of which is the number of such hospital’s patient days for such fiscal year which were made up
of patients who (for such days) were entitled to
benefits under part A of this subchapter, and

29a
(II) the fraction (expressed as a percentage), the

numerator of which is the number of the hospital’s
patient days for such period which consist of patients who (for such days) were eligible for medical assistance under a State plan approved under
subchapter XIX, but who were not entitled to benefits under part A of this subchapter, and the denominator of which is the total number of the hospital’s patient days for such period.
42 U.S.C. § 1395ww(d)(5)(F )(vi) (emphasis added).
The regulation implementing the DPP provision, 42
C.F.R. § 412.106(b), as amended by the 2005 Final Rule,
states the formula for determining the DPP, which
serves “as a proxy for all low-income patients.” Legacy
Emanuel Hosp. & Health Ctr. v. Shalala, 97 F.3d 1261,
1265 (9th Cir. 1996). The formula is as follows, represented visually:
Medicare Fraction

Days Entitled to
Medicare Part A
and to SSI
Days Entitled to
Medicare Part A

Medicaid Fraction

Days Eligible for
Medicaid (but not
+
entitled to Medicare) = DPP
Total Patient Days

See 42 C.F.R. § 412.106(b). “A higher DPP produces a
higher adjustment percentage, which in turn produces a
larger adjustment payment.” Metro. Hosp. v. United
States HHS, 712 F.3d 248, 251 (6th Cir. 2013) (“In sum,
the DPP is the key figure in determining whether a hospital will receive additional Medicare dollars for serving
low-income patients and, if so, in what amount.”).

30a
As referenced in the above equation, the numerator
of the Medicare fraction consists of the number of
patient-days in the relevant period for patients
who were both “entitled to benefits under [Medicare]
part A” and “entitled to [SSI] benefits.” 42 U.S.C.
§ 1395ww(d)(5)(F )(vi)(I). The relevant portion of the
implementing regulation closely tracks the statute. It
states that the Secretary calculates the DPP by determining the number of patient days that “[a]re associated
with discharges occurring during each month” and
“[a]re furnished to patients who during that month were
entitled to both Medicare Part A (including Medicare
Advantage (Part C)) and SSI, excluding those patients
who received only State supplementation.” 42 C.F.R.
§ 412.106(b)(2) (emphasis added). The Secretary then
divides this number by the number of patient days that
“[a]re associated with discharges that occur during that
period” and “[a]re furnished to patients entitled to Medicare Part A (including Medicare Advantage (Part C))”.
Id. § 412.106(b)(2).
EMPIRE’S CHALLENGE TO THE VALIDITY OF
42 C.F.R. § 412.106(B)(2)

As previously stated, the issue under expedited judicial review in this matter is the validity of 42 C.F.R.
§ 412.106(b)(2). See ECF No. 11-2. “[R]egulations, in
order to be valid, must be consistent with the statute under which they are promulgated.” United States v.
Larionoff, 431 U.S. 864, 873 (1977). In addition, “[a]
substantive rule is invalid if the agency has failed to
comply with APA requirements.” Southern California
Aerial Advertisers’ Ass’n v. Fed. Aviation Admin., 881
F.2d 672, 677 (9th Cir. 1989); see also Buschmann v.

31a
Schweiker, 676 F.2d 352, 355-56 (9th Cir. 1982) (“A regulation is invalid if the agency fails to follow procedures
required by the Administrative Procedures Act,
5 U.S.C. § 553.”). Thus, a regulation may be substantively valid but fail because it is procedurally invalid.
Empire argues that the Secretary’s 2005 Final Rule
is both substantively and procedurally invalid. ECF
No. 34 at 17-30. The Secretary contends that the 2005
Final Rule was properly adopted and that the Secretary’s interpretation of the phrase “entitled to benefits
under [Medicare] part A” is reasonable. See ECF No.
46 at 22-32. The Court first considers the substantive
validity of 42 U.S.C. § 412.106(b)(2), then its procedural
validity.
I.
Interpretation of the Phrase “Entitled to Benefits
Under [Medicare] Part A”

Empire challenges the Secretary’s application of 42
C.F.R. § 412.106(b)(2), which is the Medicare fraction in
the DPP provision, and contends that the agency’s interpretation of 42 U.S.C. § 1395ww(d)(5)(F ) is arbitrary
and capricious. See ECF No. 1 at 14. Under the 2005
Final Rule, the patient-days of patients who exhausted
their Medicare Part A coverage are included in the Medicare fraction. See 69 Fed. Reg. 49,098-99 (Aug. 11,
2004). Prior to the Secretary’s promulgation of the 2005
Final Rule, exhausted Medicare Part A patient-days
were not included in the Medicare fraction, and when a
patient was eligible for Medicaid, exhausted Medicare
Part A patient-days were included in the Medicaid fraction. See id. The Secretary argues that it correctly
and reasonably interpreted § 1395ww(d)(5)(F ) in the
2005 Final Rule amending 42 C.F.R. § 412.106(b)(2), and

32a
in the agency’s subsequent application of the regulation.
See ECF No. 46 at 2.
The standard of review for an agency’s interpretation
of a statute that is reflected in a regulation adopted
through notice-and-comment rulemaking is the two-step
framework outlined in Chevron, U.S.A., Inc. v. Natural
Resources Defense Council, Inc., 467 U.S. 837 (1984).
See United States v. Mead Corp., 533 U.S. 218, 226-27
(2001) (requiring analysis under the Chevron framework
for regulations adopted through notice-and-comment
rulemaking).
The first question for the reviewing
court is “whether Congress has directly spoken to the
precise question at issue.” Chevron, 467 U.S. at 842.
“If the intent of Congress is clear, that is the end of the
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of Congress.” Id. at 842-43. The reviewing court employs
“traditional tools of statutory construction” to ascertain
whether “Congress had an intention on the precise question.” Id. at 843 n.9. The precise substantive question before the Court is whether Congress intended the
phrase “entitled to benefits under [Medicare] Part A” in
the Medicare fraction of the DPP provision to mean
“qualified to receive benefits” or “legally due payment.”
The Supreme Court has held that “if the statute is
silent or ambiguous with respect to the specific issue,
the question for the court is whether the agency’s answer is based on a permissible construction of the statute.” Id. at 843. In this second step of Chevron, the
court “must reject administrative constructions of [a]
statute . . . that are inconsistent with the statutory
mandate or that frustrate the policy that Congress

33a
sought to implement.” Fed. Election Comm’n v. Democratic Senatorial Campaign Committee, 454 U.S. 27,
32 (1981). The agency’s construction need not be the
only possible permissible interpretation of the statute,
nor must it be “even the reading the court would have
reached if the question initially had arisen in a judicial
proceeding.” Chevron, 467 U.S. at 843 n.11. Rather,
the agency’s construction need only be a “permissible”
construction of the statute. Id. at 843.
A.

Stare Decisis for Chevron Decisions

“A court’s prior judicial construction of a statute
overrides an agency construction otherwise entitled to
Chevron deference only if the prior court decision holds
that its construction follows from the unambiguous
terms of the statute and thus leaves no room for discretion.” Nat’l Cable & Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S. 967, 983 (2005). In other words,
the doctrine of stare decisis applies if a prior court has
reached a Chevron Step One decision finding that “Congress has directly spoken to the precise question at issue.” See Chevron, 467 U.S. at 842.
Empire argues that in Legacy Emanuel Hospital
and Health Center v. Shalala, 97 F.3d 1261, 1265 (9th
Cir. 1996), the Ninth Circuit Court of Appeals reached a
Chevron Step One decision regarding the interpretation
of “entitled” in the DPP provision, and that interpretation is binding on this Court. See ECF No. 34 at 21-22.
The Secretary contends that the Legacy court’s Chevron
Step One determination is “limited to the precise question at issue” in Legacy, which was the interpretation of
the word “eligible” in the Medicaid fraction. See ECF
No. 46 at 25-27 (citing Legacy Emanuel, 97 F.3d at 126566). The Secretary argues that the Legacy court did

34a
not answer the precise question presently before this
Court regarding the interpretation of the phrase “entitled to benefits under [Medicare] part A” in the Medicare fraction of the DPP provision. Id. The Secretary argues that the Legacy decision is not binding on
this Court, and that the Court should proceed with a full
Chevron analysis. Id.
The Court first considers whether the Ninth Circuit’s
statements in Legacy constitute a Chevron Step One
holding regarding the statutory meaning of “entitled” in
the context of the Medicare fraction when the Legacy
court’s statements related to the statutory meaning of
“entitled” in the context of the Medicaid fraction. If so,
then the Legacy holding would be binding on this Court
under the doctrine of stare decisis.
In Legacy, the Ninth Circuit Court of Appeals considered the validity of the Secretary’s interpretation of
the word “eligible” in the Medicaid fraction of the DPP
provision. See Legacy Emanuel, 97 F.3d at 1261-62.
The Legacy court held that “the language of the Medicare reimbursement provision is clear: the Medicaid
proxy includes all patient days for which a person was
eligible for Medicaid benefits, whether or not Medicaid
actually paid for those days of service.” Id. at 1265.
The court based its conclusion on “Congress’s use of the
word ‘eligible’ rather than ‘entitled,’ as well as Congress’s
use of the Medicaid proxy to define non-Medicare lowincome patients for purposes of determining a hospital’s
share of low-income patients.” Id. The words “eligible” and “entitled” both appear in the Medicaid fraction.
In reaching its conclusion, the Legacy court cited and
discussed Jewish Hospital, Inc. v. Secretary of Health
and Human Services, a Sixth Circuit Court of Appeals

35a
decision that considered the same question regarding
the interpretation of “eligible” in the Medicaid fraction.
See Legacy Emanuel, 97 F.3d at 1264-65 (citing Jewish
Hosp., Inc. v. Sec’y of Health & Human Servs., 19 F.3d
270 (6th Cir. 1994)). In Jewish Hospital, the Secretary
argued that Congress intended “eligible” in the Medicaid fraction to include “only those days actually paid by
Medicaid.” Jewish Hosp., 19 F.3d at 272. The Sixth
Circuit concluded that, “by using the different terms
‘entitled’ and ‘eligible’ in adjacent provisions, Congress
intended different meanings for the terms.” Legacy
Emanuel, 97 F.3d at 1264 (citing Jewish Hosp., 19 F.3d
at 275). Although the court found Congress’s intent
clear, it continued its analysis. See Jewish Hosp., 19
F.3d at 275. The Sixth Circuit went on to hold that,
“even if the language of the statute can be deemed silent
or ambiguous, the Secretary’s construction is not permissible” because “[t]he legislative history of the Medicaid proxy clearly shows that the Secretary’s construction is contrary to that intent expressed by Congress.”
Id. at 275-76 (emphasis in original). The Jewish Hospital court held that according to the plain language of
the DSH adjustment statute, “the word ‘eligible’ refers
to whether a patient is capable of receiving
. . .
Medicaid.” Id. at 274.
In 2013, after the Secretary issued the 2005 Final
Rule amending the agency’s policy regarding the interpretation of “entitled to benefits under [Medicare] part
A” in the Medicare fraction, the parties in Metropolitan
Hospital v. United States HHS, 712 F.3d 248 (6th Cir.
2013), challenged whether the patient-days of individuals “entitled to benefits under [Medicare] part A” in the

36a
Medicare fraction include “the patient days of all Medicare [Part A] beneficiaries, regardless of whether a beneficiary has exhausted coverage for any particular patient day.” Id. at 253. In the case presently before
the Court, Empire similarly challenges whether the
statutory interpretation of “entitled to benefits under
[Medicare] part A” in the 2005 Final Rule applies to
patient-days for which no payment was received under
Medicare Part A. See ECF No. 1 at 1, 14.
After opining that “courts often describe statutory
language as ‘clear’ or ‘unambiguous’ without making a
Chevron step-one holding,” the Metropolitan Hospital
court determined that the Jewish Hospital decision was
“unclear regarding whether the court’s Chevron stepone discussion is a holding,” because “the only explicit
statements of a holding that appear in Jewish Hospital
are expressed in terms of Chevron step two.” Metro.
Hosp., 712 F.3d at 256. The Metropolitan Hospital
court stated that the Jewish Hospital opinion “proceeds
in the Chevron analysis to conclude that the Secretary’s
interpretation was impermissible,” a holding in line
with Chevron step two. Id. at 256 (citing Jewish Hosp.,
19 F.3d at 275-76).
The Metropolitan Hospital court stated that, even if
it read the Jewish Hospital decision as a Chevron Step
One holding, the Metropolitan Hospital court “decline[d] to hold that Jewish Hospital’s ‘back-up’ analysis
contrasting the phrase ‘entitled to benefits under [Medicare] part A’ with the phrase ‘eligible for [Medicaid]’ ”
resolved the “precise question at issue” in Metropolitan
Hospital, which was the interpretation of “entitled to
benefits under [Medicare] part A” in the Medicare fraction. Id. at 257. Therefore, the court in Metropolitan

37a
Hospital concluded it was not bound by the Jewish Hospital decision, and proceeded with a full Chevron analysis of the statutory interpretation of the phrase “entitled
to benefits under [Medicare] part A.” Id. at 255-66.
In this case, Empire argues that the Legacy court’s
conclusion is controlling as a Chevron Step One decision
that “the statutory language is clear because of Congress’s use of ‘eligible’ rather than ‘entitled,’ and because Congress’s overarching goal was to reimburse
hospitals for the added expense of serving low-income
patients.” ECF No. 34 at 22 (citing Legacy, 97 F.3d at
1266). Empire argues that, when the Legacy court distinguished “eligible” and “entitled” in the Medicaid fraction, the Legacy court found that Congress’s intent was
clear and unambiguous and that Congress intended “entitled” to mean “entitled to payment,” foreclosing this
Court’s need to repeat a Chevron Step One analysis of
the interpretation of the phrase “entitled to benefits under [Medicare] part A” in the Medicare fraction of the
DPP provision. Id. (citing Legacy, 97 F.3d at 1266).
The Secretary contends that Legacy’s Chevron Step
One holding is not controlling in this case. ECF No. 46
at 26. The Secretary argues that the opinion in Legacy
only applies narrowly to the specific issue in that case,
namely the meaning of “eligible” as it pertained to Medicaid patient-days in the Medicaid fraction, and not to
the meaning of the language in the Medicare fraction at
issue in this case. ECF No. 46 at 26.
Courts considering the statutory interpretation of
the Medicaid and Medicare fractions have concluded
that the two fractions are separate and distinct. The
Metropolitan Hospital court concluded that it is “clear
from the statute” that “these two fractions are exclusive

38a
of one another.” Metro. Hosp., 712 F.3d at 262-63.
Nevertheless, they are interrelated. A Medicare Part
A patient-day may not be counted as a Medicaid patientday, because the DPP provision excludes the patientdays of patients who are entitled to Medicare Part A
benefits from the Medicaid fraction. See id. (citing
42 U.S.C. § 1395ww(d)(5)(F )(vi)(II)).
The Legacy court concluded that the clauses “entitled to benefits under [Medicare] part A” and “eligible
for medical assistance under [Medicaid]” “serve different purposes” in the Medicare and Medicaid fractions
respectively. Legacy Emanuel, 97 F.3d at 1266. Within the Medicare fraction, “the language ‘entitled to benefits under [Medicare]’ does not serve to define Medicare patients that are low-income.” Id. The lowincome status of patients in the Medicare fraction is determined by their entitlement to SSI. Id. “Within the
Medicaid proxy, in contrast, the language ‘eligible for
medical assistance under [Medicaid]’ defines the low-income status of patients.” Id.
Departing from the Sixth Circuit’s ambiguous Chevron Step Two conclusion in Jewish Hospital, the Ninth
Circuit Court in Legacy reached a Chevron Step One decision regarding Congress’s clear intent regarding the
meaning of “eligible” in the Medicaid fraction. See Legacy Emanuel, 97 F.3d at 1265. The Legacy court held
that the congressional intent regarding the use of “eligible” in the Medicaid fraction was clear, rather than
reaching a holding regarding the interpretation of “entitled” in the Medicare fraction. See id. That decision
is controlling in this circuit regarding the Medicaid fraction, but the Legacy court did not resolve “the precise

39a
question at issue” in the matter before this Court regarding the interpretation of the phrase “entitled
to benefits under [Medicare] part A.” See 42 U.S.C.
§ 1395ww(d)(5)(F )(vi). Accordingly, this Court undertakes a Chevron analysis in the specific context of the
Medicare fraction within the DPP provision.
B.

Chevron Step One Analysis

Employing the traditional tools of statutory construction, the Court first considers “whether Congress
has directly spoken to the precise question at issue.”
Chevron, 467 U.S. at 842-43, 843 n.9. Courts may presume that “Congress legislates with knowledge of [the
court’s] basic rules of statutory construction.” McNary
v. Haitian Refugee Ctr., Inc., 498 U.S. 479, 496 (1991).
Traditional tools of judicial statutory construction include considering the plain meaning of the language in
the statute, dictionary definitions, canons of construction, legislative purpose, and legislative history. See,
e.g., Legacy Emanuel, 97 F.3d at 1265.
Empire argues that the Secretary’s interpretation of
“entitled to benefits under [Medicare] part A” in the
2005 Final Rule’s amendment of the DPP provision fails
Chevron Step One because it is contrary to the plain language of the statute and is applied inconsistently within
the statute. See ECF No. 34 at 20-23. The Secretary
contends that 42 U.S.C. § 426 provides a clear meaning
for the phrase “entitled to benefits under Medicare Part
A” in the Medicare fraction. ECF No. 46 at 23. Additionally, the Secretary argues that if the Court finds
the meaning of the word “entitled” in the Medicare fraction ambiguous, the Court should uphold the agency’s
interpretation of the statute as permissible under a
Chevron Step Two analysis. ECF No. 46 at 5, 27.

40a
Clarifying the meaning of “entitled” matters because
an individual may satisfy the conditions for Medicare eligibility, but may not receive Medicare Part A benefits
because Medicare Part A provides a limited benefit to
hospitalized patients: beneficiaries are covered only
for the first 90 days of any given hospitalization. 42
C.F.R. § 409.61(a)(1). Each Medicare Part A beneficiary also “has a non-renewable lifetime reserve” of 60
additional days of coverage which, until they are exhausted, can be used to cover periods of hospitalization
lasting longer than 90 days. Id. § 409.61(a)(2).
By statute, Medicare generally pays after other
sources of insurance, such as a worker’s compensation
plan. 42 U.S.C. § 1395y(b). Individuals may receive
both Medicare Part A and Medicaid benefits. These
individuals are “dual-eligible.” See Metro. Hosp., 712
F.3d at 252. Two scenarios exist in which a person may
qualify for Medicare Part A and yet not receive or be
“covered” by his or her Medicare Part A benefits.
First, an individual may have other sources of insurance
that must be exhausted before an individual receives
Medicare Part A benefits. 42 U.S.C. § 1395y(b)(2) (describing the “Medicare Secondary Payer” system).
Second, an individual may exhaust her Medicare Part A
coverage by using all of the hospital care patient-days
provided for under Medicare. Id. § 1395d(b)(1). In
the first case, Medicare Part A benefits only begin when
the individual’s other coverage is exhausted.
Id.
§ 1395y(b)(2). In the second case, Medicare no longer
pays for the patient’s hospital services. In either scenario, individuals who are qualified for Medicare Part A
benefits do not receive those benefits because they have

41a
either not exhausted their other coverage or they have
exhausted their Medicare Part A coverage.
Under the Secretary’s current policy, the Secretary
counts all the patient-days of individuals qualified for
Medicare Part A in the Medicare fraction of the DPP
provision, regardless of whether they are receiving coverage for their hospital patient-days under Medicare
Part A.
1.

Plain Language

“In construing the provisions of a statute, we first
look to the language of the statute to determine whether
it has a plain meaning.” Satterfield v. Simon & Schuster, Inc., 569 F.3d 946, 951 (9th Cir. 2009). Where the
statutory language is plain and “admits of no more than
one meaning,” the duty of interpretation does not arise.
Caminetti v. United States, 242 U.S. 470, 485 (1917).
“A fundamental canon of statutory construction is that,
unless otherwise defined, words will be interpreted as
taking their ordinary, contemporary, common meaning.” Perrin v. United States, 444 U.S. 37, 42 (1979).
However, the canon that courts “construe a statutory
term in accordance with its ordinary or natural meaning” applies only “in the absence of [a statutory] definition.” FDIC v. Meyer, 510 U.S. 471, 476 (1994).
i.
No Statutory Definition Exists in 42 U.S.C.
§ 1395ww

No definition of the phrase “entitled to benefits under [Medicare] Part A” is provided in the DPP provision
or elsewhere in the statutory section in which the DPP
formula appears. See 42 U.S.C. § 1395ww; see also
Metro. Hosp., 712 F.3d at 256. However, the Secretary

42a
argues that 42 U.S.C. § 426(a) provides a statutory definition of the phrase “entitled to benefits under [Medicare] Part A.” See ECF No. 46 at 23. Subsection
426(a) provides that “every individual who . . . has
attained age 65, and . . . is entitled to monthly [Social Security benefits] . . . shall be entitled to hospital insurance benefits under [Medicare Part A] for each
month for which he meets the [above specified conditions].” The Secretary contends that, in the language
of 42 U.S.C. § 426(a), “Congress has defined [‘]entitled
to part A[’] and foreclosed [Empire’s] interpretation
that [‘entitled’] turns on whether a particular patient
day is covered.” ECF No. 46 at 23.
The Court disagrees. Subsection 426(c), titled “Conditions,” states that “[f]or the purposes of subsection (a)
. . . entitlement of an individual to hospital benefits
for a month shall consist of entitlement to have payment
made under, and subject to the limitations in, [Medicare
Part A] on his behalf for inpatient hospital services
. . . during such month.” Furthermore, § 426 does
not reference the DPP provision, so it is unclear whether
Congress actually contemplated defining “entitled to
benefits under [Medicare] part A” through § 426. The
Court finds that the definition provided in subsection
426(a) is not dispositive with regards to the meaning of
“entitled to benefits under [Medicare] part A” in the
DPP provision within 42 U.S.C. § 1395ww. Therefore,
the Court will consider the ordinary meaning of the
word “entitled.”
ii.

Ordinary Meaning of “Entitled”

“Entitle” is defined in Black’s Law Dictionary as “to
grant a legal right to” and “to qualify for.” Entitle,

43a
Black’s Law Dictionary (10th ed. 2014). Empire argues that, in the context of 42 U.S.C. § 1395ww, “entitled
to benefits under [Medicare] Part A” means “granted a
legal right to” actual payment of benefits under Medicare Part A. ECF No. 34 at 21. Conversely, the Secretary contends that the phrase “entitled to benefits under [Medicare] Part A” is properly interpreted as meaning “qualified for” benefits under Medicare Part A, regardless of whether payment is made. See ECF No. 46
at 23.
It appears to the Court that “entitle” has two plainly
conflicting meanings. The Court thus finds that the
plain meaning of “entitled” in this context does not
demonstrate Congress’s clear and unambiguous intent
as required by Chevron Step One. See Chevron, 467
U.S. at 842-43. Therefore, the Court considers another
canon of construction: whether Congress’s intended
meaning of “entitled to benefits under [Medicare] part
A” may be inferred from other uses of the word “entitled” or the phrase “entitled to benefits under [Medicare] part A” within 42 U.S.C. § 1395ww.
iii. Consistent Use

Another rule of statutory construction is that “identical words used in different parts of the same act are
intended to have the same meaning.” Gustafson v. Alloyd Co., 513 U.S. 561, 570 (1995). Conversely, the use
of different language by Congress creates a presumption that Congress intended the terms to have different
meanings. See Washington Hosp. Center v. Bowen,
795 F.2d 139, 146 (D.C. Cir. 1986).
The phrase “entitled to benefits under [Medicare]
part A” appears seven times throughout 42 U.S.C.

44a
§ 1395ww other than in the DPP provision, and three
times within the DPP provision. See 42 U.S.C. § 1395ww.
“Moreover, the phrase ‘entitled to benefits under [Medicare] part A’ appears in more than 30 other sections of
the Medicare statute, indicating that the phrase has a
specific, consistent meaning throughout the statutory
scheme, rather than a varying, context-specific meaning
in each section and subsection.” Metro. Hosp., 712
F.3d at 260. In the Medicare statute, several references to the phrase expressly recognize the difference
between a patient who has exhausted his or her Medicare Part A coverage for a particular spell of illness and
a patient who is not entitled to Medicare benefits at all.
Id. For example, 42 U.S.C. § 1395l(t)(1)(B)(ii) provides
coverage for certain outpatient-department services
that are “furnished to a hospital inpatient who (I) is entitled to benefits under [Medicare] part A . . . but
as exhausted benefits for inpatient services during a
spell of illness, or (II) is not so entitled.” The Court
finds Congress’s frequent use of the phrase “entitled to
benefits under [Medicare] part A” and the logic of the
Metropolitan Hospital decision persuasive but not dispositive.
In contrast, Empire argues that when Congress used
the word “entitled” for Medicare Part A benefits and
SSI benefits in the Medicare fraction, Congress intended the word to be applied consistently. ECF No.
34 at 23-24. Empire asserts that the Secretary interprets the word “entitled” differently within the same
sentence of the statute, in conflict with Congress’s intention and the canon of statutory construction that
“identical words used in different parts of the same statute are generally presumed to have the same meaning.”

45a
Id. (quoting IBP, Inc. v. Alvarez, 546 U.S. 21, 34 (2005)).
The Court agrees that the Secretary treats “entitled”
for the purposes of Medicare Part A as “qualified for,”
and “entitled” for the purposes of SSI benefits as “granted
a legal right to” actually payment. See 69 Fed. Reg.
49,098-99 (Aug. 11, 2004). The Secretary’s inconsistent
interpretation of “entitled” conflicts with the canon of
construction holding that the same word used within a
statute generally has the same meaning.
Taking both of these arguments into consideration,
the Court concludes that Congress’s intent regarding
the interpretation of the phrase “entitled to benefits under [Medicare] part A” in the DPP provision is not
clearly evinced by the repeated uses of the word “entitled” or the phrase “entitled to benefits under [Medicare] part A.” Based on the absence of a statutory definition, the lack of clear ordinary meaning, and the Congress’s repeated but unclear uses of the word “entitled”
and phrase “entitled to benefits under [Medicare] part
A,” the Court finds that Congress’s intent is unclear as
to the meaning of “entitled to benefits under [Medicare]
part A” in the DPP provision. Therefore, the Court
next looks to the statutory purpose to determine whether Congress provided a clear and unambiguous intent
for the meaning of the phrase “entitled to benefits under
[Medicare] part A” in its expression of the purpose of
the DSH provision. See Chevron, 467 U.S. at 842-43.
2.

Statutory Purpose

If the statutory text is unclear, courts may look to the
purpose of the statute to determine whether Congress
clearly and unambiguously expressed its intent there.
See Chevron, 467 U.S. at 843 n.9 (“If a court, employing
traditional tools of statutory construction, ascertains

46a
that Congress had an intention on the precise question
at issue, that intention is the law and must be given effect.”). “In ascertaining the plain meaning of the statute, the court must look to the particular statutory language at issue, as well as the language and design of the
statute as a whole.” K Mart Corp. v. Cartier, 486 U.S.
281 (1988). “[T]he function of the courts” in cases of
statutory interpretation “is to construe the language so
as to give effect to the intent of Congress.” United
States v. American Trucking Ass’ns, 310 U.S. 534, 542
(1940).
“Congress’s ‘overarching intent’ in passing the [DSH]
provision was to supplement the [PPS] payments of hospitals serving ‘low income’ persons.” Legacy Emanuel, 97 F.3d at 1265. “Congress intended the Medicare
and Medicaid fractions to serve as a proxy for all lowincome patients.” Id. In the Medicare fraction, the
low-income status of Medicare patients receiving hospital care “is determined by their entitlement to SSI.”
Id. at 1256-66. In the Medicaid fraction, the number of
Medicaid-eligible patient-days accounts for the lowincome patients eligible to receive Medicaid and receiving hospital care. Id. at 1266. However, “knowing
the statute’s general purpose and that the two DPP fractions are mutually exclusive is insufficient to divine a
clear congressional intent regarding whether a Medicare patient who has exhausted his or her days of inpatient services for a particular spell of illness is ‘entitled
to benefits under [Medicare] part A.’ ” Metro. Hosp. v.
United States HHS, 712 F.3d 248, 263 (6th Cir. 2013).

47a
Neither party’s interpretation of “entitled” includes
in the DPP calculation all groups of low-income patients. 1 See id. “Because either interpretation would
necessarily exclude certain low-income patients from
the DPP calculation,” the Sixth Circuit in Metropolitan
Hospital found “no support for a clear statutory mandate to account for all low-income patients between the
two fractions.” Id. Likewise, this Court finds no clear
intent regarding the meaning of “entitled to benefits under [Medicare] part A” in the statutory purpose of 42
U.S.C. § 1395ww.

Under the Secretary’s present interpretation of “entitled to benefits under [Medicare] part A,” all patient-days of patients who satisfy the conditions for Medicare eligibility and who are receiving SSI
payments are counted in the Medicare fraction. See Metro. Hosp.,
712 F.3d at 263. All patients who satisfy the conditions for Medicare eligibility are excluded from the Medicaid fraction. 42 C.F.R.
§ 412.106(b)(4). The Secretary’s application of the DPP provision
thus excludes patients who are “entitled” to Medicare and enrolled
in SSI but are not receiving SSI payments, despite the fact that
these patients are, by virtue of their enrollment in SSI, low income.
See Metro. Hosp., 712 F.3d at 263.
Under the Secretary’s previous policy, which Empire advocates
in this case, “any Medicare patient who has exhausted his or her days
of inpatient hospital services for a particular spell of illness is no
longer ‘entitled to benefits under [Medicare] part A.’ ” See id.
The patient’s Medicare Part A exhausted days cannot be counted in
the Medicare fraction, but these exhausted days may only be counted
in the Medicaid fraction if the patient is Medicaid-eligible. See
42 C.F.R. § 412.106(b)(4). Therefore, this interpretation excludes
patients who are enrolled in SSI and eligible for Medicare, but not
eligible for Medicaid, despite the fact that these patients are also low
income.
1

48a
Neither the plain language of 42 U.S.C. § 1395ww nor
the statutory purpose demonstrates a clear and unambiguous Congressional intent for the meaning of the
phrase “entitled to benefits under [Medicare] part A” in
the DPP provision. See Chevron, 467 U.S. at 842-43.
Therefore, the Court concludes its Chevron Step One
analysis and considers whether the Secretary’s interpretation is permissible under Chevron Step Two.
C.

Chevron Step Two Analysis

“[I]f the statute is silent or ambiguous with respect
to the specific issue, the question for the court is whether the agency’s answer is based on a permissible construction of the statute.” Chevron, 467 U.S. at 843.
“[U]nder Chevron step two, we ask whether an agency
interpretation is ‘arbitrary or capricious in substance,’ ”
Judulang v. Holder, 565 U.S. 42, 52 n.7 (2011), or “manifestly contrary to the statute.” Mayo Found. for Med.
Educ. & Research v. United States, 562 U.S. 44, 53 (2011).
“A court lacks authority to undermine the regime established by the Secretary unless her regulation is ‘arbitrary, capricious, or manifestly contrary to the statute.’ ”
Sebelius v. Auburn Reg’l Med. Ctr., 133 S. Ct. 817, 826
(2013). Furthermore, “[a] court must uphold the Secretary’s judgment as long as it is a permissible construction of the statute, even if it differs from how the court
would have interpreted the statute in the absence of an
agency regulation.” Id.
Under Chevron Step Two, courts generally give
agency statutory interpretations substantial deference
“when it appears that Congress delegated authority to
the agency generally to make rules carrying the force of
law, and that the agency interpretation claiming deference was promulgated in the exercise of that authority.”

49a
Mead Corp., 533 U.S. at 226-27. An agency’s interpretation of statutory authority is examined “in light of
the statute’s text, structure, and purpose.” MiguelMiguel v. Gonzales, 500 F.3d 941, 949 (9th Cir. 2007).
The interpretation fails if it is “unmoored from the purposes and concerns” of the underlying statutory framework. Judulang, 565 U.S. at 64.
In the regulation implementing the DPP provision,
the Secretary uses “entitled” only once in the numerator
of the Medicare fraction, departing from the statutory
language of 42 U.S.C. § 1395ww.
See 42 C.F.R.
§ 412.106(b) (assessing patient-days of patients who
were “entitled to both Medicare Part A (including Medicare Advantage (Part C)) and SSI”). The Secretary
interprets this single use of “entitled” in different ways
for counting patient-days of patients “entitled” to Medicare Part A and counting patient-days of patients “entitled” to SSI. The Secretary counts patient-days for
which individuals are “entitled to [SSI benefits]” as only
those days on which individuals actually receive payment of SSI benefits. In contrast, under the 2005 Final
Rule, the Secretary counts patient-days for which individuals are “entitled to benefits under [Medicare] Part
A” as all patient-days on which an individual qualifies
for Medicare Part A, whether or not the individual actually receives Medicare Part A benefits on that day.
This inconsistent application of the word “entitled” does
not appear entirely reasonable; however, nothing in the
language of 42 U.S.C. § 1395ww precludes the Secretary’s interpretations in relation to Medicare Part A and
SSI benefits. See Metro. Hosp., 712 F.3d at 265-66.

50a
Therefore, the Secretary’s interpretation is not “manifestly contrary to the statute.” Chevron, 467 U.S. at
843.
The Court next considers whether the Secretary has
considered the “purposes and concerns” of the underlying statutory framework. See Judulang, 565 U.S. at
64. The Secretary provided the agency’s reasons for
reaching its interpretation of the phrase “entitled to
benefits under [Medicare] part A” when the Secretary
published the 2005 Final Rule. See 69 Fed. Reg.
49,098-99 (Aug. 11, 2004). The Secretary stated that
the agency “proposed this change to facilitate consistent
handling of [Medicare Part A] days across all hospitals.”
Id. at 49,098. The Secretary considered and responded
to the comments that had been submitted before adopting a policy to include the patient-days associated with
dual-eligible beneficiaries in the Medicare fraction,
whether or not the beneficiary has exhausted Medicare
Part A hospital coverage. Id. at 49,098-99. Based
upon the Secretary’s rationale in the 2005 Final Rule,
the Court concludes that the Secretary’s decision to
count all the patient-days of individuals qualified for
Medicare Part A, regardless of whether they are receiving coverage under Medicare Part A, must be given controlling weight. See Chevron, 467 U.S. at 843.
The Court finds that Congress provided no express
guidance regarding how Medicare Part A patient-days
should be counted for the purposes of assessing the DPP
in assessing the DSH adjustment.
Therefore, the
Court finds permissible the Secretary’s interpretation
of “entitled to benefits under [Medicare] part A” in
§ 1395ww, and, under Chevron, the Court defers to the
Secretary’s construction. See Chevron, 467 U.S. at

51a
843. Although it finds that 42 C.F.R. § 412.106(b)(2) is
substantively valid based upon the Secretary’s statutory
interpretation, the Court also must analyze whether
42 C.F.R. § 412.106(b)(2) is procedurally valid.
II.

Procedural Validity of 42 C.F.R. § 412.106(b)(2)

Empire argues that the Secretary did not follow
proper notice-and-comment procedures in the implementation of the 2005 Final Rule because the Secretary
misstated his then-existing policy in the 2003 Notice of
Proposed Rulemaking, invalidating the 2005 Final Rule.
ECF No. 34 at 19-20. The Secretary contends that the
2005 Final Rule was properly adopted despite the Secretary’s misstatement of the agency’s policy in the 2003
Notice of Proposed Rulemaking; the Rule is a logical
outgrowth of the proposed rule; and the Rule is, therefore, procedurally valid. See ECF No. 46 at 27-30.
A.
Rule

Rulemaking Process Leading to the 2005 Final

The rulemaking process leading to the promulgation
of the 2005 Final Rule occurred over a two-year period.
In both May 2003 and May 2004, the Secretary published a notice of proposed rulemaking in anticipation of
promulgating a final rule for the upcoming federal fiscal
year. Between May and July each year, an approximately two-month-long open comment period followed
each notice of proposed rulemaking, one in 2003 and one
in 2004. In August 2003 and August 2004, the Secretary promulgated final rules for the upcoming federal
fiscal year, the 2004 Final Rule and the 2005 Final Rule,
respectively.

52a
The Secretary did not adopt the 2003 proposal in the
2004 Final Rule and stated that the Secretary would address the comments regarding the agency’s proposal in
a later document. Likewise, the 2004 notice of proposed
rulemaking merely stated that the Secretary would address the comments that the agency had received in a
forthcoming rule. See 69 Fed. Reg. 28,286 (May 18,
2004). The first time that the Secretary addressed the
comments submitted regarding the 2003 notice of proposed rulemaking was in the promulgation of the 2005
Final Rule. See infra Part II.A.6.
A recent district court case decided in the D.C. Circuit, Stringfellow Memorial Hospital v. Azar, provides
a thorough history of the rulemaking process for the
2005 Final Rule as it relates to the Secretary’s amendment of his policy regarding the application of “entitled
to benefits under [Medicare] part A” in the Medicare
fraction of the DPP provision. See Stringfellow Mem’l
Hosp. v. Azar, Civil Action No. 17-309 (D.D.C. June 29,
2018). The Court recommends reading Stringfellow
for a detailed description of the Secretary’s rulemaking
process, which the Court will repeat here only in relevant part.
1.

2003 Notice of Proposed Rulemaking

In May 2003, the Secretary issued a notice of proposed rulemaking for the 2004 fiscal year that proposed
a change in how he treated individuals not receiving
Medicare Part A benefits for purposes of the DPP calculation and DSH adjustment. See 68 Fed. Reg. 27,154
(May 19, 2003). The Secretary inaccurately stated that
the agency’s then-existing policy counted all dual-eligible
patient-days in the Medicare fraction, excluding them
from the Medicaid fraction, even if the patient was not

53a
receiving Medicare Part A benefits. See id. at 27,20708. The Secretary proposed to change this policy for
counting the patient-days of Medicare Part A beneficiaries whose Medicare Part A coverage had been exhausted. He proposed to count exhausted Medicare
Part A patient-days in the Medicaid fraction of the DPP
provision. See id. at 27,208-09.
2.
Rule

Initial 2003 Comment Period for 2003 Proposed

An initial open comment period followed the 2003 notice of proposed rulemaking, with a July 18, 2003 deadline for the submission of comments. 68 Fed. Reg.
27,154 (May 19, 2003).
Many commenters supported the policy that the Secretary had described as the then-existing policy: the
inclusion of dual-eligible patient-days in the Medicare
fraction of the DPP provision, regardless of whether the
patient’s Medicare Part A coverage had been exhausted.
See, e.g., AR at 486R; 583R; 718R; 816R. These commenters indicated that they opposed the proposed change
to begin including dual-eligible exhausted patient-days
in the numerator of the Medicaid fraction.
For example, the American Hospital Association
(“AHA”) opposed the proposed change because the [Centers for Medicare and Medicaid Services (“CMS”)] provided “no justified reason for making this change, and
there are clear reasons not to make this change.” Administrative Record (“AR”) at 754R. The AHA noted
that “the proposed change would place a significant new
regulatory and administrative burden on hospitals,” and
that “CMS clearly states in the proposed rule that the
current formula is consistent with statutory intent.”

54a
Id. In addition, the AHA explained that “it is likely
that this proposed change would result in reduced DSH
payments to hospitals,” because “[a]ny transfer of a particular patient day from the Medicare fraction (based on
total Medicare patient days) to the Medicaid fraction
(based on total patient days) will dilute the value of that
day, and therefore reduce the overall patient percentage
and the resulting DSH adjustment.” Id. at 754-55R.
The AHA stated that “the calculation of dual-eligible
days must not be changed.” Id. at 755R.
A number of commenters echoed the AHA, opposing
the proposed change on the grounds that the change
would result in large administrative burdens for hospitals. See, e.g., id. at 486R (comments of Association of
American Medical Colleges that the “current policy is
consistent with statutory intent” and that the proposed
policy will impose a “new administrative burden . . .
on hospitals to provide documentation”); id. at 583R
(comments of Healthcare Association of New York State
that “it will be difficult for hospitals to provide the data
required under this proposal”).
Two commenters supported the proposed policy
change. See id. at 566R (comments in support from
BlueCross BlueShield); id. at 860R (comments in support from the law firm Vinson & Elkins). In addition
to supporting the Secretary’s proposed policy, Vinson &
Elkins also expressed confusion about the Secretary’s
statement of the then-existing policy. See id. at 860R.
Vinson & Elkins “disagree[d] . . . that CMS’ description of its past practice is correct.” Id. Specifically, Vinson & Elkins noted that the proposed rule was
“at odds with the plain language of the regulation” gov-

55a
erning the DSH adjustment, which stated that the Medicare fraction included “‘covered patient days’ only”—in
other words, unexhausted days only.
Id. at 861R
(quoting 42 C.F.R. § 412.106(b)(2)(i) before its amendment). That is, the Secretary’s stated proposed rule
was actually the manner in which dual-eligible exhausted days were currently being handled and the exact opposite of the policy the Secretary had put forth as
the then-existing policy. Vinson & Elkins urged CMS
to correct its misstatement, arguing that if the agency
chose to stand by those statements, “it will squander its
credibility with the courts and set[ ] itself up not only to
lose as the issue is litigated but to subject itself to paying attorney fees and other sanctions.” Id.
Southwest Consulting Associates (“SCA”) also wrote
to identify the misstatement, noting that “CMS’ statement ‘the days of patients who have exhausted their
Medicare Part A coverage will no longer be included in
the Medicare fraction’ is inconsistent with CMS’ current
actual practice with respect to the Medicare fraction.”
Id. at 405R. SCA had obtained a letter from the U.S.
Department of Health and Human Service’s Office of
General Counsel, dated August 14, 2001, “stating that
only covered days [that is, unexhausted days] are used
in the [Medicare] fraction.” Id.; see also id. at 363R
(letter from Linda Banks, CMS, to Christopher Keough,
noting that “the Medicare/SSI denominator includes
only the covered days,” not exhausted days). Thus,
SCA noted that “[t]o say that [exhausted] days ‘will no
longer be included’ ” in the Medicare fraction “may be a
change in ‘policy,’ but it is clearly not a change in ‘practice.’ That begs the question—What was the ‘policy’—
what CMS professed or what it did?” Id. at 405R.

56a
3.

2004 Final Rule

On August 1, 2003, the Secretary issued a final rule
for the 2004 fiscal year. Regarding the treatment of
dual-eligible patient-days, the Secretary noted that
“[w]e are still reviewing the large number of comments
received on the proposed provision relating to dualeligible patient days in the May 19, 2003 [sic]. Due to
the number and nature of the comments we received on
our proposed policies, we are addressing the public comments in a separate document.” 68 Fed. Reg. 45,346,
45,421 (Aug. 1, 2003). The 2004 Final Rule did not acknowledge or address the commenters’ concerns that
the agency may have misstated its then-existing policy
by confusing its current practice with its proposed practice. No other document or notice followed between
August 1, 2003, and May 2004.
4.

2004 Notice of Proposed Rulemaking

In May 2004, the Secretary issued a notice of proposed rulemaking for the 2005 fiscal year for general
changes to the Medicare system. The 2004 notice of
proposed rulemaking stated that the comments relating
to dual-eligible patient-days would be addressed in a
forthcoming final rule. 69 Fed. Reg. 28,286 (May 18,
2004). The Secretary explained that “[d]ue to the number and nature of the public comments received, we did
not respond to the public comments on these proposals
in the [2004 Final Rule].” Id. The Secretary did not
mention any possible misstatement of his policy for handling dual-eligible days or any confusion regarding the
agency’s current policy and its proposed policy.

57a
5. 2004 Comment Period for 2004 Notice of Proposed
Rulemaking and the Secretary’s Clarification of the
Agency’s Policy

An open comment period followed the publication of
the 2004 notice of proposed rulemaking. This comment
period closed on July 12, 2004. 69 Fed. Reg. 28,196
(May 18, 2004). During the 2004 comment period,
many of the same commenters again wrote to the Secretary, opposing the proposed rule and supporting the policy that the Secretary had described as the then-existing
policy.
Approximately three days 2 before the 2004 comment
period closed, the Secretary issued a clarification via the
CMS website regarding the agency’s statement of its
then-existing policy for counting exhausted patient-days
for dual-eligible individuals. See AR at 340R; see also
69 Fed. Reg. 49,098 (Aug. 11, 2004) (“A notice to this effect was posted on CMS’s website . . . on July 9,
2004.”). In the CMS website clarification notice, the
Secretary noted his misstatement of the agency’s then-

During oral argument, both parties acknowledged that the Secretary published his statement four days before the end of the 2004
comment period. In its pleadings, Empire first states that the Secretary published the clarification of the agency’s then-existing policy
on July 9, 2004, ECF No. 34 at 19, but later states that the clarification was published on July 7, 2004. See ECF No. 48 at 12. The
Federal Register indicates that the notice was published on the CMS
website on July 9, 2004. 69 Fed. Reg. 49,098 (Aug. 11, 2004). The
archived website page containing the notice indicates that it was last
modified on July 7, 2004. AR at 340R. For the purposes of this
Court’s analysis, it makes no difference whether the Secretary cured
his misstatement on July 7, 2004, or July 9, 2004, leaving between
three and five days for interested parties to comment.
2

58a
existing policy in the 2003 notice of proposed rulemaking, and concluded: “It has come to our attention, however, that [our previous statement of our policy] is not
accurate.
Our policy has been that only covered
patient days are included in the Medicare fraction
(42 C.F.R § 412.106(b)(2)(i)).” AR at 340R.
Following the Secretary’s clarification notice, numerous commenters submitted comments opposing the proposed rule. See, e.g., id. at 30-31R (comments of California Healthcare Association dated July 12, 2004, which
do not mention the website notice, and restate the policy
and proposal in line with the Secretary’s inaccurate
statements in the 2003 notice of proposed rulemaking);
id. at 130R (comments of New Jersey Hospital Association dated July 12, 2004, restating the inaccurate policy
articulated by the Secretary in the 2003 notice of proposed rulemaking and objecting to the proposed rule);
id. at 152R (comments of Catholic Healthcare West
dated July 9, 2004, laying out a similar argument). The
reasons commenters provided for this opposition were
substantially the same as those submitted in the 2003
comment period regarding concerns about the administrative burden and costs of implementing the proposed
change. As support for their opposition, commenters
also cited the Secretary’s 2003 statement that the agency’s
then-existing policy was consistent with statutory intent. See, e.g., id. at 130R (comments of New Jersey
Hospital Association).
Several commenters mentioned the Secretary’s website posting in their comments. See, e.g., AR at 82R
(comments of the Federation of American Hospitals,
stating that “CMS admitted in a July 7, 2004[,] bulletin
that it had been mistaken in its assertion that Part A

59a
Exhausted/Noncovered Days were in the Medicare percentage”).
The Federation of American Hospitals
(“FAH”), which had written in opposition to the proposed rule during the first comment period, AR at 789R
(submitted July 8, 2003), wrote to discuss the Secretary’s misstatement. Id. at 81-82R. In its July 12, 2004,
comment, FAH explained that, “[w]hen drafting its comments for FY 2004, FAH took at face value CMS’s statement that, historically, Part A Exhausted/Noncovered
Days have been included in the Medicare fraction.” Id.
at 81R. “Assuming that this was true, and concerned
that, if moved to the Medicaid fraction, the burden
would be on the provider to identify these days, which
might result in a lower number of days counted, FAH
argued for a continuation of the existing policy to include these days in the Medicare percentage.” Id.
Since submitting its initial comments, however, “FAH
ha[d] been informed that at least one knowledgeable fiscal intermediary, and possibly members of CMS staff,
have indicated that further research has confirmed that
such days are, in fact, not currently (and never were) included in the Medicare percentage.” Id. at 82R. FAH
thus urged the Secretary to “continue to accept comments on this issue.” Id. at 81R. In addition, FAH
argued that dual-eligible exhausted days should be included in the Medicare fraction, but that “[i]f such days
are not counted in the Medicare fraction, then the days
must be counted in the Medicaid fraction.” Id. at 82R.
The National Association of Public Hospitals and
Health Systems (“NAPH”) submitted its comment on
July 8, 2004, stating, “we are deeply troubled by the recent web posting of a modification of these comments on
the CMS website.” Id. at 288R. The NAPH comment

60a
continued, “by posting [the notice] a few days before the
FY 2005 IPPS proposed rule comments are due, CMS
has limited the ability of the provider community to
properly analyze and comment on this policy in the context of the proposed rule.” Id. at 289R. NAPH expressed that it strongly opposed “a proposed change in
the treatment of dual eligible patients who have exhausted their Medicare coverage for the purpose of
counting patient days for the calculation of the Medicare
DSH patient percentage.” Id. at 286R.
6.

2005 Final Rule

In August 2004, the Secretary promulgated the 2005
Final Rule at issue in this case (“2005 Final Rule”). See
69 Fed. Red. 49,098 (Aug. 11, 2004). In the publication
of the 2005 Final Rule, the Secretary acknowledged for
the first time in the Federal Register that the agency
had “misstated [its] current policy with regard to the
treatment of certain inpatient days for dual-eligibles in
the proposed rule of May 19, 2003,” id. at 49,098, and
noted that “[a] notice to this effect was posted on CMS’s
Web site on July 9, 2004,” id. (internal citation omitted).
The agency clarified that, “[i]n that proposed rule, we
indicated that a dual-beneficiary is included in the Medicare fraction even after the patient’s Medicare Part A
hospital coverage is exhausted. . . . This statement
was not accurate. Our policy has been that only covered patient days are included in the Medicare fraction.”
Id.
The Secretary responded to various comments and
then adopted his final rule, the policy he had stated in
2003 as the agency’s then-existing policy and the policy
now at issue before this Court. The Secretary noted

61a
that CMS had “received numerous comments that commenters were disturbed and confused by our recent
Web site posting regarding our policy on dual-eligible
patient days,” and that many commenters “believed that
this posting was a modification or change in our current
policy” that required “formal notification by CMS” and
an “opportunity for providers to comment.” Id. The
Secretary responded that the website notice “was not a
change in our current policy” and that, because the posting “was not a new proposal or policy change,” the Secretary did not need to “utilize the rule making process
in correcting a misstatement that was made in the May
19, 2003[,] proposed rule regarding this policy.” Id.
The 2005 Final Rule “adopt[ed] a policy to include the
days associated with dual-eligible beneficiaries in the
Medicare fraction, whether or not the beneficiary has
exhausted Medicare Part A hospital coverage.” Id. at
49,099. In other words, the Secretary adopted the policy he had inaccurately described at the then-existing
policy. The amended regulation also considered patients who elect coverage under Part C of the Medicare
Act, the “Medicare Advantage” program that provides
benefits through a managed care plan, to be “entitled to
benefits under Part A” for purposes of the Medicare
fraction. See id. Ultimately, the 2005 Final Rule led
to the amendment of 42 C.F.R. § 412.106(b)(2), which removed “covered” from the language of the regulation
describing the assessment of Medicare Part A patientdays in the Medicare fraction. Prior to the amendment
of the rule, 42 C.F.R. § 412.106(b)(2) stated that the numerator of the Medicare fraction included “the number
of covered patient days . . . furnished to patients
who during that month were entitled to both Medicare

62a
Part A and SSI.”
added).
B.

See ECF No. 34 at 12 (emphasis

Compliance with APA Notice Requirements

Empire disputes the validity of the Secretary’s promulgation of the 2005 Final Rule, which did not adopt the
Secretary’s proposed rule, but instead implemented the
rule the Secretary had described inaccurately as the
agency’s then-existing policy. See ECF No. 34 at 18.
It is undisputed that the Secretary misstated the
agency’s then-existing policy in the 2003 Notice of Proposed Rulemaking and failed to correct the misstatement until approximately three days before the conclusion of the comment period preceding the promulgation
of the 2005 Final Rule. Therefore, the Court considers
whether the Secretary’s notice regarding the treatment
of Medicare Part A patient-days in the DPP provision
failed to comply with the APA’s notice requirements and
was procedurally insufficient.
The APA generally requires a federal agency engaged
in rulemaking to comply with notice-and-comment procedures. See 5 U.S.C. § 553(b). Specifically, a “notice
of proposed rulemaking” must be “published in the Federal Register” and must notify the public of “the time,
place, and nature of public rule making proceedings,”
“the legal authority under which the rule is proposed,”
and “the terms or substance of the proposed rule or a
description of the subjects and issues involved.” Id.
§ 553(b)(1)-(3). “After notice required by this section,
the agency shall give interested persons an opportunity
to participate in the rule making through submission of
written data, views, or arguments with or without opportunity for oral presentation.” Id. § 553(c). The

63a
agency must publish notice of a proposed rule more than
thirty days before its effective date. Id. § 553(d).
Certain agency rulemaking is required by statute to be
made on the record after opportunity for an agency
hearing. Id. § 553(c). “A decision made without adequate notice and comment is arbitrary or an abuse of
discretion.” NRDC v. United States EPA, 279 F.3d
1180, 1186 (9th Cir. 2002).
The object of the notice requirement is fair notice.
Long Island Care at Home, Ltd. v. Coke, 551 U.S. 158,
174 (2007). Agencies “must provide notice sufficient to
fairly apprise interested persons of the subjects and issues before the Agency.” NRDC, 279 F.3d at 1186.
Interested parties must have a meaningful opportunity
to comment on the proposed regulation the agency contemplates. See Safe Air for Everyone v. United States
EPA, 488 F.3d 1088, 1098 (2007).
Notice is generally considered adequate when interested parties reasonably could have anticipated the final
rulemaking. See NRDC, 279 F.3d at 1186. In determining whether interested parties could reasonably
have anticipated the final rule from the draft, “one of the
salient questions is ‘whether a new round of notice and
comment would provide the first opportunity for interested parties to offer comments that could persuade the
agency to modify its rule.’ ” Id. (quoting Am. Water
Works Ass’n v. EPA, 40 F.3d 1266, 1274 (D.C. Cir.
1994)). Another consideration is whether the changes
in the final rule are “a logical outgrowth of the notice
and comments received.” Rybachek v. United States
EPA, 904 F.2d 1276, 1288 (9th Cir. 1990).

64a
To determine whether the agency has complied with
the APA notice requirements, the court inquires whether “the notice fairly apprise[s] the interested persons of
the subjects and issues before the Agency.” Louis v.
U.S. Dep’t of Labor, 419 F.3d 970, 975 (9th Cir. 2005).
A Federal Register notice of proposed rulemaking must
provide basic factual information about what an agency
proposes to do. State of Cal. ex rel. Lockyer v. FERC,
329 F.3d 700, 708 (9th Cir. 2003) [hereinafter “Lockyer”]. “An interested member of the public should be
able to read the published notice of [a rulemaking] and
understand the ‘essential attributes’ of that [rulemaking]. . . . A member of the public should not have to
guess the [agency’s] ‘true intent.’ ” Id. at 707.
Empire argues that the Secretary did not provide adequate notice under the APA regarding the impact the
policy would have on Medicare Secondary Payer
patient-days by removing the word “covered” from
42 C.F.R. § 412.106(b), and that interested parties were
entitled to know that the proposed change would impact
both kinds of patient-days. See ECF No. 34 at 20.
The Secretary contends that notice was adequate because the two policies delineated in the 2003 Notice of
Proposed Rulemaking encompassed both dual-eligible
and Medicare Secondary Payer patient-days, and interested parties should have known that the proposed
change would impact both kinds of patient-days. ECF
No. 46 at 30. The Secretary argues that the legal question is only whether notice was adequate despite the
Secretary’s misstatement about the agency’s current
policy.
In support of his adequate notice argument, the Secretary argues that he received a number of comments

65a
opposing the 2003 proposed rule and supporting the policy that the Secretary inaccurately described as the
agency’s then-existing policy, and that he provided an
explanation for the rule ultimately adopted in the 2005
Final Rule. See 69 Fed. Reg. 49,098-99 (Aug. 11, 2004).
The Secretary asserts that the comments that he received indicated that interested parties understood that
a change in the policy relating to dual-eligible beneficiaries in the Medicare fraction was under consideration, and therefore that they meaningfully participated
in the notice-and-comment process. See ECF No. 46 at
30. This, the Secretary contends, is sufficient to demonstrate that the Secretary provided notice sufficient to
comply with the APA. See ECF No. 46 at 27-30.
The Court observes that Medicare is a particularly
complex regulatory system, with many interrelated rules
which may have significant impacts on both Medicare
recipients and health care providers. In many administrative regimes, like Medicare, extensive administrative costs may be associated with the implementation of
any policy change. The Court notes that many of the
commenters who opposed the proposed change expressed concern for the administrative burden and costs
that would be associated with implementing the proposed change. See supra Part II.A. Therefore, it is
possible that the same commenters who expressed opposition to the Secretary’s 2003 notice of proposed rulemaking would have expressed similar opposition to any
proposed change in the Secretary’s policy regarding
dual-eligible patient-days. For example, one commenter,
AHA, opposed the Secretary’s proposed change, stating
that “the calculation of dual-eligible days must not be
changed.” AR at 754-55R. However, when the AHA

66a
argued against a change in policy, AHA took at face
value the Secretary’s statement of the agency’s thenexisting policy, AR at 81R, leading the Court to ask:
Which policy was AHA advocating, the policy that the
Secretary actually maintained at the time or the policy
that the Secretary inaccurately stated that it maintained?
The Court finds that when the Secretary misstated
the agency’s then-existing policy and then failed to provide additional notice and time to comment after the
Secretary corrected his misstatement, the Secretary’s
misstatement undermined the validity of the notice,
making it insufficient “to provide the public with a
meaningful ‘opportunity to comment on [the proposed]
provisions.’ ” Hall v. United States iEPA, 273 F.3d
1146, 1162 (9th Cir. 2001). The Court finds that interested parties could not have understood the essential attributes of the proposed rule when the Secretary and the
agency misunderstood and misstated them. See Lockyer, 329 F.3d at 707; see also NRDC, 279 F.3d at 1186
(stating that one of the key considerations is “whether a
new round of notice and comment would provide the
first opportunity for interested parties to offer comments that could persuade the agency to modify its
rule”). In addition, it is undisputed that the Secretary
did not provide a 30-day period to receive comments, as
required by 5 U.S.C. § 553(b), after the Secretary corrected his prior misstatement.
In this case, the Court finds that a new round of notice and comment would have provided the first meaningful opportunity for interested parties to offer comments. In order to preserve the democratic process we

67a
value so highly, it is important to allow people to understand the actual issues being considered. When the
Secretary misstated the then-existing policy, potential
commenters could have been lulled into thinking that
they did not have to comment. If the Secretary had
made an accurate statement of the then-existing policy,
certain commenters who did not file comments may have
had the impetus to file a comment in order to affect the
Secretary’s promulgation of the rule. In fact, during
the 2003 comment period, at least two commenters
noted that they were confused by the Secretary’s prior
misstatement, see infra Part II.A.2. After the Secretary issued the notice correcting the policy statement in
2004, at least one commenter expressly stated that it had
relied upon the Secretary’s statement of the agency’s policy when drafting its initial comments. See infra Part
II.A.5. Additionally, after the Secretary published the
notice regarding the misstatement of the agency’s policy, the commenter, Federation of American Hospitals
(“FAH”), urged the Secretary to continue to accept comments on this issue. Id.
Another aspect of adequate notice courts consider is
whether the final rule is a logical outgrowth of the proposed rule. See Rybachek, 904 F.2d at 1288. In the
case of Long Island Care at Home v. Coke, the Supreme
Court considered a proposed rule subjecting certain individuals to wage and hour rules. Id., 551 U.S. 158
(2007). “The clear implication of the proposed rule was
that companionship workers employed by third-party
enterprises that were not covered by the [Fair Labor
Standards Act (‘Act’)] prior to the 1974 Amendments
. . . would be included within the [new rule].” Id. at

68a
174-75 (emphasis in original). The agency then withdrew the proposal and promulgated its final rule. “The
result was a determination that exempted all thirdparty-employed companionship workers from the Act.”
Id. at 175. Concluding that the final rule was a logical
outgrowth of the proposed rule, the Supreme Court
stated, “We do not understand why such a possibility
was not reasonably foreseeable.” Id. Likewise, the
Secretary argues that the agency’s proposed rule created a reasonably foreseeable outcome. ECF No. 46 at
30. However, in Long Island Care, the interested parties could reasonably foresee the final rule because the
agency accurately stated its then-existing policy and
proposal. See Long Island Care at Home, 551 U.S. at
174-75. In this case, interested parties could not reasonably foresee the final rule because of the Secretary’s
misstatement about the agency’s then-existing policy.
Despite the Secretary’s failure to accurately state the
agency’s then-existing policy or to provide additional
time for notice and comment after correcting his misstatement, the Secretary argues that the 2003 Notice of
Proposed Rulemaking put interested parties on notice
that either of the two options mentioned might be
adopted. See ECF No. 48 at 15; see also Stringfellow
Memorial Hosp. v. Azar, Civil Action No. 17-309 (D.D.C.
June 29, 2018) (stating that the “2004 Proposed Rule
thus put parties on notice that either of these two options might be adopted”). The Secretary argues that
the 2005 Final Rule is a logical outgrowth of the 2003
and 2004 Notices of Proposed Rulemaking because the
Secretary decided not to adopt the proposed change
and, instead, adopted its stated policy. ECF No. 46 at

69a
27-29. Citing an out-of-circuit case, the Secretary argues that “[a]n agency’s ‘refusal to adopt its proposed’
rule is always a logical outgrowth of the proposal.” Id.
at 28 (quoting Envt’l Integrity Proj. v. EPA, 425 F.3d
992, 997 (D.C. Cir. 2005)).
The Court finds the Secretary’s argument illogical in
this case, where the Secretary misstated the agency’s
then-existing policy and failed to remedy its misstatement until approximately three days before the close of
the 2004 comment period. The argument that an agency’s refusal to adopt a proposed rule is a logical outgrowth of the proposal might be true when the agency’s
statement of its then-existing policy and its proposal are
both accurate. Here, however, where the Secretary
misstated the agency’s then-existing policy, the Court
finds that the Secretary’s refusal to adopt the agency’s
proposed rule cannot be presumed to be a logical outgrowth of the proposal, because the inaccuracy of the
policy statement necessarily distorts the context of the
proposed rule. Without an accurate context in which to
view the Secretary’s proposed rule, interested persons
cannot know what to expect and have no basis on which
to make their comments.
The Court concludes that where interested parties
did not have accurate notice of the then-existing policy
and the potential change that the rule would effect, the
interested parties are deprived of a meaningful opportunity to comment. The Court also concludes that interested parties could not have reasonably anticipated
the Secretary’s final rulemaking where the Secretary’s
notice of proposed rulemaking contained a misstatement of then-existing agency policy. See NRDC, Inc.
v. United States EPA, 863 F.2d 1420, 1429 (9th Cir.

70a
1988). The Court finds that a new round of notice and
comment would provide the first opportunity for interested parties to offer meaningful comments in this case.
See NRDC, 279 F.3d at 1186. Therefore, the Court
finds that the 2005 Final Rule is not a logical outgrowth
of the 2003 Notice of Proposed Rulemaking, and that the
Secretary’s notice was inadequate to satisfy the procedural rulemaking requirements of the APA.
C.

Harmless Error Rule

Because the Court has found that the Secretary’s notice was inadequate and that the 2005 Final Rule was not
a logical outgrowth of the proposed rule, the Court is
obligated to take “due account . . . of the rule of
prejudicial error.” 5 U.S.C. § 706(2); see also Rybachek, 904 F.2d at 1295. “To avoid gutting the APA’s
procedural requirements, harmless error analysis in administrative rulemaking must therefore focus on the
process as well as the result.” Riverbend Farms, Inc.
v. Madigan, 958 F.2d 1479, 1487 (9th Cir. 1992).
The Ninth Circuit has held that “the failure to provide notice and comment is harmless only where the
agency’s mistake ‘clearly had no bearing on the procedure used or the substance of the decision reached.’ ”
Id. (quoting Sagebrush Rebellion, Inc. v. Hodel, 790
F.2d 760, 764-65 (9th Cir. 1986)). Otherwise, a failure
to comply with APA requirements is harmful and prejudicial and in violation of the APA. See 5 U.S.C. § 706(2).
The Ninth Circuit quoted the United States Supreme
Court’s approach to harmless error, in which the party
“seeking to reverse the result of a civil proceeding will
likely be in a position . . . to explain how he has been
hurt by an error.” See Cal. Wilderness Coalition v.
United States DOE, 631 F.3d 1072, 1091 (9th Cir. 2011)

71a
(quoting Shinseki v. Sanders, 129 S. Ct. 1696, 1706
(2009)). The Ninth Circuit concluded that the Supreme
Court’s approach is consistent with the Ninth Circuit’s
harmless error standard. Id. at 1091-92.
The Ninth Circuit has found agency error harmless
in several cases. An error was harmless when an agency
failed to comply with APA notice-and-comment requirements but held hearings in compliance with another federal statute. See Sagebrush Rebellion, Inc., 790 F.2d
at 763. When an agency erred in applying the good
cause exception to the APA’s notice-and-comment requirements, the court found harmless error because all
the parties knew the ground rules and process, which
has been in place for a decade. See Riverbend Farms,
Inc., 958 F.2d at 1485. Finally, the court found harmless error when an agency published a final determination early because it had complied substantially with all
of the other APA requirements and there was no prejudice as a result of the error. County of Del Norte v.
United States, 732 F.2d 1462 (9th Cir. 1984).
However, this case presents a different set of facts.
The Court finds that the Secretary’s late announcement
of its misstatement on the CMS website, without providing publication in the Federal Register or any additional
opportunity for public comment, undermined the substance of the decision reached because the Secretary did
not have the benefit of useful comments by interested
parties. See Riverbend Farms, Inc., 958 F.2d at 1487.
Furthermore, direct injury occurred. The Hospital
was injured because of lack of reimbursement, see ECF
No. 1, and the lack of reimbursement is because of the
2005 Final Rule that was promulgated without sufficient
notice.

72a
Therefore, the Court concludes that the Secretary’s
misstatement undermined the notice requirement under
the APA to the extent that the Secretary provided inadequate, inaccurate notice in the 2003 and 2004 notices of
proposed rulemaking and insufficient opportunity for
meaningful comment after the Secretary corrected his
misstatement. The Court finds that the Secretary’s error was not harmless.
In conclusion the Court finds that although 42 C.F.R.
§ 412.106(b)(2) is substantively valid, it is procedurally
invalid under the APA because the Secretary’s notice
and comment opportunity was inadequate and that the
2005 Final Rule was not a logical outgrowth of the proposed rule. The Court grants summary judgment in
favor of Empire, and vacates the amendment of 42
C.F.R. § 412.106(b)(2) in the 2005 Final Rule. The
Court enjoins the Secretary from applying to the Plaintiff Hospital for the 2008 fiscal year the 2005 Final Rule
policy that unpaid Medicare Part A days are patientdays “entitled to benefits under [Medicare] part A” for
the purposes of assessing the Medicare fraction of the
DPP. The Court directs the Secretary to calculate the
Plaintiff Hospital’s DSH payment consistent with this
Order and to make prompt payment of any additional
amounts due to the Plaintiff Hospital plus interest calculated in accordance with 42 U.S.C. §1395oo(f )(2).
III. Empire’s Challenge to the Secretary’s Assessment of SSI Entitlement

Empire argues that the Secretary’s “decision to include in the DSH calculation only those limited [SSI]
beneficiaries receiving a cash SSI payment runs counter
to the plain language of the DSH statute and Congress’s
intent to have Medicare-entitled SSI enrollees serve as

73a
a proxy for low-income patients.” ECF No. 34 at 30.
Therefore, Empire argues, the Secretary’s policy of using Social Security Administration payment codes to determine SSI benefit recipients is contrary to the DSH
statute and regulation and “actually provides a less reliable index of the poverty of the population served by a
given hospital.” Id. at 31 (emphasis in original). Empire argues that the Secretary’s SSI policy is due no
Chevron deference, and that the Secretary’s “interpretation to exclude unpaid SSI days from the DSH calculation is invalid under 5 U.S.C. § 706(2). Id. at 31-32.
The Secretary contends that the Board did not grant
the Court jurisdiction to review the Secretary’s policy
regarding the methodology for identifying patients “entitled to SSI benefits.” ECF No. 46 at 32-33. The
Secretary argues that the Board’s grant of expedited
judicial review is narrow and limited in its scope to
“the legal question” of “whether . . . 42 C.F.R.
§ 412.106(b)(2) is valid.” Id. at 32.
The Medicare fraction in 42 C.F.R. § 412.106(b)(2) refers to SSI entitlement, and, therefore, the Secretary’s
interpretation of the phrase “entitled to [SSI] benefits”
in 42 U.S.C. § 1395ww(d)(5)(F )(vi) arguably falls within
the scope of this Court’s expedited judicial review.
However, the Court finds that Empire challenges the
Secretary’s policy regarding the determination of which
individuals are entitled to SSI benefits, which is not
adopted as a substantive rule and which does not relate
to the specific legal question of the validity of 42 C.F.R.
§ 412.106(b). Instead, Empire asks this Court to determine whether the Secretary’s policy regarding the determination of which individuals are entitled to SSI benefits is valid, which is not within the scope of the Board’s

74a
grant for expedited judicial review. Empire’s attempts
to frame the SSI entitlement issue in terms of the DPP
provision fail. Accordingly, the Secretary’s policy regarding the assessment of SSI entitlement falls outside
the scope of the Court’s jurisdiction in this matter and
will not be addressed by the Court.
IV. Empire’s Medicare Part C Challenge

Empire also challenges the validity of the inclusion of
Part C coverage days in the Hospital’s 2008 fiscal year
DSH calculation. ECF No. 1 at 11. Both the Hospital
and the Secretary have agreed that this Court should
remand the Part C issue back to the Board. Accordingly, the Court remands the determination of the validity of the inclusion of Part C coverage days in the Hospital’s 2008 fiscal year DSH calculation to the Provider
Reimbursement Review Board.
Accordingly, IT IS HEREBY ORDERED:
1.

Plaintiff ’s Motion for Summary Judgment, ECF
No. 34, is GRANTED IN PART as to Empire’s
procedural claims and DENIED IN PART as to
Empire’s substantive claims, SSI-entitlement
assessment claim, and Medicare Part C claim.

2.

Defendant’s Cross-Motion for Summary Judgment, ECF No. 46, is DENIED.

3.

Plaintiff ’s challenge to the validity of the assessment of Medicare Part C days is remanded to the
Provider Reimbursement Review Board.

4.

The Court directs the Secretary to calculate the
Plaintiff Hospital’s DSH payment for the 2008
fiscal year consistent with this Order and to
make prompt payment of any additional amounts

75a
due to the Plaintiff Hospital plus interest calculated in accordance with 42 U.S.C. §1395oo(f )(2).
5.

For the purposes of assessing the Medicare fraction of the disproportionate patient percentage
for the Plaintiff Hospital, the Court enjoins the
Secretary from applying the policy adopted in
the 2005 Final Rule that unpaid Medicare Part
A days are “days entitled to benefits under
[Medicare] part A.”

6.

Judgment shall entered for Plaintiff.

7.

The Parties shall each bear their own costs.

The District Court Clerk is directed to enter this Order, enter judgment accordingly, provide copies to counsel, and close this case.
DATED Aug. 13, 2018.

/s/

ROSANNA MALOUF PETERSON
ROSANNA MALOUF PETERSON
United States District Judge

76a
APPENDIX C
DEPARTMENT OF HEALTH AND HUMAN SERVICES
PROVIDER REMIMBURSEMENT REVIEW BOARD

2520 Lord Baltimore Drive, Suite L
Baltimore MD 21244-2671
PHONE: 410-786-2671
FAX: 410-786-5298
Internet:

Refer to:

www.cms.gov/PRRBReview

15-3126GC

[APR 08 2016]

Certified Mail
Delbert Nord
Quality Reimbursement Services, Inc.
112 N. University Road
Suite 308
Spokane Valley, WA 99206
RE: QRS Empire Health 2008 SSI Percentage
Provider Nos. Various
FYE 9/30/2008
PRRB Case No. 15-3126GC
Dear Mr. Nord:
The Provider Reimbursement Review Board (Board)
has reviewed the Providers’ February 8, 2015 request
for expedited judicial review (EJR) (received February
12, 2016) and the Providers’ March 16, 2016 response to
the Board’s request for additional information (received
March 18, 2016). The Board’s determination with respect to the EJR request is set forth below.

Exhibit “A”

77a
Background

The issue presented in the Providers’ original hearing
request for the group appeal is:
Whether the Secretary properly calculated the Provider’s Disproportionate Share Hospital (“DSH”)/
Supplemental Security Income (‘‘SSI”) percentage. 1
The Providers’ EJR request states that they are challenging the validity of CMS’ regulation, 42 C.F.R.
§ 412.106(b)(2), specifically the application of “entitled”
to in the denominator of the SSI fraction for DSH purposes. The Providers explain that effective October 1,
2004, CMS amended section 412.106 to change the previous regulation from “Determines the number of covered patient days” to “Determines the number of patient
days.” 2, 3
As a result of this change, the Secretary considers an
individual to be “entitled to benefits under part A” (e.g.,
exhausted days, Part C days, Medicare secondary payor
days). Regardless of whether the days were covered
or paid by Medicare, they will be included in the denominator of the SSI fraction. This change only affected
the denominator of the fraction. The Providers note
that, for purposes of the numerator of the DSH fraction,
the Secretary requires that a beneficiary be paid SSI

Providers’ July 31, 2015 Hearing Request; Tab2 (received August 3, 2015).
2
Providers’ EJR request at 1.
3
The proposed change to the regulation was published in the August 11, 2004 Federal Register (69 Fed. Reg. 48,916, 49,098), but the
regulation itself was not changed until the publication of the August
22, 2007 Federal Register (72 Fed. Reg. 47,140, 47,383).
1

78a
benefits during the period of his or her hospital stay in
order for such days to be included in the numerator. 4
The Providers point out that the Secretary includes covered; non-covered, exhausted benefit, Medicare secondary payor, and Medicare Part C days in the numerator
of the SSI fraction calculations, but only if the individual
has received SS1 cash payments. 5 The Secretary does
not include days in the numerator when individuals were
eligible for SSI but were not due payment.
In addition, the Providers note that the Secretary uses
only three Social Security Administration payment status codes, CO1, MO1, and MO2, to identify SSI entitled
individuals. 6 Further, the Secretary is aware of other
payment codes, as identified in the August 16, 2010 Federal Register, that could be used to determine the numerator of the SSI fraction. 7
The Providers also included the language from the statute, 42 U.S.C. § 1395ww(d)(5)(F)(vi) regarding entitled
days and the language from the pre-2004 version of 42
C.F.R. § 412.106 that uses the covered language, as contrasted with the 2004 change.
(vi) In this subparagraph, the term “disproportionate patient percentage” means, with respect to
a cost reporting period of a hospital, the sum
of—

4
5
6
7

See 75 Fed. Reg. 50,042, 50,280 (Aug. 16, 2010).
Id. at 50,280-81.
Id. at 50,281.
Id. at 50,280-81.

79a
(I)

the fraction (expressed as a percentage), the numerator of which is the number of such hospital’s patient days for such period which were
made up of patients who (for such days) were
entitled to benefits under part A of this subchapter and were entitled to supplementary security income benefits (excluding any State
supplementation) under subchapter XVI of this
chapter, and the denominator of which is the
number of such hospital’s patient days for such
fiscal year which were made up of patients
who (for such days) were entitled to benefits under part A of this subchapter, and

(II) the fraction (expressed as a percentage), the numerator of which is the number of the hospital’s
patient days for such period which consist of patients who (for such days) were eligible for medical assistance under a State plan approved under subchapter XIX of this chapter, but who
were not entitled to benefits under part A of
this subchapter, and the denominator of which
is the total number of the hospital’s patient days
for such period.
The 2003 regulation [prior to the actual change in language in 2008] states:
(b)

Determination of a hospital’s disproportionate
patient percentage—

(1)

General rule. A hospital’s disproportionate
patient percentage is determined by adding the
results of two computations and expressing that
sum as a percentage.

80a
(2)

First computation: Federal fiscal year. For
each month of the Federal fiscal year in which
the hospital’s cost reporting period begins,
CMS—
(i)

Determines the number of covered patient
days that—
(A) Are associated with discharges occurring during each month; and
(B) Are furnished to patients who during
that month were entitled to both
Medicare Part A and SSI, excluding
those patients who received only State
supplementation;

(ii) Adds the results for the whole period; and
(ii) Divides the number determined under paragraph (b)(2)(ii) of this section by the total
number of patient days that—
(A) Are associated with discharges that
occur during that period; and
(B) Are furnished to patients entitled to
Medicare Part A.
The change to the regulation which first appeared in the
2008 regulations omits the word “covered” and now
states that
(b)

Determination of a hospital’s disproportionate
patient percentage—

(1)

General rule. A hospital’s disproportionate
patient percentage is determined by adding the
results of two computations and expressing that
sum as a percentage.

81a
(2)

First computation: Federal fiscal year. For
each month of the Federal fiscal year in which
the hospital’s cost reporting period begins,
CMS—
(i)

Determines the number of [
days that—

] patient

(A) Are associated with discharges occurring during each month; and
(B) Are furnished to patients who during
that month were entitled to both
Medicare Part A (or Medicare Advantage (Part C)) and SSI, excluding
those patients who received only State
supplementation;
(ii)

Adds the results for the whole period; and

(iii) Divides the number determined under
paragraph (b)(2)(ii) of this section by the
total number of patient days that—
(A) Are associated with discharges that
occur during that period; and
(B) Are furnished to patients entitled to
Medicare Part A (or Medicare Advantage (Part C)).
Decision of the Board

Deaconess Medical Center
Deaconess Medical Center (Deaconess) (provider number 50-0044) is one of two participants in this group appeal. Deaconess filed an individual appeal of the crossover bad debts issue, which was assigned case number
13-0041. Subsequently, the issue under appeal in this

82a
case, DSH SSI percentage/systemic errors issue, was
added to the individual appeal and transferred to the
current case. Through a jurisdictional determination
issued February 23, 2016, the Board concluded that it
lacked jurisdiction over the original issue appealed in
case number 13-0041, crossover bad debts. Since there
was not a jurisdictionally valid appeal to which the DSH
SSI percentage issue could be timely added and transferred, those requests were denied. As a result of this
February 23, 2016 action, Deaconess Medical Center is
no longer a participant in case number 15-3126GC its request for EJR is denied.
Valley Hospital Medical Center
With respect to jurisdiction, the Board finds that the
Provider timely filed its request for hearing and the
amount in controversy the $10,000 threshold for an individual appeal. 8 Consequently, the Board concludes
that it has jurisdiction over the appeal for Valley Hospital Medical Center under the provisions of 42 C.F.R.
§ 405.1840(a).
Upon finding jurisdiction for the specific matter at issue, the regulation at 42 C.F.R. § 405.1842(b)(1) requires that the Board determine whether it lacks the authority to decide the legal question. Here, the Board
finds that it lacks the authority to decide the whether
the regulation, 42 C.F.R. § 412.106(b)(2) (2008) is valid;
therefore, EJR is appropriate for the issue under dispute in this case.
The Board finds that:

8

See 42 C.F.R. § 405.1835(a) (2005).

83a
1)

it has jurisdiction over the matter for the subject year and Valley Hospital Medical Center is
entitled to a hearing before the Board;

2)

based upon the Provider’s assertions regarding
the application of 42 C.F.R. § 412.106(b)(2),
there are no findings of fact for resolution by
the Board; and

3)

it is bound by the applicable existing Medicare
law and regulation (42 C.F.R. § 405.1867).

Accordingly, the Board finds that the application of 42
C.F.R. § 412.106(b)(2) properly falls within the provisions of 42 U.S.C. § 1395oo(f )(l) and hereby grants expedited judicial review for the issue and the subject
year. The Provider has 60 days from the receipt of this
decision to institute the appropriate action for judicial
review. Since this is the only issue under appeal in this
case, the Board hereby closes the case.
Board Members Participating
Michael W. Harty
Clayton J. Nix, Esq.
L. Sue Anderson, Esq.
Charlotte F. Benson, CPA
Jack Ahern, MBA

FOR THE BOARD
/s/ MICHAEL W. HARTY
MICHAEL W. HARTY
Chairman

Enclosure:

42 U.S.C. § 1395oo(f )(1)

cc: Byron Lamprecht, WPS
Wilson Leong, FSS

84a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Nos. 18-35845, 18-35872
D.C. No. 2:16-cv-00209-RMP
EASTERN DISTRICT OF WASHINGTON , SPOKANE
EMPIRE HEALTH FOUNDATION, FOR VALLEY
HOSPITAL MEDICAL CENTER, PLAINTIFF-APPELLEE
v.
ALEX M. AZAR II, SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
DEFENDANT-APPELLANT
[Filed:

Oct. 20, 2020]
ORDER

Before: M. SMITH and N.R. SMITH, Circuit Judges,
and TUNHEIM,* District Judge.
Judge M. Smith voted to deny the petition for rehearing en banc, and Judges N.R. Smith and Tunheim so recommended. The full court has been advised of the petition for rehearing en banc and no judge has requested

The Honorable John R. Tunheim, United States Chief District
Judge for the District of Minnesota, sitting by designation.
*

85a
a vote on whether to rehear the matter en banc.
R. App. P. 35.
The petition for rehearing en banc is DENIED.

Fed.

86a
APPENDIX E

1.

42 U.S.C. 426(a)-(c) provides:

Entitlement to hospital insurance benefits
(a)

Individuals over 65 years

Every individual who—
(1)

has attained age 65, and

(2)(A) is entitled to monthly insurance benefits
under section 402 of this title, would be entitled to
those benefits except that he has not filed an application therefor (or application has not been made for a
benefit the entitlement to which for any individual is
a condition of entitlement therefor), or would be entitled to such benefits but for the failure of another
individual, who meets all the criteria of entitlement
to monthly insurance benefits, to meet such criteria
throughout a month, and, in conformity with regulations of the Secretary, files an application for hospital
insurance benefits under part A of subchapter XVIII,
or

(B) is a qualified railroad retirement beneficiary,

(C)(i) would meet the requirements of subparagraph (A) upon filing application for the monthly insurance benefits involved if medicare qualified government employment (as defined in section 410(p) of
this title) were treated as employment (as defined in
section 410(a) of this title) for purposes of this subchapter, and (ii) files an application, in conformity
with regulations of the Secretary, for hospital insurance benefits under part A of subchapter XVIII,

87a
shall be entitled to hospital insurance benefits under
part A of subchapter XVIII for each month for which he
meets the condition specified in paragraph (2), beginning with the first month after June 1966 for which he
meets the conditions specified in paragraphs (1) and (2).
(b)

Individuals under 65 years

Every individual who—
(1)

has not attained age 65, and

(2)(A) is entitled to, and has for 24 calendar
months been entitled to, (i) disability insurance benefits under section 423 of this title or (ii) child’s insurance benefits under section 402(d) of this title by reason of a disability (as defined in section 423(d) of this
title) or (iii) widow’s insurance benefits under section
402(e) of this title or widower’s insurance benefits under section 402(f) of this title by reason of a disability
(as defined in section 423(d) of this title), or
(B) is, and has been for not less than 24 months,
a disabled qualified railroad retirement beneficiary,
within the meaning of section 231f(d) of title 45, or
(C)(i) has filed an application, in conformity with
regulations of the Secretary, for hospital insurance
benefits under part A of subchapter XVIII pursuant
to this subparagraph, and
(ii) would meet the requirements of subparagraph (A) (as determined under the disability criteria, including reviews, applied under this subchapter), including the requirement that he has been entitled to the specified benefits for 24 months, if—

88a
(I) medicare qualified government employment (as defined in section 410(p) of this title)
were treated as employment (as defined in section
410(a) of this title) for purposes of this subchapter,
and
(II) the filing of the application under clause
(i) of this subparagraph were deemed to be the filing of an application for the disability-related benefits referred to in clause (i), (ii), or (iii) of subparagraph (A),
shall be entitled to hospital insurance benefits under
part A of subchapter XVIII for each month beginning
with the later of (I) July 1973 or (II) the twenty-fifth
month of his entitlement or status as a qualified railroad
retirement beneficiary described in paragraph (2), and
ending (subject to the last sentence of this subsection)
with the month following the month in which notice of
termination of such entitlement to benefits or status as
a qualified railroad retirement beneficiary described in
paragraph (2) is mailed to him, or if earlier, with the
month before the month in which he attains age 65. In
applying the previous sentence in the case of an individual described in paragraph (2)(C), the “twenty-fifth
month of his entitlement” refers to the first month after
the twenty-fourth month of entitlement to specified benefits referred to in paragraph (2)(C) and “notice of termination of such entitlement” refers to a notice that the
individual would no longer be determined to be entitled
to such specified benefits under the conditions described
in that paragraph. For purposes of this subsection, an
individual who has had a period of trial work which
ended as provided in section 422(c)(4)(A) of this title,

89a
and whose entitlement to benefits or status as a qualified railroad retirement beneficiary as described in paragraph (2) has subsequently terminated, shall be deemed
to be entitled to such benefits or to occupy such status
(notwithstanding the termination of such entitlement or
status) for the period of consecutive months throughout
all of which the physical or mental impairment, on which
such entitlement or status was based, continues, and
throughout all of which such individual would have been
entitled to monthly insurance benefits under this subchapter or as a qualified railroad retirement beneficiary
had such individual been unable to engage in substantial
gainful activity, but not in excess of 78 such months. In
determining when an individual’s entitlement or status
terminates for purposes of the preceding sentence, the
term “36 months” in the second sentence of section
423(a)(1) of this title, in section 402(d)(1)(G)(i) of this title, in the last sentence of section 402(e)(1) of this title,
and in the last sentence of section 402(f)(1) of this title
shall be applied as though it read “15 months”.
(c)

Conditions

For purposes of subsection (a)—
(1) entitlement of an individual to hospital insurance benefits for a month shall consist of entitlement
to have payment made under, and subject to the limitations in, part A of subchapter XVIII on his behalf
for inpatient hospital services, post-hospital extended
care services, and home health services (as such
terms are defined in part E of subchapter XVIII) furnished him in the United States (or outside the United
States in the case of inpatient hospital services furnished under the conditions described in section
1395f(f ) of this title) during such month; except that

90a
(A) no such payment may be made for post-hospital
extended care services furnished before January
1967, and (B) no such payment may be made for posthospital extended care services unless the discharge
from the hospital required to qualify such services for
payment under part A of subchapter XVIII occurred
(i) after June 30, 1966, or on or after the first day of
the month in which he attains age 65, whichever is
later, or (ii) if he was entitled to hospital insurance
benefits pursuant to subsection (b), at a time when he
was so entitled; and
(2) an individual shall be deemed entitled to
monthly insurance benefits under section 402 or section 423 of this title, or to be a qualified railroad retirement beneficiary, for the month in which he died
if he would have been entitled to such benefits, or
would have been a qualified railroad retirement beneficiary, for such month had he died in the next
month.
2.

42 U.S.C. 1395ww(d)(5)(F) provides:

Payments to hospitals for inpatient hospital services
(d)

Inpatient hospital service payments on basis of prospective rates; Medicare Geographical Classification Review Board

(5)(F)(i) Subject to subsection (r), for discharges occurring on or after May 1, 1986, the Secretary shall provide, in accordance with this subparagraph, for an additional payment amount for each subsection (d) hospital
which—

91a
(I) serves a significantly disproportionate number of low-income patients (as defined in clause (v)),
or
(II) is located in an urban area, has 100 or more
beds, and can demonstrate that its net inpatient care
revenues (excluding any of such revenues attributable to this subchapter or State plans approved under
subchapter XIX of his chapter), during the cost reporting period in which the discharges occur, for indigent care from State and local government sources
exceed 30 percent of its total of such net inpatient
care revenues during the period.
(ii) Subject to clause (ix), the amount of such payment for each discharge shall be determined by multiplying (I) the sum of the amount determined under paragraph (1)(A)(ii)(II) (or, if applicable, the amount determined under paragraph (1)(A)(iii)) and, for cases qualifying for additional payment under subparagraph (A)(i),
the amount paid to the hospital under subparagraph (A)
for that discharge, by (II) the disproportionate share adjustment percentage established under clause (iii) or (iv)
for the cost reporting period in which the discharge occurs.
(iii) The disproportionate share adjustment percentage for a cost reporting period for a hospital described in clause (i)(II) is equal to 35 percent.
(iv) The disproportionate share adjustment percentage for a cost reporting period for a hospital that is
not described in clause (i)(II) and that—
(I) is located in an urban area and has 100 or
more beds or is described in the second sentence of

92a
clause (v), is equal to the percent determined in accordance with the applicable formula described in
clause (vii);
(II) is located in an urban area and has less than
100 beds, is equal to 5 percent or, subject to clause
(xiv) and for discharges occurring on or after April 1,
2001, is equal to the percent determined in accordance with clause (xiii);
(III) is located in a rural area and is not described
in subclause (IV) or (V) or in the second sentence of
clause (v), is equal to 4 percent or, subject to clause
(xiv) and for discharges occurring on or after April 1,
2001, is equal to the percent determined in accordance with clause (xii);
(IV) is located in a rural area, is classified as a
rural referral center under subparagraph (C), and is
classified as a sole community hospital under subparagraph (D), is equal to 10 percent or, if greater, the
percent determined in accordance with the applicable
formula described in clause (viii) or, subject to clause
(xiv) and for discharges occurring on or after April 1,
2001, the greater of the percentages determined under clause (x) or (xi);
(V) is located in a rural area, is classified as a
rural referral center under subparagraph (C), and is
not classified as a sole community hospital under subparagraph (D), is equal to the percent determined in
accordance with the applicable formula described in
clause (viii) or, subject to clause (xiv) and for discharges occurring on or after April 1, 2001, is equal
to the percent determined in accordance with clause
(xi); or

93a
(VI) is located in a rural area, is classified as a
sole community hospital under subparagraph (D),
and is not classified as a rural referral center under
subparagraph (C), is 10 percent or, subject to clause
(xiv) and for discharges occurring on or after April 1,
2001, is equal to the percent determined in accordance with clause (x).
(v) In this subparagraph, a hospital “serves a significantly disproportionate number of low income patients”
for a cost reporting period if the hospital has a disproportionate patient percentage (as defined in clause (vi))
for that period which equals, or exceeds—
(I)
15 percent, if the hospital is located in an urban area and has 100 or more beds,
(II) 30 percent (or 15 percent, for discharges occurring on or after April 1, 2001), if the hospital is
located in a rural area and has more than 100 beds,
or is located in a rural area and is classified as a sole
community hospital under subparagraph (D),
(III) 40 percent (or 15 percent, for discharges occurring on or after April 1, 2001), if the hospital is
located in an urban area and has less than 100 beds,
or
(IV) 45 percent (or 15 percent, for discharges occurring on or after April 1, 2001), if the hospital is
located in a rural area and is not described in subclause (II).
A hospital located in a rural area and with 500 or more
beds also “serves a significantly disproportionate number of low income patients” for a cost reporting period if
the hospital has a disproportionate patient percentage

94a
(as defined in clause (vi)) for that period which equals or
exceeds a percentage specified by the Secretary.
(vi) In this subparagraph, the term “disproportionate patient percentage” means, with respect to a cost reporting period of a hospital, the sum of—
(I)
the fraction (expressed as a percentage), the
numerator of which is the number of such hospital’s
patient days for such period which were made up of
patients who (for such days) were entitled to benefits
under part A of this subchapter and were entitled to
supplementary security income benefits (excluding
any State supplementation) under subchapter XVI of
this chapter, and the denominator of which is the
number of such hospital’s patient days for such fiscal
year which were made up of patients who (for such
days) were entitled to benefits under part A of this
subchapter, and
(II) the fraction (expressed as a percentage), the
numerator of which is the number of the hospital’s
patient days for such period which consist of patients
who (for such days) were eligible for medical assistance under a State plan approved under subchapter
XIX, but who were not entitled to benefits under part
A of this subchapter, and the denominator of which is
the total number of the hospital’s patient days for
such period.
In determining under subclause (II) the number of the
hospital’s patient days for such period which consist of
patients who (for such days) were eligible for medical
assistance under a State plan approved under subchapter XIX of this chapter, the Secretary may, to the extent

95a
and for the period the Secretary determines appropriate, include patient days of patients not so eligible but
who are regarded as such because they receive benefits
under a demonstration project approved under subchapter XI.
(vii) The formula used to determine the disproportionate share adjustment percentage for a cost reporting period for a hospital described in clause (iv)(I) is—
(I)
in the case of such a hospital with a disproportionate patient percentage (as defined in clause
(vi)) greater than 20.2—
(a) for discharges occurring on or after April
1, 1990, and on or before December 31, 1990,
(P−20.2)(.65) + 5.62,
(b) for discharges occurring on or after January 1, 1991, and on or before September 30, 1993,
(P−20.2)(.7) + 5.62,
(c) for discharges occurring on or after October 1, 1993, and on or before September 30, 1994,
(P−20.2)(.8) + 5.88, and
(d) for discharges occurring on or after October 1, 1994, (P−20.2)(.825) + 5.88; or
(II)

in the case of any other such hospital—

(a) for discharges occurring on or after April
1, 1990, and on or before December 31, 1990,
(P−15)(.6) + 2.5,

96a
(b) for discharges occurring on or after January 1, 1991, and on or before September 30, 1993,
(P−15)(.6) + 2.5,7
(c) for discharges occurring on or after October 1, 1993, (P−15)(.65) + 2.5,
where “P” is the hospital’s disproportionate patient percentage (as defined in clause (vi)).
(viii) Subject to clause (xiv), the formula used to determine the disproportionate share adjustment percentage for a cost reporting period for a hospital described
in clause (iv)(IV) or (iv)(V) is the percentage determined
in accordance with the following formula: (P−30)(.6) +
4.0, where “P” is the hospital’s disproportionate patient
percentage (as defined in clause (vi)).
(ix)

In the case of discharges occurring—

(I)
during fiscal year 1998, the additional payment amount otherwise determined under clause (ii)
shall be reduced by 1 percent;
(II) during fiscal year 1999, such additional payment amount shall be reduced by 2 percent;
(III) during fiscal years 2000 and 2001, such additional payment amount shall be reduced by 3 percent and 2 percent, respectively;
(IV) during fiscal year 2002, such additional payment amount shall be reduced by 3 percent; and
(V) during fiscal year 2003 and each subsequent
fiscal year, such additional payment amount shall be
reduced by 0 percent.
7

So in original.

Probably should be followed by “and”.

97a
(x) Subject to clause (xiv), for purposes of clause
(iv)(VI) (relating to sole community hospitals), in the
case of a hospital for a cost reporting period with a disproportionate patient percentage (as defined in clause
(vi)) that—
(I)
is less than 19.3, the disproportionate share
adjustment percentage is determined in accordance
with the following formula: (P−15)(.65) + 2.5;
(II) is equal to or exceeds 19.3, but is less than
30.0, such adjustment percentage is equal to 5.25 percent; or
(III) is equal to or exceeds 30, such adjustment
percentage is equal to 10 percent,
where “P” is the hospital’s disproportionate patient percentage (as defined in clause (vi)).
(xi) Subject to clause (xiv), for purposes of clause
(iv)(V) (relating to rural referral centers), in the case of
a hospital for a cost reporting period with a disproportionate patient percentage (as defined in clause (vi))
that—
(I)
is less than 19.3, the disproportionate share
adjustment percentage is determined in accordance
with the following formula: (P−15)(.65) + 2.5;
(II) is equal to or exceeds 19.3, but is less than
30.0, such adjustment percentage is equal to 5.25 percent; or
(III) is equal to or exceeds 30, such adjustment
percentage is determined in accordance with the following formula: (P−30)(.6) + 5.25,

98a
where “P” is the hospital’s disproportionate patient percentage (as defined in clause (vi)).
(xii) Subject to clause (xiv), for purposes of clause
(iv)(III) (relating to small rural hospitals generally), in
the case of a hospital for a cost reporting period with a
disproportionate patient percentage (as defined in
clause (vi)) that—
(I)
is less than 19.3, the disproportionate share
adjustment percentage is determined in accordance
with the following formula: (P−15)(.65) + 2.5; or
(II) is equal to or exceeds 19.3, such adjustment
percentage is equal to 5.25 percent,
where “P” is the hospital’s disproportionate patient percentage (as defined in clause (vi)).
(xiii) Subject to clause (xiv), for purposes of clause
(iv)(II) (relating to urban hospitals with less than 100
beds), in the case of a hospital for a cost reporting period
with a disproportionate patient percentage (as defined
in clause (vi)) that—
(I)
is less than 19.3, the disproportionate share
adjustment percentage is determined in accordance
with the following formula: (P−15)(.65) + 2.5; or
(II) is equal to or exceeds 19.3, such adjustment
percentage is equal to 5.25 percent,
where “P” is the hospital’s disproportionate patient percentage (as defined in clause (vi)).
(xiv)(I) In the case of discharges occurring on or after April 1, 2004, subject to subclause (II), there shall be
substituted for the disproportionate share adjustment
percentage otherwise determined under clause (iv) (other

99a
than subclause (I)) or under clause (viii), (x), (xi), (xii),
or (xiii), the disproportionate share adjustment percentage determined under clause (vii) (relating to large, urban hospitals).
(II) Under subclause (I), the disproportionate
share adjustment percentage shall not exceed 12 percent for a hospital that is not classified as a rural referral center under subparagraph (C) or, in the case
of discharges occurring on or after October 1, 2006,
as a medicare-dependent, small rural hospital under
subparagraph (G)(iv).
3.

42 C.F.R. 400.202 provides in pertinent part:

Definitions specific to Medicare.

As used in connection with the Medicare program,
unless the context indicates otherwise—
* * * * *
Entitled means that an individual meets all the requirements for Medicare benefits.
* * * * *
4.

42 C.F.R. 409.3 provides in pertinent part:

Definitions.

As used in this part, unless the context indicates otherwise—
* * * * *

100a
Covered refers to services for which the law and the
regulations authorize Medicare payment.
* * * * *
5.

42 C.F.R. 409.61 provides:

General limitations on amount of benefits.

(a) Inpatient hospital or inpatient CAH services—
(1) Regular benefit days. Up to 90 days are available in
each benefit period, subject to the limitations on days
for psychiatric hospital services set forth in §§ 409.62
and 409.63.
(i) For the first 60 days (referred to in this subpart
as full benefit days), Medicare pays the hospital or CAH
for all covered services furnished the beneficiary, except
for a deductible which is the beneficiary’s responsibility.
(Section 409.82 specifies the requirements for the inpatient hospital deductible.)
(ii) For the next 30 days (referred to in this subpart
as coinsurance days), Medicare pays for all covered services except for a daily coinsurance amount, which is the
beneficiary’s responsibility. (Section 409.83 specifies
the inpatient hospital coinsurance amounts.)
(2) Lifetime reserve days. Each beneficiary has a
non-renewable lifetime reserve of 60 days of inpatient
hospital or inpatient CAH services that he may draw
upon whenever he is hospitalized for more than 90 days
in a benefit period. Upon exhaustion of the regular
benefit days, the reserve days will be used unless the
beneficiary elects not to use them, as provided in
§ 409.65. For lifetime reserve days, Medicare pays for

101a
all covered services except for a daily coinsurance
amount that is the beneficiary’s responsibility. (See
§ 409.83.)
(3) Order of payment for inpatient hospital or inpatient CAH services. Medicare pays for inpatient
hospital services in the following order.
(i)

The 60 full benefit days;

(ii) The 30 coinsurance days;
(iii) The remaining lifetime reserve days.
(b) Posthospital SNF care furnished by a SNF, or
by a hospital or a CAH with a swing-bed approval. Up
to 100 days are available in each benefit period after discharge from a hospital or CAH. For the first 20 days,
Medicare pays for all covered services. For the 21st
through 100th day, Medicare pays for all covered services except for a daily coinsurance amount that is the
beneficiary’s responsibility.
(c) Renewal of inpatient benefits. The beneficiary’s full entitlement to the 90 inpatient hospital or inpatient CAH regular benefit days, and the 100 SNF benefit days, is renewed each time he or she begins a benefit
period. However, once lifetime reserve days are used,
they can never be renewed.
(d) Home health services. Medicare Part A pays
for all covered home health services1 with no deductible,
and subject to the following limitations on payment for
durable medical equipment (DME):
Before July 1, 1981, Medicare Part A paid for not more than 100
home health visits during one year following the beneficiary’s most
recent discharge from a hospital or a SNF.
1

102a
(1) For DME furnished by an HHA that is a nominal
charge provider, Medicare Part A pays 80 percent of fair
compensation.
(2) For DME furnished by an HHA that is not a
nominal charge provider, Medicare Part A pays the
lesser of the following:
(i)

80 percent of the reasonable cost of the service.

(ii) The reasonable cost of, or the customary charge
for, the service, whichever is less, minus 20 percent of
the customary (insofar as reasonable) charge for the
service.
6.

42 C.F.R. 412.106(b) provides:

Special treatment: Hospitals that serve a disproportionate share of low-income patients.

(b) Determination of a hospital’s disproportionate
patient percentage—(1) General rule. A hospital’s disproportionate patient percentage is determined by adding the results of two computations and expressing that
sum as a percentage.
(2) First computation: Federal fiscal year. For
each month of the Federal fiscal year in which the hospital’s cost reporting period begins, CMS—
(i)

Determines the number of patient days that

(A) Are associated with discharges occurring during
each month; and

103a
(B) Are furnished to patients who during that month
were entitled to both Medicare Part A (including Medicare Advantage (Part C)) and SSI, excluding those patients who received only State supplementation;
(ii) Adds the results for the whole period; and
(iii) Divides the number determined under paragraph (b)(2)(ii) of this section by the total number of
days that
(A) Are associated with discharges that occur during
that period; and
(B) Are furnished to patients entitled to Medicare
Part A (including Medicare Advantage (Part C)).
(3) First computation: Cost reporting period. If
a hospital prefers that CMS use its cost reporting period
instead of the Federal fiscal year, it must furnish to
CMS, through its intermediary, a written request including the hospital’s name, provider number, and cost
reporting period end date. This exception will be performed once per hospital per cost reporting period, and
the resulting percentage becomes the hospital’s official
Medicare Part A/SSI percentage for that period.
(4) Second computation. The fiscal intermediary
determines, for the same cost reporting period used for
the first computation, the number of the hospital’s patient days of service for which patients were eligible for
Medicaid but not entitled to Medicare Part A, and divides that number by the total number of patient days
in the same period. For purposes of this second computation, the following requirements apply:
(i) For purposes of this computation, a patient is
deemed eligible for Medicaid on a given day only if the

104a
patient is eligible for inpatient hospital services under
an approved State Medicaid plan or under a waiver authorized under section 1115(a)(2) of the Act on that day,
regardless of whether particular items or services were
covered or paid under the State plan or the authorized
waiver.
(ii) Effective with discharges occurring on or after
January 20, 2000, for purposes of counting days under
paragraph (b)(4)(i) of this section, hospitals may include
all days attributable to populations eligible for Title XIX
matching payments through a waiver approved under
section 1115 of the Social Security Act.
(iii) The hospital has the burden of furnishing data
adequate to prove eligibility for each Medicaid patient
day claimed under this paragraph, and of verifying with
the State that a patient was eligible for Medicaid during
each claimed patient hospital day.
(iv) For cost reporting periods beginning on or after
October 1, 2009, the hospital must report the days in the
numerator of the fraction in the second computation in
a cost reporting period based on the date of discharge,
the date of admission, or the dates of service. If a hospital seeks to change its methodology for reporting days
in the numerator of the fraction in the second computation, the hospital must notify CMS, through its fiscal intermediary or MAC, in writing at least 30 days before
the beginning of the cost reporting period in which the
change would apply. The written notification must specify the methodology the hospital will use, the cost reporting period to which the requested change would apply, and the current methodology being used. Such a
change will be effective only on the first day of a cost
reporting period. If a hospital changes its methodology

105a
for reporting such days, CMS or the fiscal intermediary
or MAC may adjust the number of days reported for a
cost reporting period if it determines that any of those
days have been counted in a prior cost reporting period.
(5) Disproportionate patient percentage. The intermediary adds the results of the first computation
made under either paragraph (b)(2) or (b)(3) of this section and the second computation made under paragraph
(b)(4) of this section and expresses that sum as a percentage. This is the hospital’s disproportionate patient
percentage, and is used in paragraph (c) of this section.

